<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
    FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION

                                ______

        SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                             

                    ANDER CRENSHAW, Florida, Chairman

  TOM GRAVES, Georgia                       JOSE E. SERRANO, New York
  KEVIN YODER, Kansas                       MIKE QUIGLEY, Illinois
  STEVE WOMACK, Arkansas                    CHAKA FATTAH, Pennsylvania
  JAIME HERRERA BEUTLER, Washington         SANFORD D. BISHOP, Jr., Georgia
  MARK E. AMODEI, Nevada
  E. SCOTT RIGELL, Virginia

  
  
  
  

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full Committee, and Mrs. Lowey, as Ranking
  Minority Member of the Full Committee, are authorized to sit as Members of all Subcommittees.

                                Winnie Chang, Kelly Hitchcock,
                                Ariana Sarar, and Amy Cushing,
                                    Subcommittee Staff

                                   ___________________

                                         PART 5

                                                                   Page
  Oversight Hearing: Internal Revenue Service.....................    1
                                                                      
  Internal Revenue Service, FY 2016 Budget Request................  123
                                                                    
  Department of the Treasury......................................  205    
  
  
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                  ________

          Printed for the use of the Committee on Appropriations
          
          
          
          



 PART 5--FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 
                                  2016






    FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION

                               __________

        SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                             

                    ANDER CRENSHAW, Florida, Chairman

  TOM GRAVES, Georgia                     JOSE E. SERRANO, New York
  KEVIN YODER, Kansas                     MIKE QUIGLEY, Illinois
  STEVE WOMACK, Arkansas                  CHAKA FATTAH, Pennsylvania
  JAIME HERRERA BEUTLER, Washington       SANFORD D. BISHOP, Jr., Georgia
  MARK E. AMODEI, Nevada
  E. SCOTT RIGELL, Virginia

 
  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full Committee, and Mrs. Lowey, as Ranking
  Minority Member of the Full Committee, are authorized to sit as Members of all Subcommittees.

                      Winnie Chang, Kelly Hitchcock,
                      Ariana Sarar, and Amy Cushing,
                            Subcommittee Staff

                                ________
                                

                                  PART 5

                                                                   Page
  Oversight Hearing: Internal Revenue Service..................       1
                                                                      
  Internal Revenue Service, FY 2016 Budget Request.............     123
                                                                    
  Department of the Treasury...................................     205
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                                                 

                        _____

                    U.S. GOVERNMENT PUBLISHING OFFICE
  96-927                     WASHINGTON : 2015

                            


 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey                 NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                         MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                                  PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                           JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                         ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                             DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                               LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                             SAM FARR, California
  TOM COLE, Oklahoma                                  CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                          SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania                       BARBARA LEE, California
  TOM GRAVES, Georgia                                 MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                                 BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                              STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                          TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                           C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee                   DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington                   HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                                CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California                        MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                               DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

 
                William E. Smith, Clerk and Staff Director

                                   (ii)


   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2016

                              ----------                              

                                      Wednesday, February 25, 2015.

                  INTERNAL REVENUE SERVICE--OVERSIGHT

                               WITNESSES

HON. J. RUSSELL GEORGE, TREASURY INSPECTOR GENERAL FOR TAX 
    ADMINISTRATION, DEPARTMENT OF THE TREASURY
NINA E. OLSON, NATIONAL TAXPAYER ADVOCATE, INTERNAL REVENUE SERVICE
    Mr. Crenshaw. Well, it is 10 o'clock, and we will start the 
meeting. I want to say good morning to everyone. The hearing 
will come to order.
    Today's hearing is the first of the year for our 
subcommittee. I want to welcome all returning subcommittee 
members. We appreciate all of your hard work. A warm welcome to 
a couple of new members. They are in another hearing, but they 
will be along in a little bit.
    Today this subcommittee is going to hear about activities 
and operations of the IRS from the Treasury Inspector General 
for Tax Administration, J. Russell George, and the National 
Taxpayer Advocate, Nina Olson. We appreciate their willingness 
to share their expertise with us again and to appear before the 
subcommittee exactly 364 days since they were here last time.
    As a matter of housekeeping for the members, we will follow 
the 5-minute rule during the question-and-answer period. I do 
not plan on cutting anybody off in the middle of their 
sentence. But if everyone could keep their comments and 
questions to about 5 minutes, that would be appreciated.
    We will recognize the members in order of seniority based 
on who was seated at the beginning of the hearing, going back 
and forth between the parties, and latecomers will be 
recognized in the order that they arrive, going back and forth.
    Now, last year was a good year for this subcommittee. It 
was the first time since 2008 that the subcommittee's bill was 
brought to the House floor under open rule. And that is thanks 
to the leadership of Mr. Rogers, the chairman of the full 
committee.
    And we do not know when the Budget Committee will complete 
its work on the budget resolution, but both the House and the 
Senate Appropriations full committee chairmen have said they 
intend to bring all 12 bills to the floor this year under 
regular order.
    And, by that, I mean the process by which appropriations 
bills that reflect our funding priorities are marked up. They 
are subject to amendment in the committee and on the House 
floor, and then they will be conferenced with the other 
chamber.
    And for the first time since 2010 the Administration 
submitted its budget request on time in accordance with the 
Congressional Budget Act on the first Monday of February. While 
timeliness is always appreciated, a budget that spends more, 
taxes more, and borrows more is not.
    Within the President's request is a massive $2 billion, or 
18 percent, increase for the IRS. Earlier this month the IRS 
Commissioner told the Senate Finance Committee that the IRS was 
not asking for an increase. No. They were just asking for the 
money that was taken away.
    Well, if the Commissioner believes that the IRS is just 
automatically entitled to $13 billion, I think he is making a 
mistake, because entitlements are for programs like Social 
Security, Medicare, and Medicaid. Providing for the national 
defense is a Constitutional obligation, but even the Department 
of Defense has to come in and appear before the Appropriations 
Committee.
    They have to justify and defend their requests. They have 
got to provide reports and briefings and subject themselves to 
Congressional oversight hearings before Congress and that is 
before we provide them any funds. So the IRS will have to do 
the same thing.
    I think we all want the IRS to answer the phone most of the 
time. We want them to prepare forms and instructions. We want 
them to process returns and process refunds. We want them to 
pursue criminals and tax cheats.
    But I also think we all want the IRS to administer the Tax 
Code in a fair and objective manner. We want them to respect 
the Constitutional rights of taxpayers. We want them to 
safeguard taxpayers from identity theft. We want them to be a 
good steward of the funds that are provided by this Congress.
    And while the IRS has exhibited a litany of questionable 
practices and expenses over the past 5 years with regard to 
processing tax exempt applications, bonuses, conferences, 
videos, and now hiring, what I really want to hear today from 
you all is how the IRS has or could change its ways.
    After 5 years of budget cuts or freezes, I would hope that 
the IRS has turned over a new leaf, studying its budget line by 
line, identifying its highest priorities, reengineering its 
business practices, and concentrating its resources, both 
people and money, on what matters most.
    For example, the Commissioner frequently complains about 
the audit rate going down. But my question is: Could the IRS do 
a better job of selecting which cases to audit and which ones 
not to audit? Has the IRS refined its selection criteria to 
reduce the rate of false positives, cases that are selected for 
audit, but do not result in tax liability? Why expend limited 
resources and burden taxpayers if they are ultimately found to 
be tax-compliant?
    We deliberately lowered the IRS funding to a level to make 
them think twice about what they are doing and why they are 
doing it. They do not have a dime to spare on anything 
frivolous or foolhardy or mediocre. The IRS should and must 
focus on the most important and most egregious and the most in 
need.
    So, again, we welcome General George and Ms. Olson. We look 
forward to your testimony and working with you on improving the 
IRS.
    And now I would like to turn to my ranking member, Mr. 
Serrano. I thank him for all the work that he has done last 
year as we worked together. We didn't always agree, but we 
brought a bill to the floor. And I appreciate his efforts and 
insights.
    And so I would like to yield to you for any opening 
statement you might like to make.
    Mr. Serrano. Thank you, Mr. Chairman.
    And on that note, I just want to say that, had it not been 
for that last airdrop from the Senate on our bill, you might 
have seen a different behavior on our side on our bill, which 
would have been historic in recent times. But, nevertheless, I 
appreciate the work.
    We also have, besides Mr. Quigley, Mr. Fattah and Mr. 
Bishop; Fattah and Bishop being new members of the subcommittee 
who will be here sometime during the hearing.
    Thank you, Mr. Chairman. I would also like to welcome the 
Department of the Treasury Inspector General for Tax 
Administration, J. Russell George, and National Taxpayer 
Advocate, Nina Olson, back to the committee. I know you all are 
very busy; so, I thank you for making the time to be here 
today.
    The IRS ensures the collection of taxes and provides 
taxpayer services. Approximately $3 trillion in Federal revenue 
is collected by the agency each year. The agency employs a 
staff of around 100,000. These individuals help millions of 
Americans who file their taxes, process 237 million tax 
returns, and conduct tax audits and investigations.
    Without the work of the IRS staff, the Federal Government 
would not be able to function, since they collect the vast 
majority of the revenue that allows that to happen. As many of 
us are aware, the IRS has implemented the recommendations of 
the Treasury Inspector General for Tax Administration to remedy 
problems resulting from the inappropriate targeting of liberal 
and conservative 501(c)(4) entities.
    I applaud the agency's undertaking to implement reforms and 
prevent problems from repeating. With that being said, there 
are many challenges that the IRS is currently facing. The IRS 
has been severely underfunded for several years due to budget 
cuts made by this committee, which I strongly oppose. These 
budget cuts have made it difficult for the agency to hire and 
maintain personnel who are essential to carrying out taxpayer 
services and enforcement and who are the ones who are charged 
with fixing the problems at IRS.
    As a result of understaffing, the IRS is anticipating that, 
in fiscal year 2015, it will only be able to answer around 50 
percent of the calls they receive from taxpayers seeking 
assistance. That percentage goes up or down, depending on when 
they release seasonal workers. That is a 57 percent decrease 
from the level the agency was able to function at over a decade 
ago in 2004.
    The IRS also anticipates being unable to collect $2 billion 
in taxes owed to our Nation's Government as a result of these 
cuts. I hope we will get a chance today to discuss the impact 
of these cuts in your eyes.
    The current operating budget is at its lowest since fiscal 
year 2008 and the lowest funding level since 1998. When 
adjusted for inflation, since then, the number of filers has 
increased by 22 percent. New tax responsibilities set forth by 
the Affordable Care Act and the Foreign Account Tax Compliance 
Act passed by Congress are adding to the IRS's growing 
workload.
    The President's fiscal year 2016 request recognizes the 
need to provide the agency with a workable budget by requesting 
more than $1.3 billion over fiscal year 2015. I hope this 
subcommittee will take that request seriously. We, as lawmakers 
and as members of this subcommittee, are charged with the task 
of ensuring that the IRS is able to do its job effectively. 
And, as a result of these cuts, they increasingly cannot.
    I am also concerned with the problems families who claim 
the earned income tax credit, or EITC, face. EITC is a 
successful national anti-poverty program that helps low-income 
families obtain much needed financial support. These families 
make up a large percentage of the IRS audits due to 
unintentional errors and not fraud. This is mostly attributed 
to the complexity of the EITC rules and to errors made by 
commercial preparers. The IRS should implement several changes 
in order to reduce the EITC error rate and has made some good 
steps in this process.
    As I stated before, cutting the IRS budget will hinder any 
progress that has been made. I hope that we can assure that the 
IRS maintains a reasonable budget and is able to make sure that 
taxpayer programs like the EITC are able to fulfill their 
mission. I look forward to discussing these and other issues 
with you today.
    And I thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you, Mr. Serrano.
    Now we will turn to General George for your testimony. If 
you could keep it in the neighborhood of 5 minutes, it will 
allow us time for questions. The floor is yours.
    Mr. George. Thank you, Chairman Crenshaw, Ranking Member 
Serrano, members of the subcommittee. Thank you for the 
invitation to discuss ways for the Internal Revenue Service to 
perform its mission more efficiently and effectively.
    We have reported that a trend of lower budgets and reduced 
staffing has affected the IRS's ability to deliver its priority 
program areas, including customer service and enforcement. In 
addition, it has the increased responsibilities of implementing 
certain provisions of the Affordable Care Act.
    The IRS also continues to dedicate significant resources to 
detect and review potential identity theft tax returns and 
assist victims. IRS employees who work the majority of identity 
theft cases are telephone assisters who also respond to 
taxpayer calls to the IRS's toll-free telephone lines. This has 
contributed to the IRS's inability to timely resolve victims' 
cases as well as the continued decline in its ability to timely 
respond to taxpayers' written correspondence.
    While the IRS faces many resource challenges, TIGTA has 
recently reported on several areas where the IRS can operate 
more efficiently. For example, we determined that electronic 
filing of amended tax returns could save the IRS money and 
prevent the issuance of erroneous tax refunds.
    We believe the IRS could save about $17 million per year if 
it allowed taxpayers to electronically file amended tax returns 
rather than only allowing paper returns. Electronic filing of 
amended returns would also enable the IRS to use the processes 
it currently uses to verify originally filed tax returns.
    TIGTA estimates that using these same processes could 
prevent the issuance of more than $2 billion in potentially 
erroneous refunds associated with amended returns over the next 
5 years.
    TIGTA also found that the IRS's field work collection 
process is not designed to ensure that cases with the highest 
collection potential are identified. With the significant 
growth in delinquent accounts and the reduction in the number 
of IRS employees, it is essential that cases with the highest 
risk and potential for collection are identified.
    The IRS could also make more informed business decisions 
when determining how to use its limited resources. For example, 
the IRS eliminated or reduced services at Taxpayer Assistance 
Centers. Although the IRS stated that the services eliminated 
or reduced were, in part, the result of the IRS's anticipated 
budget cuts, the IRS's plans did not show the extent of how the 
reduction in services would lower costs. Moreover, it later had 
to reverse certain decisions.
    Furthermore, timelier reporting of third-party data and 
additional authority would assist the IRS in improving tax 
administration. Each year, the IRS receives information returns 
filed by third parties, such as employers and educational 
institutions.
    These returns provide the IRS the information needed to 
verify taxpayers' claims for benefits, such as the Earned 
Income Tax Credit and the American Opportunity Tax Credit. 
However, information returns are generally not filed with the 
IRS until after most taxpayers have filed their annual tax 
returns.
    Requiring third parties to file information returns earlier 
would provide the IRS the opportunity to use the information 
contained in these forms to verify tax returns at the time they 
are processed rather than after refunds are issued.
    For example, the IRS issued more than $3 billion in 
potentially erroneous education credits in Tax Year 2012 to 
taxpayers who claimed students for whom the IRS did not receive 
a Form 1098-T tuition statement from a post-secondary 
educational institution. However, even if the third-party 
information returns are received more timely, the IRS still 
needs certain authorities to more efficiently and effectively 
use this data.
    Generally, the IRS must audit any tax return it identifies 
with a questionable claim before the claim can be adjusted or 
denied, even if the IRS has reliable data that indicates the 
claim is erroneous.
    The Department of the Treasury has included a legislative 
proposal as part of the IRS's budget requests since Fiscal Year 
2013 to obtain correctible error authority, which would permit 
the IRS to systematically deny all tax claims for which the IRS 
has reliable data showing the claim is erroneous.
    TIGTA estimates the use of correctable error authority, 
along with expanded use of the Department of Health and Human 
Services National Directory of New Hires, could have prevented 
the issuance of approximately $2 billion in questionable Earned 
Income Tax Credit claims in Tax Year 2012.
    Chairman Crenshaw, Ranking Member Serrano, members of the 
subcommittee, thank you for the opportunity to share my views.
    Mr. Crenshaw. Well, thank you very much.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
        
    Mr. Crenshaw. Now we will turn to Ms. Olson.
    Ms. Olson. Chairman Crenshaw, Ranking Member Serrano, and 
distinguished members of this subcommittee, thank you for 
inviting me today to share my concerns about the problems 
taxpayers are facing in their dealings with the IRS.
    In my 2014 annual report to Congress, I designated 
inadequate taxpayer service as the number one most serious 
problem facing taxpayers. This year, taxpayers are receiving 
the worst levels of taxpayer service since at least 2001, when 
the IRS implemented its current performance measures.
    Taxpayers call and write the IRS not only to get the 
answers to tax law questions, refund status or transcripts, but 
also to request penalty abatements, respond to math error 
notices, and make payment arrangements.
    Yet, from January 1 through February 14 of this year, the 
IRS answered only 43 percent of the calls it received from 
taxpayers seeking to speak with a customer service 
representative, and those taxpayers who managed to get through 
sat on hold for an average of about 28 minutes.
    By comparison, during the same period last year, 77 percent 
of taxpayers got through and waited on hold an average of 10 
minutes. The IRS is now only answering the most basic of tax 
law questions through April 15 and none after that date, and it 
is no longer preparing tax returns for the most vulnerable 
taxpayer populations, namely, the elderly, the disabled, and 
the low-income.
    This performance decline is huge and results from a 
combination of more work and reduced resources. On the workload 
side, the IRS is receiving 11 percent more returns from 
individuals, 18 percent more returns from business entities, 
and 70 percent more telephone calls (through fiscal year 2013) 
than a decade ago, not to mention the Affordable Care Act 
implementation.
    On the funding side, the IRS's budget has been reduced by 
about 17 percent in inflation-adjusted terms since fiscal year 
2010. As a consequence, the IRS has reduced its workforce by 
nearly 12,000 employees and it projects it will have to reduce 
its workforce by several thousand additional employees during 
fiscal year 2015.
    Like any agency, I believe the IRS can operate more 
effectively and efficiently in certain areas. However, I do not 
see any substitute for sufficient personnel if high-quality 
taxpayer service is to be provided.
    The only way the IRS can assist the tens of millions of 
taxpayers seeking to speak with an IRS employee is to have 
enough employees to answer the phones. The only way the IRS can 
timely process millions of taxpayer letters is to have enough 
employees to read the letters and act on them. And the only way 
the IRS can meet the needs of the millions of taxpayers who 
visit its walk-in sites is to have enough employees to staff 
them.
    Now, while I believe the IRS requires more funding on the 
taxpayer service side, I also believe it is incumbent on the 
IRS to spend the resources it has as effectively and 
efficiently as possible. Reductions in services always should 
be made with the goal of minimizing the impact on taxpayers and 
on performance. I find it difficult to ascertain exactly how 
the IRS made its resource allocation decisions with respect to 
taxpayer service or what data it relied upon.
    I have proposed a ranking methodology for the major 
taxpayer service activities for individuals. This new 
methodology will take taxpayer needs and preferences into 
account while balancing them against the IRS's need to conserve 
limited resources.
    Frequently, taxpayer needs are best met by personal 
services that are more costly to the IRS than automated 
services, such as Internet-based services. While it may be 
tempting to migrate taxpayer service toward low-cost self-
assistance options in the current budget environment, such 
efforts may ultimately be wasted and costly if the IRS does not 
properly address taxpayers' actual service needs.
    In the absence of a ranking methodology that takes into 
consideration the taxpayers' needs, the IRS will continue to 
make difficult resource allocation decisions based on limited 
data and gut instinct rather than through comprehensive 
analytic rigor.
    In my testimony and in my 700-page annual report to 
Congress, I have provided numerous other examples of programs 
in which I believe the IRS can utilize its resources more 
effectively and efficiently, including the math error program, 
identity theft, the automated substitute for return program, 
audit selection, and collection case selection.
    The best way for Congress to hold the IRS accountable for 
how it allocates resources and makes decisions is through 
active, consistent oversight of the agency not just on the 
issue du jour, but on the routine work the IRS does. This 
hearing is an example of just such effective oversight.
    It is critical that the IRS take steps to rebuild 
Congressional trust. It is also critical, in my opinion, that 
Congress provide the oversight and funding that the IRS needs 
to do its important work of helping taxpayers meet their tax 
obligations and collecting the revenue on which the rest of the 
Government depends. In my written statement, I have tried to 
offer some recommendations to help in this regard.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    

    
    Mr. Crenshaw. Well, thank you both for those words. Let me 
start by thanking you both for being here.
    Inspector George, we heard from you about how the IRS could 
take some actions to be more efficient. They have got limited 
resources. We know that.
    And, as Ms. Olson pointed out, I have to question--I think 
we all question--how they are allocating and, frankly, how they 
are prioritizing the resources they have.
    I think there is a lot of misperception in the media. And I 
want to be, you know, clear. This subcommittee is not here to 
punish the IRS. We are just trying to hold them accountable.
    We all want to be more efficient and more effective. And 
that is what we are trying to do, as you point out, and that 
includes everything from justifying the taxpayer-funded dollars 
to the highest level.

                      IMPLEMENTING RECOMMENDATIONS

    So let me ask you all. You all have kind of talked about 
some things that you have uncovered and suggested. I ask both 
of you all: How is the IRS receiving these thoughts? Are they 
implementing some of your recommendations? And, maybe, what do 
you see as the most immediate that they can do to really help 
in this 2015 tax season?
    Could you start, General George? Just how is that being 
received? Because you all have really thrown out some pretty 
good ideas and save a lot of money and be more efficient. Is it 
working? What do you hear? How are they doing?
    Mr. George. If I may, Mr. Chairman, I have had the 
privilege, actually, of knowing John Koskinen for almost 20 
years. I was staff director of the subcommittee overseeing the 
transition to the Y2K conversion.
    He is a serious, conscientious public servant who realizes 
the challenges facing one of the most important government 
entities in the world and, obviously, for this Nation.
    He obviously has new responsibilities that the ACA and some 
extraneous items that he inherited before him, but he is 
literally willing to call me at home and meet with me at any 
time to discuss issues that we raise of concern.
    We list, as you know, required by the Reports Consolidation 
Act, a list of the top 10 management challenges. And we listed 
security as the top management challenge confronting the IRS 
this year.
    He is providing resources to address that, in addition to, 
obviously, FATCA, in addition to many of the other areas that 
are confronting the IRS.
    So I am not here to advocate for him in terms of additional 
resources. But, candidly, they are being requested to do a lot 
more with a lot less. And that is something that, again, needs 
to be considered.
    Mr. Crenshaw. Do you sense that some of the thoughts that 
you have outlined to us--are they trying to implement those? 
Are they pretty receptive to some folks that say, ``Here is a 
better way to run the railroad''?
    Mr. George. Very much so, sir. And, again, not to violate 
any confidences, but literally--today is Wednesday. So on 
Monday he called me at 5 o'clock in the afternoon to indicate 
that the initial response they had to a recommendation that we 
made to them to better conduct business--that he reversed--you 
know, they--the staff pushed back. He changed that view and 
adopted our recommendation 100 percent.
    Mr. Crenshaw. Great.
    Mr. George. Yeah.
    Mr. Crenshaw. Thank you.
    Ms. Olson.
    Ms. Olson. I would second what Mr. George says about the 
Commissioner. Obviously, I report to him, but I have reported 
to many commissioners. And this Commissioner has very much an 
open door and does seek my advice.
    I would say about half of our recommendations in our annual 
report to Congress are adopted by them--they agree to it every 
year. Now, the problem is the devil is in the details. How do 
we get them implemented?
    And what I see and I continue to see after 14 years in this 
job is a cultural mindset that really is based on historical 
practices and it is very difficult to get people to look at 
data that might show that their assumptions are no longer based 
in reality. And that is not a problem that is limited to the 
IRS. It is in any large entity. But with the budget where it 
is, that becomes a critical problem.
    And I have advised the Commissioner and identified for him, 
as I have in my testimony and in my report, programs that I 
would say to him to take offline and do basically an audit of 
those programs to really look at, ``What are you doing? How are 
you selecting cases? How are you getting your false positives? 
What are you learning from those false positives?'' and then 
come back and say, ``Okay. We took this program offline. Didn't 
bring in a lot of revenue from this program this year. But we 
can prove through pilots going forward that we are going to put 
so much less taxpayer burden out there, but be much more 
effective with the resources that we have.''
    And I think there is a lot of low-hanging fruit in the IRS 
that you can do this with and some more difficult, but they are 
known and they should be worked on.
    Mr. Crenshaw. Great. Great. Growth and change are difficult 
at times.
    Let me ask one quick question that has to do kind of with 
this Affordable Care Act because I know that is creating a 
burden on the IRS.
    You know, the Administration delays the employer mandate 
from time to time. And they have extended the enrollment 
period, I guess, this year. And they are struggling on the 
front end of the Affordable Care Act. But I have always had 
concerns for a long time about the back end that might be even 
in worse shape.

                       INCORRECT TAX INFORMATION

    And I guess we all saw what happened. The Administration 
announced that 800,000 low- to moderate-income households were 
sent incorrect tax information, or these new 1095s, and that is 
about 20 percent of all the people that receive subsidies under 
the ACA.
    Then I also read that, I think, 50,000 people filed their 
tax returns based on the wrong information as part of that 
800,000.
    And then I learned last night that the IRS has already said 
that they are not going to pursue the collection of any 
additional taxes from the estimated 50,000 people that already 
filed a return based on the incorrect information. So I guess 
the IRS has decided they will just turn a blind eye to that.
    So I was just wondering, have you asked about that yet or 
have they talked to you about that? You know, how do they just 
ignore this situation? Is that something that you are going to 
ask about or have asked about?
    Mr. George. This is such recent news, Mr. Chairman. Most 
definitely we will ask about it. We will inquire about it. But 
it is so new to me that I do not have any additional 
information at this time.
    Ms. Olson. I would say that, first, I wasn't consulted in 
this decision. And so I am still trying to figure out what it 
means. But the IRS always makes a determination of who it is 
going to go after, who it doesn't. Unless we want a 100 percent 
audit rate, we are selecting who we go after.
    I do have concerns about equity of the 50,000 who have 
filed and they are not having to pay back, but the people who 
haven't filed are going to get corrected 1095-As and their 
taxes will be adjusted downward. And we have the California 
folks who have gotten some incorrect information.
    And the incorrect information is expected in the first year 
of any program. We get incorrect information from private 
businesses all the time. And my office has recommended that 
there be a de minimis figure so that it doesn't cost more to 
process a corrected return than it does to recoup the tax from 
it.
    And my understanding is, for many of these 800,000, the 
actual dollar amount is very minimal and some of them will get 
refunds. But, still, it raises concerns. And I will be having 
conversations about that. I only wish I had been able to have 
those conversations before the decision was made.
    Mr. Crenshaw. I guess that will all be added to the tax 
gap. But I look forward to hearing what they have to say.
    Mr. Serrano, do you have some questions?

                            IRS BUDGET CUTS

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. George, IRS employees collected over $3.1 trillion in 
tax revenue, processed over 242 million returns and other 
forms, issued $374 billion in tax refunds during fiscal year 
2014, which is really nothing short of amazing when you think 
about it.
    In fiscal year 2014, their budget was $850 million less 
than it was in fiscal year 2010. And with the fiscal year 2015 
cut of $346 million, it is now down to 1998 levels when you 
take into account inflation.
    You acknowledge this in your testimony and say that 
sequestration increased mandates from Congress, and reduced 
budgets have affected the ability of the IRS to deliver in key 
areas like enforcement and customer service.
    You say in your testimony that--and I quote you--``Budget 
cuts have resulted in significant declines in the performance 
of the IRS collection program.''
    Let's go into more detail about those cuts. You say that, 
from fiscal year 2010 to 2014, the budget for the Automated 
Collection System, ACS, operations and field collections were 
reduced by $269 million.
    Can you explain what ACS is and how those cuts affected it?
    And, Ms. Olson, you could also comment on that.
    Mr. George. Well, what we need to keep in mind, sir, any--I 
have argued throughout my tenure here, if you can make it as 
easy as possible for the American people to comply with their 
tax obligations, they will do so.
    As you pointed out, with the Earned Income Tax Credit, the 
instructions are almost 30, if not more, pages. And for most 
people, whether they are college-educated or not, trying to 
understand the Tax Code is one of the most difficult challenges 
that they face.
    When you have a system that allows for electronic filing, 
as I indicated both in my written and oral statement, that 
assists taxpayers in complying with the Code, and when you have 
instances, as was pointed out both by Ms. Olson as well as 
myself, where they are not answering the telephones, where they 
are closing Taxpayer Assistance Centers and the like, it makes 
it more difficult for people who either do not have the 
resources or the ability, meaning a lot of senior citizens, to 
go to an H&R Block or what have you.
    So the point being is we need to ensure that the IRS, 
again, applies the limited resources that they have to 
providing assistance to taxpayers and, secondly, that they are 
getting accurate information. As you may recall, we have done 
examinations in the past which showed, at some points, almost 
half of answers to the questions that taxpayers posed to the 
IRS by way of a telephone call--to the 800 number, as well as 
the most available Taxpayer Assistance Centers, were 
inaccurate. They were wrong.
    And then we have tax preparers in the private sector who 
either intentionally or unintentionally, again, provide 
incorrect information, the American people overall are harmed 
because of the reduction in the resources--or revenue, rather, 
that is collected.
    So the bottom line is we need to make sure that the IRS is 
able to bring on competent people, have, you know, adequate 
resources in terms of responding to phone calls, but that 
people can get answers accurately by way of using the irs.gov 
system. And I am concerned about all of those areas, sir.
    The first for us--whenever--and it is very rare now because 
I do not travel. But when I used to speak to tax preparers, I 
would implore them, they are the front guard for all of this.
    So if someone is seeking a credit for which they are not 
entitled, these men and women are the ones who, you know, if 
they are honorable people, should tell that taxpayer, ``We 
cannot and we will not fill that form out for you.'' And I am 
very concerned that that is not happening to the extent that it 
should.
    Ms. Olson. The Automated Collection System is a centralized 
call site, and it was originally set up decades ago to be a way 
in a sort of a production environment to be able to reach out 
to taxpayers with relatively modest debts and come up with ways 
of collecting it.
    But over the years what it has turned into is a way of 
using automated levies, et cetera, to go out and, instead of 
making outgoing calls to taxpayers and talking through 
collection alternatives, using a few letters and levies to get 
the taxpayer to call us. And so you are already in a 
confrontational environment when you are in ACS.
    And our research has shown that, actually, ACS is not very 
effective in collecting dollars. The most effective way that we 
have got is actually refund offsets, where a taxpayer gets a 
refund in a year and we have a debt on the books and we just 
grab the refund, and then through installment agreements.
    And our data has shown that, even as the resources 
available to Automated Collection System have dropped, that 
revenue collected through collection has remained stable, 
inflation-adjusted.
    And what we think is the most effective way is if the IRS 
could get to those cases early when the dollars are low and 
then continue to both send letters, like a credit card company 
does, to taxpayers, but also make some outgoing calls to talk 
the taxpayer through their collection alternatives, get them in 
an installment agreement, get it to be a debit agreement from 
their checking account so it is automatic, and then get them, 
even more importantly, on the road to future compliance. That 
should be our focus. Go and sin no more.
    But this is one of those areas where I have not been able 
to make headway with the IRS to really review this perceived 
wisdom that ACS is cost-effective. I think it is not cost-
effective. It brings in some money, but it causes problems for 
taxpayers later on. And we are not working the right cases in 
ACS either. So that is my assessment.
    Mr. George. And if I may just add, Congressman, it is so 
much more inefficient and costly for the IRS to collect money 
once it is out the door.
    They have to do a cost-benefit analysis, and they have 
elected, for the most part, to--and whether it is right or 
wrong--since it is going to be more costly for us to collect X 
amount of money from a taxpayer, let it go.
    Mr. Serrano. Right.
    Mr. Chairman, can I ask one more question?
    Mr. Crenshaw. Sure.

                      AFFORDABLE CARE ACT FUNDING

    Mr. Serrano. You know, on one hand, we hear that record 
numbers of people are signing up through the Affordable Care 
Act, and that is a good thing. Yet, there are still many people 
in both houses who would like it to disappear and others would 
like it to disappear not off the books, but by defunding it or 
not funding it properly.
    So my question to you may sound like the simplest question 
or a set-up question. What could go wrong if we do not fund 
properly the Affordable Care Act? I mean, it is the law of the 
land. It has been, you know, commented on by the Supreme Court. 
It is not going to go away.
    What do we do if it doesn't get--what happens to it--if we 
begin to talk about bad news where people can't sign up or get 
hurt, what happens? I mean, we talk about it, but people really 
haven't analyzed what the full effect would be.
    Ms. Olson. Well, I think you are seeing some of what could 
go wrong by not funding it with the 43 percent level of service 
on the phones and a 70, 75 percent over-age percentage on 
correspondence, where correspondence that the IRS gets they 
can't get through in their timeframes and so taxpayers do not 
get responses.
    I have thought a lot about the Affordable Care Act and the 
administration of it in the IRS, and there are some actual 
positive things from it. This is the one program where we 
actually get information returns, like Mr. George was talking 
about, early in the process and we can use them as we match 
these returns.
    And so, in some ways, the IRS has been able to use the work 
that it has done on the Affordable Care Act to create a model 
for what we should be doing once we get the legislative 
authority to receive other information returns earlier in the 
process and can, as Mr. George says, prevent dollars from going 
out the door that shouldn't. And I think the ACA has really 
helped us, you know, get there. We are doing that with the 
Affordable Care Act.
    You know, one thing I have really thought about is that I 
am very--I am not a healthcare analyst, but I am a practical 
tax lawyer and I think that aligning the sign-up period with 
the actual filing season. If you are really going to run this 
through the Tax Code, it makes sense. If taxpayers are going to 
get a penalty, they see that impact between now and April 15, 
and that might drive their behavior to sign up the next year. 
And having that sign-up period not aligned with it doesn't make 
sense from a behavioral perspective. And that is one thing I 
have thought about.
    Mr. George. And I would just add, sir, that, one, 
obviously, this is unprecedented in terms of the history of 
this country. And from the perspective, as I view it, of the 
IRS, they have invested a lot of money, a lot of energy, into 
this. And so it would be a waste to the IRS if it is repealed.
    Ms. Olson. The other thing that has happened, if I might 
add this, is that a lot of IT projects, small information 
technology projects, that would be good for taxpayers have been 
put on hold because the IRS has a limited IT staff and they are 
focusing on the Affordable Care Act and FATCA. And that has had 
impact to the taxpayers. It increased burden on taxpayers for 
delayed initiatives that would minimize burden on taxpayers in 
other areas.
    Mr. Serrano. Well, I thank you for your testimony. And, of 
course, as the chairman said before, I thank you for being here 
today and for the work you do and your service.
    Mr. Crenshaw. Thank you.
    Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. George, good to see you again.
    Mr. George. Morning, sir.

                         ID THEFT AND TAX FRAUD

    Mr. Graves. Mr. George, I saw in your testimony comments 
about identification fraud and wanted to talk about that just 
for a little bit.
    You indicated in your testimony that it totals about $5 
billion a year, estimated, that is still out there with 
identity theft.
    And just thinking through the process--and I am trying to 
kind of learn how this happens. Maybe I could just ask some 
questions and, hopefully, you could help us, as a committee, 
see through this a little bit.
    When is the earliest that one can file his or her taxes in 
a given year?
    Mr. George. It technically varies, depending upon when the 
IRS decides to open. I mean, of course, the tax years begins--
--
    Mr. Graves. Right.
    Mr. George [continuing]. At the beginning of the calendar 
year. We are speaking generally because you have corporations, 
too, that have different----
    Mr. Graves. I am just speaking of individuals.
    Mr. George. Individuals.
    So I believe this year it was the second or third week of 
January, although last year it was delayed because of funding 
issues. But, then again--and this is not public--I mean, it is 
not private information.
    But, as I indicated and, I believe, as Ms. Olson indicated, 
also, people can file before employers or others who are 
required to report how much money they have reported that 
information to the IRS, sir.
    Mr. Graves. So that would be my second question.
    So an individual could theoretically, this year, have filed 
their taxes the second week of January--so we will just pick a 
date--by the 14th of January.
    And when are the W-2s due to be submitted by employers to 
the IRS?
    Mr. George. I believe it is March. It is March. So yes.
    Mr. Graves. So there is a period of time, then, in which 
one can file their taxes and then there is a gap, a delta, 
until the business owner or the corporation submits their 
backup data to reconcile that. And this can be done 
electronically. I assume an individual can file electronically 
that second week of January.
    And then what is the quickest they could get a return, a 
refund?
    Mr. George. There is a statutory deadline for that.
    Ms. Olson. I think within 4--electronically, there have 
been some refunds going out within 4 days. But, generally, a 
week. And if they file on paper, it could take anywhere from 10 
to 14 days to even more weeks.
    Mr. Graves. Okay. Let's stay with electronic, then, for a 
second.
    Ms. Olson. Yes.
    Mr. Graves. So 4 to 7 days.
    Ms. Olson. Yeah.
    Mr. Graves. So on January 14 one who might have somebody 
else's identity, which could only include a name and a Social 
Security number, if I am correct, could submit an electronic 
filing fraudulently and have a return within 7 days without any 
corresponding information that would reconcile that, and the 
IRS would deposit that money.
    Ms. Olson. If I could just insert here, the IRS, over the 
last few years, has been working with some of the largest 
employers and getting voluntarily their records on the W-2s, 
for example, before they are required to--we would get them 
from Social Security.
    And so the IRS has built some databases for use during a 
filing season that we will run returns through to see whether 
the information reported on them matches. But it is basically 
asking people a favor.
    Mr. Graves. I am just trying to get to the $5 billion in 
improper payments----
    Ms. Olson. Yes.
    Mr. Graves [continuing]. That still exists out there and 
why this occurs.
    So electronically one can file a return. All they need is a 
couple of pieces of data to file a return. The IRS will then, 
without reconciling it, deposit money onto a debit card, if I 
understand properly, that could have been purchased at a local 
retail store, a convenience store, or not even had to be 
purchased. It could have been given to them without any 
identification required there as well.
    So it sort of creates a system that leads me to ask the 
question: Can an IP address allow an unlimited amount of 
returns to be filed through one IP address or are there any 
governing measures on that? And is it domestic only, or can 
it--throughout the world can electronic filing occur?
    Mr. George. There is no limit that is received only in the 
United States. The IRS recently gave people the opportunity to 
have, you know, multiple accounts receive refunds.
    And, sir, I just want to make sure we are clear. It is not 
even just a Social Security number. An individual taxpayer--
what is called an ITIN, an Individual Taxpayer Identification 
Number, can also be used to file and to receive a refund.
    Ms. Olson. If I could just add here, your statement is 
correct. The IRS has got filters that would help it identify 
questionable things, so looking at things from certain IP 
addresses or the volume coming from IP addresses or the volume 
of requested deposit refunds into one account or on one debit 
card or things like that.
    So, you know, we have built filters to identify 
questionable returns. The problem is, no matter how smart the 
IRS gets, you know, others are out there moving one step ahead 
of us. And so you are always sort of tracking behind. And that 
is one way you get to that large, you know, fraud number.
    Mr. Graves. Right.
    A couple more, if I could.
    Mr. Crenshaw. One more.
    Mr. Graves. One more?
    I just have a few questions on my mind about it.
    So you mentioned not overseas, though, Mr. George.
    Mr. George. Oh, no.
    Mr. Graves. Okay. So a filing can occur----
    Mr. George. Yes.
    Mr. Graves [continuing]. Outside of our country?
    Mr. George. Yes.
    Ms. Graves. Okay. And multiple filings can occur from one 
IP address, unless captured by this filter.
    And you say with certainty, though, IP addresses or 
multiple filings through one IP address is monitored and 
filtered?
    Ms. Olson. Well, I can't discuss specific filters.
    Mr. Graves. Okay.
    Ms. Olson. But that is something----
    Mr. Graves. I thought you just did. I'm sorry.
    Ms. Olson [continuing]. That anybody would raise questions 
about.
    But I will note preparers legitimately have an IP address 
that they would be preparing multiple returns through. So----
    Mr. Graves. Preparers who put their name on the form.
    Ms. Olson. On the return. Right.
    Mr. Graves. Right.
    But I am speaking of those who do not.
    Ms. Olson. Right. That would not. That is correct.
    Mr. Graves. So I would like to clarify that.
    Ms. Olson. And that would raise eyebrows.
    Mr. Graves. And then might I ask, Do you know how many 
filings do occur during this period where there is that delta 
in which one can file a return and which the corresponding data 
that would reconcile that is filed as well? Is there a number 
that might correspond there?
    Mr. George. I am going to give you a chance.
    Ms. Olson. Well, I think there are two peaks in our filing 
season. And so one would be just right out of the gate for, 
like, the first 2 or 3 weeks. And that is in your delta period. 
Right from the start of the filing season to about 3 weeks into 
it, people rush to get their refunds.
    And then the second peak is at the very end, when everybody 
is like, ``Okay. Now I owe money and I have got to meet this 
deadline.'' So your problem is in the delta.
    And if I could just make one point here, one thing that I 
have recommended in the past--and it is difficult--is not only 
moving up the dates for us getting that 1099 and W-2 
information, but some countries around the world and some 
States actually do not pay out refunds until after the end of 
the filing season.
    So they have, ``File your returns from this date to this 
date.'' And then there is a pause for like a month and a half 
while the tax agency is able to sort through all this stuff so 
they can see, ``Oh, we have got two returns coming in from this 
Social Security number'' or, ``Two people are claiming the same 
child as a dependent.''
    And you have that period to sort out before you are paying 
any refunds. And then they start paying refunds after a certain 
date. That is really changing the culture in our country, but 
it is one way that other countries have been able to combat 
fraud, to have that pause.
    Mr. George. Okay. And if I just may say, I find it 
appalling, Congressman, when the message from the IRS is, 
``File early so that the criminals can't take advantage of 
you.''
    That is extremely troubling. And it may be common sense, 
again, with resource limitations and what have you, but I am 
actually very shocked and disappointed by that message.
    Mr. Graves. Thank you.
    Mr. Chairman, might I note for the committee that the $5 
billion in identity theft that the General has pointed out is 
nearly half of the entire IRS budget for one year.
    Mr. Crenshaw. Yeah. That is quite a number. General George, 
I can remember when that question was asked, ``How do we 
prevent this fraud?'' and the answer was, ``File early.'' We 
have got to do better than that.
    Mr. Amodei.
    Mr. Amodei. Thanks, Mr. Chairman.
    And thank you both for the briefing.
    Ms. Olson, I am trying to get a sense for--I mean, I hear 
the part about budget cuts and resource allocation. I am trying 
to get a sense--the IRS has been cut 17 percent.

                        TAXPAYER ADVOCATE BUDGET

    Can you give me a feel for what your operation has been 
cut? Has it been 17? More? Less?
    Ms. Olson. My operation this year--you all were very kind 
to my operation and sustained us and actually gave us a little 
bit more.
    And I can only think that the thinking was that, since we 
are the safety valve for the IRS, that when the IRS isn't 
meeting taxpayer needs, there are more taxpayers with 
significant hardship, and that means they come to us. And, in 
fact, our cases have increased by 6 percent so far this year 
over the year before. We are seeing that.

                      TAXPAYER ADVOCATE CLIENTELE

    Mr. Amodei. And then can you give me a profile of the folks 
that kind of hit in the middle of the driveway that you help.
    And let me tell you why I am asking the question. Because I 
know there are statistics out there that the top 10 percent of 
the population pays X amount of the tax, but it is a large 
amount.
    So I would assume, in any organization, when you are, as 
you should be, pursuing collections, that you go to where those 
collections are the most in need of pursuit.
    So I am assuming that the Warren Buffets and the Bill Gates 
of the world aren't calling you up and saying, ``Hey, what do I 
do on my Schedule''--blah, blah. It is most of those folks who 
probably fall into however it breaks down.
    Can you give me an idea of who it is, the demographic or 
where on that rainbow those folks fall that you are serving.
    Ms. Olson. Yeah. You know, it is really interesting. We 
definitely get low- or middle-income working families and then 
small businesses coming in.
    Now, we are always getting--there is always some large 
business that can't get an issue resolved. It is usually an 
account issue that can't get resolved because they are talking 
to a different person each time they call and then they end up.
    But the bulk of our cases, you know, 90 percent of our 
cases, are middle-income, low-income working folks and small 
businesses who are having problems with the IRS. And those 
problems can range from collection problems to earned income 
tax credit problems to other audit problems, account problems.
    And certainly identity theft has been for the last 3 or 4 
years the largest portion of our case receipts each year, going 
anywhere from 20 percent to 27 percent of our case receipts in 
any given year. That is thousands and thousands of identity 
theft cases.
    Mr. Amodei. So you are serving--if these aren't your words, 
do not adopt them.
    But you are serving predominantly people who represent, 
generally, what portion of income to the IRS----
    Ms. Olson. We have actually never really done----
    Mr. Amodei [continuing]. Percentage-wise?
    Ms. Olson [continuing]. An income thing. But I would say, 
you know, middle to low income and, again, small business--very 
small business, sole proprietors.
    Mr. Amodei. Okay. Would it be possible, if you had some 
time, to----
    Ms. Olson. Yes. Absolutely.
    Mr. Amodei. Okay.
    Ms. Olson. We could pull a sample of our population and 
look at their most recent returns.
    Mr. Amodei. Okay.
    Ms. Olson. I would be glad to give that to you.
    Mr. Amodei. Thank you.
    I yield back, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    Mr. Yoder.

                         CONSTITUTIONAL RIGHTS

    Mr. Yoder. Thank you, Mr. Chairman.
    Inspector George, welcome to the committee.
    Ms. Olson, thank you for being here today.
    I note in your testimony, Ms. Olson, your comments 
regarding the culture at the IRS. And I think it is a concern 
that has grown from a concern to an outrage amongst Americans 
in the country and the lack of trust between the citizens and 
their Government, and a lot of it stems from the abuse of that 
trust by the IRS.
    And I note certainly the ongoing abusive practices related 
to--or at least the--hopefully, not ongoing abusive practices 
related to targets and auditing and harassing of Americans 
based upon their free speech rights and their engagement in 
standing up for their beliefs, that they might be targeted by 
the taxing entity in the United States.
    I note that in recent years there have been reports of the 
IRS reading the private emails of Americans without a warrant 
in violation of their Fourth Amendment rights, and the IRS's 
response--or their position was, ``Americans do not have an 
expectation of privacy in their email accounts.'' Americans do, 
and they disagree.
    I note the presence of Congressman Roskam, who has been 
very outspoken on this issue, that in recent weeks there have 
been much light shed on the fact that the IRS has been seizing 
the assets of Americans without due process, without any crime 
required, without any allegations, without any representation.
    This is more than a culture. This is an agency that has 
destroyed the trust between it and the American people, 
believes it is above the law, and believes it can ignore the 
Constitutional rights of Americans.
    And it is just a wonder every day to pick up the newspaper 
and read about what Constitutional rights are being violated by 
the IRS, whether it is the First Amendment, the Fourth 
Amendment, the Fifth Amendment.
    It is beyond a culture. It is a broken agency. And maybe it 
is time to consider wholesale change. Maybe it is time to 
consider the Fair Tax. Maybe it is time to consider something 
completely different. Because what is happening at the IRS is 
not working, and Americans are outraged.
    And so I look towards the Inspector General and Ms. Olson 
for your ideas. But I note that there has been many throughout 
history who have noted that the power to tax is the power to 
destroy. And that is what is happening in this country today, 
and American are outraged.
    And I want to know what the--Inspector General, Ms. Olson, 
what you think should be done and how we correct these abuses 
of Americans' freedom and Constitutional rights?
    Mr. George. Go ahead, please.
    Ms. Olson. All right, well, I think there is a lot in your 
statement. I too share the concerns about the civil asset 
forfeiture, and I think some of the oversight that this 
Congress is doing on that, and looking at the due process 
protections that may need to be added to that process, are very 
important. I think that in terms of the culture, I make a 
distinction. I think in each of the instances that you have 
raised, it is a very small portion of the 90,000 IRS employees 
who are involved in that. And I think there we really need to 
look at those actions and see what more would need to be done. 
I will also note that the IRS adopted, after I had recommended 
it for years, in June, a Taxpayer Bill of Rights. And among 
those rights are the right to privacy, the right to 
confidentiality, the right to a fair and just tax system.
    And you know, Mr. Roskam, and this House passed it last 
summer, and I believe there will be some action this year. And 
I have recommended that you actually codify that, and hold the 
Commissioner accountable for making sure that those rights are 
worked and honored in every aspect of tax administration. And 
frankly, only then will you get back the trust of the American 
taxpayer.
    Mr. George. And I would simply add, sir, I think that you 
were quoting Lord Acton about the power to tax being the power 
to destroy. There is no question at all, that that resonates 
with people. I, again, although I should have prefaced my 
statement by saying, since President Reagan's administration, 
sir, the Secretary of the Treasury has issued a directive--to 
discuss tax policy for the Department of the Treasury. It has 
given sole authority to the Assistant Secretary for Tax Policy, 
so I need to adhere to that. The bottom line is, it has to be 
fair. People have to know that they are being treated 
respectfully. And I will note this because, again, I was a 
staffer on Capitol Hill, when the IRS Restructuring and Reform 
Act was passed which created TIGTA, and I don't know whether--
--
    Ms. Olson. And my office.
    Mr. George. And Ms. Olson's office. So it seems that 
periodically, the IRS experiences this period where things are 
amiss, and I am not sure, sir, whether you were here or not, 
but I earlier, again, gave a lot of credit to the current 
Commissioner who is an extraordinarily experienced executive 
and who is taking these matters quite seriously, and I think 
will hopefully have a positive impact on the workings of the 
IRS.
    Mr. Yoder. Well, I appreciate your response. There is a lot 
of work to be done here and I think beyond just a bill of 
rights, I think there need to be wholesale changes of how we 
operate the IRS and maybe looking at complete reform, things 
like the Fair Tax.

                         EITC IMPROPER PAYMENTS

    I do want to ask one other question, Mr. Chairman, thanks 
for a little more time here, to just ask about the Earned 
Income Tax Credit. It now ranges in fraud or misapplied 
payments in the amount of $16- to $19 billion. It is 24 to 29 
percent of the entire program. And I think about some of the 
priorities I have in Congress, helping educate young children 
through Head Start. We spend $9 billion on that; NIH funding, 
we spend $31 billion on that. The ability to invest in things 
that matter to this country by those lost dollars and the 
impact it has on children, or cancer research, I think is 
heartbreaking, and it also speaks the inability of the IRS to 
solve this problem because it goes on year after year.
    We have been working on trying to get to the heart of what 
causes this, and we see that there is a rise in the misapplied 
payments and the fraud from folks who file on their own, don't 
file through a preparer, and there are different standards that 
are applied in those cases. And so I guess my question would 
be, do you believe that tax filers make when online self-
filing, that those certifications are best designed to prevent 
fraud and prevent improper payments? Do you have any further 
suggestions for eliminating improper payments across the board? 
And what are the consequences for knowingly filing and EITC 
certification via a paid preparer? Are they the same as 
falsifying online self-preparation?
    Mr. George. Again, sir, I don't recall whether you were 
here. The instructions for filing the Earned Income Tax Credit 
are extraordinarily complicated. And so, obviously, if somebody 
wants to commit fraud--we have a voluntary compliance system, 
so if someone wants to cheat on their taxes, unless you 
required third-party reporting on everything that anyone earns, 
people will be able to do so. The key, of course, would be for 
the IRS to make examples of people who are caught having 
cheated on any aspect of their tax return. That, obviously, 
practically cannot work because of the millions of people 
involved and the billions of dollars involved.
    I will say this: For over 20 years, the Earned Income Tax 
Credit has been one of the most abused credits in the tax 
system. And while some progress was made at one point, not 
enough has been done. And the Commissioner knows this, Congress 
knows this. So I--again, unless you are going to start 
arresting people and prosecuting and parading them in front of 
cameras, I really don't have a definitive answer for you.
    Ms. Olson. Could I make a comment about that? I think that 
there are multiple sources of error and fraud in the Earned 
Income Tax Credit. And I have--I owned a tax practice when the 
Earned Income Tax Credit was enacted, so I sort of feel like we 
are good buddies from 1975 on. I have wondered about that 
decline in preparer prepared returns, and I think really there 
are preparers involved. They are just no longer signing them. 
And that might go to an IP address thing. Can you find out 
whether you are getting a number of these returns from one 
address, or going into one bank account?
    But preparer regulation for this unenrolled population is 
going to be huge. Because if you can deal with a preparer 
strategy, if you can deal with one preparer who is doing bad 
returns, you are not going just one taxpayer by one taxpayer, 
you are getting the whole bunch of those returns. The other 
thing is, we have made legislative recommendations for changing 
the statute itself that might help minimize some of the 
opportunity for fraud. And the third thing that I would say, we 
have done research that shows that the IRS is actually not 
auditing the right issue when they are doing their audits of 
EITC. They are not auditing the issue that actually our own--
the IRS's own research has shown has the most dollars 
associated with it. So they are sort of going after the lowest 
hanging and easiest fruit rather than the area where you might 
be able to move the dial on improper payments. And those are 
just three things that I would comment on.
    Mr. Yoder. Thank you. Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you, and also, I remind the members 
that the Commissioner will be coming before the subcommittee 
and a lot of these questions can be directed to him. I think 
for those that missed the opening statement, I think Ms. Olson 
and Inspector George really brought out some of the things that 
they are working on in ways to improve and that is kind of 
their job, and we appreciate that very much. Let's go to Ms. 
Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. And I 
apologize. I had--it is like the constituent visit time, on top 
of hearing time. So multiple places at once. So I apologize. I 
have a couple of questions and I find this horribly 
fascinating. It is terrifying to me that this is what we are 
having to deal with and work through. I mean, each one of the 
issues raised is a giant tragedy of a play unto itself. So I 
thank you both for the work that you are doing.

                             S CORPORATIONS

    Mr. George, you estimate that in the 2013 season, as much 
as $2.3 billion were erroneously given to corporations in 
carryforward credits. However, the IRS doesn't plan, as best I 
can tell, to follow your recommendations to address it. We have 
talked a little bit about that. And then you went on to say 
that the IRS is dedicating significant resources toward 
addressing what it believes is the most significant risk to 
compliance, the use of flow-through entities, such as 
partnerships. Flow-through entities, S corporations, from my 
experience, and just in my region, in my district, are the 
small family-owned businesses. In fact, I got to tour one this 
last week. And obviously, some of the biggest users of 
carryforward credits are giant corporations, publicly traded. 
Correct?
    Mr. George. Yes.
    Ms. Herrera Beutler. Do you have any idea why the IRS is 
ignoring that $2.3 billion? I mean, as we were talking about 
NIH funding, and cancer funding, and all of these other things, 
it is hard to understand their priorities here.
    Mr. George. And please, I hate to punt here, but that is a 
policy question, Congresswoman. And I am going to have to defer 
on that one.

                       REHIRING FORMER EMPLOYEES

    Ms. Herrera Beutler. Okay. Okay. Well, we look forward to 
the Commissioner joining us. Let me switch. I actually have a 
couple more questions for you, if that is okay. Your testimony 
highlights several of the shocking behaviors. We have been 
talking about it all morning. Most notably to me is that the 
IRS is rehiring those that it fired, those specific employees 
who were, I feel, acting as predators. They are supposed to be 
protecting and at the very least adhering to the law, but in 
many cases were selling folks out.
    Help us understand the IRS' response to this, and possibly 
how we could, I mean, we have brought--this committee has 
brought this up to the Commissioner in years past. How do we 
make a dent here?
    Mr. George. Again, Congresswoman, before you arrived, I 
pointed out the fact that the Commissioner, John Koskinen and I 
speak, if not every day, every other day. And while I don't 
want to steal his thunder on this very issue, he called me 
Monday and issued to me a statement about the fact that they 
saw the report and while initially his staff pushed back, it is 
part of, again, what occurred under the Restructuring and 
Reform Act of 1998, which issued a listing of things that if 
IRS employees did or violated, they were subject to everything 
from just, you know, excuse me admonition to removal.
    [The information follows:]

    ``The report that Commissioner Koskinen called about, where his 
staff initially pushed back, was not the report on rehiring employees 
with prior performance and conduct issues. Instead, it was about a 
report that we will be issuing shortly on IRS employee tax 
compliance.''

    And so to make a long story short, they are going to change 
their policies as it relates to that and I think at his 
appearance before this committee, you know, he will make a 
formal statement as to what those changes are. Obviously, it 
is--it was, you know, repellent that they would allow people 
who were accused of engaging in the behavior that we 
identified, were able to be rehired. A lot of these people were 
seasonal people. As you may know, during the filing season, the 
IRS hires tens of thousands of people to help process tax 
returns, and the bulk of the people that we identified in that 
report were in that pool.
    And now, in all candor, you know, he has to make some 
choices because if he can't hire 30,000 people, they can't 
process tax returns unless everyone files electronically. But, 
and then there are some instances--I mean, you are innocent 
until proven guilty. If you are accused of a tax violation, you 
have the right to appeal it and some people win their appeals. 
So you have to be fair to people, and yet, at the same time, 
just the appearance.
    Ms. Herrera Beutler. Well, and I think that is it. When we 
were talking about credibility here, this at the IRS has to be 
above reproach. It is not--there are so many reasons, and so I 
think if it takes more time and effort to make sure they get it 
right, it is worth it.
    Mr. George. I agree.
    Ms. Herrera Beutler. Thank you. I yield back.
    Mr. Crenshaw. Thank you. I would like to now recognize one 
of the new members of the subcommittee, Mr. Rigell, who is from 
Virginia.
    Mr. Rigell. Thank you, Mr. Chairman and I am delighted to 
be here. And like some of the other members, my preference 
would have been, of course, to have been here from the very 
beginning, but the schedule just didn't permit that. So if what 
I ask, if there is a bit of redundancy here, I apologize in 
advance for it. But this is an important topic and I thank you 
both for being here and for your service. I do.

                            CUSTOMER SERVICE

    I was raised by a NASA engineer, and so this idea of how we 
view the Federal employee to me is very important, I see as 
fellow Americans trying to do the right thing. Now, that said, 
we are in a tough spot here with the IRS on multiple levels. 
And I would like to draw your attention, Inspector George, to 
the first, really the first contact that a taxpayer can have 
with the IRS, and a hardworking American trying to get it 
right, trying to pay his or her taxes, trying to get guidance 
on this. And you know where I am going with this. The trends 
are just not good in terms of response time. We are heading in 
the wrong direction, and it is a serious thing. You get to 
where you are on hold for 30 minutes. This is very 
discouraging, and it does breed a lack of confidence, if not 
contempt, you know, for the agency. So if you would, in a 
concise way as you can, try to explain, to help me to 
understand why that is the case, and we will see where we are 
going with the follow-up question.
    Mr. George. It is resources, sir.
    Mr. Rigell. Okay, I thought so. Let me ask you this: This 
is something that I think is really important here. And I don't 
go to work every day at the IRS, clearly. But it seems like 
there is this consistent pattern of it is always more money. 
Now, if you could provide some objective metric, some table 
that shows, you know, cost per call, the number of applications 
or tax returns that have been filed on the ratio of the number 
of IRS employees, for example; you could show some linkage 
here, I would be more open to the argument. But what has to 
happen certainly in the private sector, and I think it must 
happen in the public sector, is this belief that productivity 
and increased customer service are not mutually exclusive. And 
if the leaders themselves don't believe that, then there is no 
way the organization is going to move in that direction. So if 
you would, please, address that whole mindset that it is not 
always more resources. Help me to understand your view on that.
    Mr. George. Sir, and I beg the chairman's indulgence--
because he has heard me, I think, recite the following. You 
haven't, but----
    Mr. Rigell. Okay, thank you for your patience and saying it 
to me.
    Mr. George. Well, but this is so important.
    Mr. Rigell. All right.
    Mr. George. It is called third-party reporting, sir. There 
is a high correlation between tax compliance and third-party 
information reporting and withholding. The IRS itself estimates 
individuals whose wages are subject to self-reporting--
withholding, rather--so reporting by a third party--report 99 
percent of their wages. So if a business or you know, anyone 
else reports to the IRS----
    Mr. Rigell. Right.
    Mr. George [continuing]. We pay, you know, Russell George, 
you know, $100, you will get 100 percent from me, but 99 
percent from most people.
    Mr. Rigell. There you go. For the record. Okay.
    Mr. George. Now, self-employed individuals who operate 
nonfarm businesses are estimated to report only 68 percent of 
their income for tax purposes. So again, these are people who 
are not given--that information is not given to the IRS, at 
all, and they are estimated to report only a little more than 
two-thirds. But here is the most, I think, shocking figure. 
Self-employed individuals who operate businesses on a cash 
basis are estimated to report only 19 percent.
    Mr. Rigell. The numbers don't surprise me. And let me pivot 
back though for a moment, because I know you are trying to 
answer my question. But I think we passed each other on this. 
Because what I was seeking clarification on is the culture, the 
ethos, the mindset of the senior leadership within the IRS, 
that productivity and increased customer service to the 
taxpayer are not mutually exclusive. That is, that with the 
same number of staff or the same amount of resources, that if 
we maybe have a different workflow, we leverage technology, 
that we can have both, increased productivity. We can reduce 
the amount of time it takes to answer a call, which is now--
well, less than half are being, you know, to where the taxpayer 
is actually speaking to the representative, and then they are 
on hold waiting for that for about 30 minutes. So I don't think 
you answered that part. And I don't see that my clock is 
winding down so I am not exactly sure how the time works here 
on the committee yet, but the chairman will remind me.
    Mr. Crenshaw. Well, you are almost out of time.
    Mr. Rigell. I imagine.
    Ms. Olson. May I attempt to answer that?
    Mr. Rigell. Please. That is really, to me, we are in an 
area and a time of increasing austerity, principally because 
healthcare cost, and that is just a whole other subject. But we 
are going to have compression on the rest of the budget into 
perpetuity because of mandatory spending, defense, 
transportation, education, and on agencies like the IRS. So 
this mindset of getting more and having higher productivity has 
got to be part of how we think.
    Ms. Olson. I think that the IRS leadership is actively 
working on a concept of operations for the years to come that 
will incorporate online taxpayer accounts, so that taxpayers 
can see what is going on. They can communicate with the IRS 
electronically. They can send documents to the IRS, trying to 
drive some of the traffic on the phones over to the electronic 
environment. And I think that will then leave--that will then 
allow the resources on the phones to be able to address the 
issues that people really need to talk to somebody about.
    Mr. Rigell. Ms. Olson, just out of respect for the 
Chairman, I think he is about to hit the button. But I just 
wanted to tell you, I thank you both. My parting thought is 
that this idea of increasing productivity and simultaneously 
increasing response rates, if the leaders themselves don't 
believe it, it will never happen. And so I just want to be sure 
that that message is dispersed to the extent that it can be. I 
thank the chairman, and yield back.
    Mr. Crenshaw. Thank you. Yeah, we have taken a little 
liberty with the clock today and I think everybody has had a 
chance to ask as many questions as they might want. I know Mr. 
Serrano has another question.
    Mr. Serrano. Well, let me first turn to our new colleague 
that what the chairman is doing, he had an eraser, and he was 
just erasing things he had written on the wall there. And--you 
know, Crenshaw was here, that kind of thing.
    On a lighter level, I just read where Floyd Mayweather and 
Manny Pacquiao are going to make close to $250 million. I think 
the IRS is going to have with that and Pay-Per-View with HBO 
and Showtime. I think there will be a little income coming into 
the Nation's Treasury. I wish I knew what percentages they pay 
for that kind of money, you know, and does Manny have to pay in 
the Philippines, and do we have an arrangement with that. But I 
will ask the Commissioner that.

                   TAX EXEMPT AND GOVERNMENT ENTITIES

    Let me just talk to you about the EO unit, and follow up on 
some of the questions that were asked before. That was an area, 
believe it or not, where we saw bipartisan outrage, and there 
was a discussion about whether one side was targeted and 
another side was targeted. It didn't matter. We felt both sides 
were targeted. On this side we felt both sides were targeted. 
And we didn't like it. And now your testimony says that changes 
have taken place in that unit. Then we hear that we are 
rehiring some people that might have been part of the problem.
    So my question to both of you is: What changes have taken 
place? Should the American people and the Congress feel more 
confident that this will not happen again, or certainly, you 
know, can be prevented in the future because it was 
embarrassing to everyone? And like I said, it was a bipartisan 
outrage. It wasn't, you know, us against them or them against 
us. And secondly, budget cuts. Are there now enough people in 
that unit to be able to take care of the changes that need to 
be made?
    Mr. George. As to the second question, sir, I will have to 
defray--defer, rather, to the Commissioner. He needs to--I 
don't know the answer to that question.
    As to your first question, the IRS has agreed to every one 
of the recommendations that we issued in that report which 
preceded his arrival, out of fairness to him. We are in the 
process now of validating whether or not that is actually the 
case. We also made a commitment to Mr. Cummings, and I informed 
then-Chairman Issa, of the fact that we were going to and we 
are in the process of looking at how the IRS treated groups 
that were not related to Tea Party, Patriot, and the other 
groups that were identified initially by the IRS as being part 
of the groups they had, you know, I am going to use the word 
targeted now just as because you used it, but that is not the 
word we used.
    I cannot--we are human beings, sir. So you can have every 
rule in the world, and if someone wants to disregard the rule, 
they can. And again, with the IRS, ranging from 80-plus-
thousand, to at its height, 100-plus-thousand, there are bad 
apples everywhere. So I cannot sit here and, you know, before 
Congress say that nothing could ever reoccur.
    Mr. Serrano. Right.
    Mr. George. But you know, I think in this environment, you 
know, you are dealing with some smart people now at the head of 
that organization. And I am optimistic that they will avoid a 
repeat of this type of behavior.
    Mr. Serrano. Well, I think that statement is a good one. I 
mean, I don't expect you to, of course, say you know, what 
human nature will be like, or human behavior will be like. But 
if you in your position feel that it has tightened up, that 
there are people trying to make sure it doesn't happen again, 
that certainly is satisfactory to me. I don't know if it is to 
other members of the committee. Like you say, you can't judge 
what people will do. I mean, you can certainly put in place 
rules that make it harder for them to practice it or to do it. 
Ms. Olson.
    Ms. Olson. Well, I view what had happened, and I say this 
not trying to minimize it, as really managerial malpractice; 
that there was a lack of serious attention and assistance being 
given to the frontline employees who were trying to get 
answers. And that is why entities that were selected and 
targeted did not get action on them. And those kinds of 
managerial failures have been corrected. There are processes in 
place for review and getting answers and information that 
didn't exist when all of that was going on.
    I would say that right now, what is happening with the 
returns is that the IRS has changed the rules saying all you 
have to do is attest that a certain percentage of your activity 
will not be, or will not be put, to political activity, 
electioneering, and you are fine. And then they are going to 
rely on audits on the back end to see if they have got any 
abuses there. And so we are not really out of the woods here 
yet because we don't know how they are going to be auditing 
these entities, what they are going to think is an abuse later 
on. And that brings us back to: I really do believe that 
Congress needs to act to give a little bit better definition 
and guidance to the IRS about what constitutes political 
activity and what is the incorrect or the untolerated level of 
political activity.
    I have made a legislative recommendation in my report to 
Congress this year about that, and I think that will help 
enormously. But I do think we will have to see how the IRS 
selects entities for audit before we can say, you know, where 
we are on this.
    Mr. Serrano. Thank you. Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you, Mr. Serrano, and I thank everyone. 
I have got some more questions, but I will submit them to the 
record, and I know others as well. But let me again thank you 
all for being here, because I know you have got a tough job. As 
you stated your testimony, there are things that you are doing 
to try to help us. We are all trying to help the IRS even 
though the IRS has never been one of the most endearing 
agencies to most people in America. And it seems like when we 
started all this, when Commissioner Werfel was the new guy, and 
I asked him, I said, do you think the IRS has betrayed the 
trust of the American people? He said yes. I think there is a 
lot that goes into restoring that trust, and quite frankly, I 
don't think complaining about the lack of money, or not 
answering the telephone, or things like that, is the best way 
to restore trust. But I do think the things that you all have 
come up with, the recommendations that you see every day, if 
the Commissioner were to implement those, I think it will help. 
The Commissioner is going to come before us, and we will have a 
lot of questions for him. But you have done a great job, a 
great service, in the work that you do to let us know your view 
of the world as it relates to the IRS. We want to do a better 
job and ultimately we want the IRS to do a better job. So 
again, thank you for being here today. This meeting is 
adjourned.
    Mr. George. Thank you, sir.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   

                                         Wednesday, March 18, 2015.

                    INTERNAL REVENUE SERVICE--BUDGET

                                WITNESS

HON. JOHN A. KOSKINEN, COMMISSIONER, INTERNAL REVENUE SERVICE
    Mr. Crenshaw. Good morning, everyone. The meeting will come 
to order.
    I want to welcome the Internal Revenue Service Commissioner 
John Koskinen to our committee here today to discuss the 2016 
IRS budget request.
    This is a busy time for the IRS. And so, Mr. Commissioner, 
we appreciate you being here today to share your testimony and 
answer any questions we might have.
    Now, for 2016, the IRS is requesting a massive $2 billion 
or 18-percent increase. Commissioner, last month, you told the 
Senate Finance Committee that the IRS was not asking for a 
budget increase but just for the money that was taken away from 
you, presumably, by this committee. And it came as a surprise 
to me to learn that you might believe the IRS is entitled to 
$13 billion because entitlements are for programs like Social 
Security and Medicare and Medicaid.
    National security, it is a Constitutional duty, but even 
the Department of Defense has to appear before the 
Appropriations Committee. They have to justify their budget 
request. They have to subject themselves to the Congressional 
oversight before Congress provides DOD with any funds.
    And so IRS has to do the same.
    Now, contrary to what we all read in the media from time to 
time about this Committee, we are not here to simply punish the 
IRS. We are here to hold the IRS accountable for the use of the 
taxpayer dollars. We deliberately--yes, we deliberately lowered 
the IRS funding to a level that would make the IRS think twice 
about what you are doing and why you are doing it because you 
don't have a single dime to spare on anything frivolous or 
foolhardy or even mediocre.
    Now, the IRS should focus on its core mission of providing 
taxpayer services such as processing returns and issuing 
refunds, providing customer service like answering the 
telephone, and catching tax cheats. If the IRS wants more solid 
and sustainable funding, then the IRS needs to show Congress 
and the American taxpayers that it can manage its funding 
responsibly and administer the Tax Code in an objective way.
    But, unfortunately, it seems like we read week after week 
after week about one form of IRS mismanagement or another, such 
as overlooking 50,000 tax returns filed using incorrect 
information; hiring former employees with known conduct 
problems; paying bonuses to tax-delinquent employees; frequent 
and costly executive travel; lacks oversight of purchase cards; 
lavish spending on conferences; and last but not least, 
applying extra scrutiny to certain tax-exempt organizations.
    And then, to add insult to injury, the budget request seeks 
to eliminate some of the key provisions that we on this 
committee added to help the IRS move past this series of 
mismanagement. A provision that says you cannot target, well, 
that is not in the request. A provision that requires videos to 
be reviewed for appropriateness, that is gone. A provision that 
requires compliance with the Federal Records Act, that is gone. 
A provision that guards against excessive conference spending, 
that is not in the request. There is a provision that we put in 
to uphold the confidentiality of tax returns, that is gone.
    Now, to me, these are just commonsense good government 
reforms that we put in the bill to help restore the trust in 
the IRS. So I hope that when you submit your 2017 budget that 
you might think about adding them back to your budget request.
    Now, we talk about doing more with less around here. These 
are tough economic times. And, Commissioner, I have heard your 
complaints about doing less with less--it is hard to do less 
with more. But I want to remind you that additional dollars are 
not the only solution. In fact, last month, the Government 
Accountability Office, or the so-called GAO, a nonpartisan 
agency, said, quote, ``Although resources are constrained, IRS 
has flexibility in how it allocates resources to ensure that 
limited resources are utilized as effectively as possible, 
magnifying the importance of strategically managing operations 
to make tough choices about what services to continue providing 
and which services to cut,'' end quote.
    So, instead of asking for the money that has been taken 
away from you, what I would hope that you would do is to study 
your budget line by line, prioritize your activities, and 
reengineer your business processes to deliver these priorities. 
This is your opportunity to show this committee and to show all 
Americans that it is no longer business as usual with the IRS. 
This is an opportunity to show that you have shaken things up 
and turned things around. We hope you will do that.
    And, finally, I just want to highlight some landmark 
legislation that was enacted last year, called the Achieving a 
Better Life Experience Act, or the so-called ABLE Act. The ABLE 
Act opens the door to a brighter future for millions of 
Americans with disabilities, allows them to set up a tax-free 
savings account similar to a 529 to save for college.
    Now, States are responsible for administering this program 
and some of the States have already started the legislative 
process to create these ABLE accounts, but the IRS is required 
to issue regulations by June 19. So I fully expect the IRS is 
going to meet that statutory guideline.
    So, again, let me thank you, Mr. Commissioner, for being 
here today.
    Let me turn to my distinguished ranking member, Mr. 
Serrano, for any comments he might have.
    Mr. Serrano. Thank you, Mr. Chairman.
    And I join you for welcoming the Commissioner back before 
the subcommittee.
    We are here today at a very serious time for the Internal 
Revenue Service. Last year, the IRS budget was cut by $346 
million, leaving the Agency at the lowest level of funding 
since fiscal year 2008. Since fiscal year 2010, the IRS has 
been cut by more than $1.2 billion. And if some in the other 
party had their way, it would have been cut even further.
    The results of these cuts are predictable. Is it a surprise 
to anyone that the IRS telephone response rates have plummeted? 
Is it news to anyone that the IRS is unlikely to collect as 
many taxes when we reduce their funding in such a ham-handed 
way? This subcommittee has a constant debate about the impact 
of additional dollars in the IRS budget. But today we debate 
the converse: What is the impact of less dollars to the IRS and 
to this Nation?
    We are already finding out. In this fiscal year, the cut of 
$346 million is expected to result in a $2 billion reduction in 
taxes collected. The math is simple: For every dollar this 
subcommittee cuts from the IRS last year, the country lost 
almost $6 in tax revenue that is owed to it. These are not 
numbers that can simply be made up by efficiencies, no matter 
how hard people may try. That is not a sustainable course. As 
the responsibilities of the IRS grow, we simply cannot keep 
pretending the IRS can do more with less. The numbers already 
tell us that they cannot.
    And this brings me to the IRS fiscal year 2016 budget 
request. Your budget requests significant investments in the 
agencies to reverse the cuts sustained by the agency over the 
last few years. Your proposal plans to invest in much needed 
efforts to assist taxpayers to fight against identity theft, to 
implement the Affordable Care Act and the Foreign Account Tax 
Compliance and to go after offshore tax cheats.
    From your proposed enforcement efforts alone, you expect to 
collect an additional $3.47 billion by fiscal year 2018. It is 
our job on the Appropriations Committee to vet the budget 
request of the administration. And that is what we will do here 
today. But it is also our job to make sure that agencies have 
their resources to run effectively. And, with regard to the 
IRS, we have failed in that responsibility. Moreover, the cuts 
to the IRS don't just impact the agency or even the American 
taxpayer; they impact our deficit.
    No one here can claim the mantle of fiscal responsibility 
if they plan to support excessive and harmful cuts to the very 
agency that brings in more than 90 percent of our revenue. It 
is time to stop punishing the IRS and time to start reinvesting 
in the one part of the Federal Government that most Americans 
have an interaction with.
    Commissioner, welcome back, and I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    I now would like to recognize the Chairman of the full 
committee, Mr. Hal Rogers, for any opening statement he might 
make.
    Chairman Rogers. Mr. Chairman, thank you very much for your 
courtesy in yielding me time.
    Mr. Commissioner, we are glad to see you here. I am not 
sure you feel mutually the same way. But it is always good to 
see someone with strong Kentucky roots in the hearing room, 
particularly during basketball season, and particularly----
    Mr. Koskinen. It looks like a good year for you.
    Chairman Rogers. Yeah, it looks like it, but we will see.
    While I think much of you personally, Mr. Commissioner, I 
unfortunately find many aspects of the budget request 
troublesome. Since fiscal year 2011, this Committee has pared 
back IRS' astronomical budget requests on a bipartisan basis. 
This is largely a result of this committee's concerted effort 
to reduce discretionary spending government-wide; justifiable 
concern over the implementation of Obamacare and the Foreign 
Account Tax Compliance Act; and various objectionable 
management decisions at the agency--for example, targeting 
certain groups and holding lavish conferences at taxpayers' 
expense. It is therefore surprising to see that the fiscal year 
2016 budget request that you have for the IRS is $12.9 billion, 
a significant 18-percent increase over the current level. The 
majority of this proposed increase, $2 billion, would be 
utilized to implement Obamacare and the Foreign Account Tax 
Compliance Act, and towards a discretionary cap adjustment.
    There are a number of issues with this request, but three 
in particular stand out. First, the Budget Control Act does not 
allow for a discretionary cap adjustment for the IRS. As you 
know, that would require a statutory change outside the 
jurisdiction of this committee--a legislative change that has 
been rejected by both the House and Senate Budget Committees 
for 4 consecutive years. If the activities funded by the 
discretionary cap adjustment are important to this 
administration, then you ought to operate within the amount 
allowed under the Budget Control Act. The IRS needs to 
prioritize its spending like every other federal agency.
    Second, this Congress has repeatedly rejected additional 
funding for the implementation of Obamacare. I am concerned, as 
are many of my colleagues, that the IRS, through CMS, recently 
made $2.7 billion in payments to insurance companies without 
the approval of Congress. The courts will be the ultimate 
arbiter of this issue, but I can say without a doubt that this 
committee has never appropriated a single penny to permit the 
administration to make any Section 1402 Offset Program 
payments.
    Speaking of the courts, I would be remiss if I did not 
acknowledge King v. Burwell, currently under consideration by 
the Supreme Court, which will determine whether the IRS can 
extend taxpayer subsidies to individuals who purchase coverage 
through the healthcare exchange developed by the Federal 
Government. While the Supreme Court probably won't rule on the 
case until this summer, now is a good time to start thinking 
about the potential impact of the case on the IRS.
    Finally, I am disappointed that the IRS requests to 
eliminate the three administrative provisions that have been 
enacted on a bipartisan basis for several years. Since the IRS' 
targeting and spending scandals, Appropriations bills have 
included prohibitions against: targeting U.S. citizens for 
exercising their First Amendment rights, targeting groups for 
regulatory scrutiny based on their ideological beliefs, and 
making videos without advanced approval. We are dealing with 
taxpayers' money, and these provisions lay out what most people 
would consider common-sense policies.
    Finally, Mr. Commissioner, I want to mention, in the last 
couple of days, we have seen press reports that there are 
literally billions of dollars annually that are being paid 
fraudulently to people who don't deserve or earn them under the 
law, a good chunk of that in the IRS. I mean, this is an open 
sieve. It seems to me, that people who do not qualify for 
assistance are gaining lots of money for doing nothing except 
lying and your agency is responsible for cleaning up most of 
that. It is not all in the IRS, but a big chunk is. And so I 
would hope that we would hear from you today about how you want 
to tackle that huge problem that is ongoing.
    Mr. Commissioner, I thank you for being with us today. This 
committee takes seriously our role in overseeing the budget and 
policies of the IRS and the other Federal agencies, and I 
appreciate your continued engagement with us. Thank you.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    And now I would like to recognize the Commissioner for an 
opening statement. If you could keep that in the neighborhood 
of 5 minutes, it will give us more time for questions and 
answers. The floor is yours.
    Mr. Koskinen. Thank you. Chairman Crenshaw, Chairman 
Rogers, Ranking Member Serrano, members of the subcommittee, 
thank you for the opportunity to discuss the IRS budget and 
current operations.
    I remain deeply concerned that the significant reductions 
in our budget over the past 5 years are undermining the 
agency's ability to continue to deliver on its mission. As you 
all know, IRS funding has been reduced $1.2 billion over the 
last 5 years. At the same time, the number of taxpayers has 
increased over 7 million and the IRS has been given significant 
additional responsibilities. These include the statutory 
mandates that we implement, the Foreign Account Tax Compliance 
Act, or FATCA, and the Affordable Care Act.
    The disconnect between our funding levels and our increased 
responsibilities is illustrated to some effect by the fact that 
3 days after our budget was cut by $350 million, Congress 
passed legislation requiring the IRS to design and implement 
two new programs by July 1. Implementation of the ABLE Act, 
mentioned by the Chairman, and the certification requirement 
for professional employer organizations is occurring while we 
are in the middle of our most complicated filing season in 
years. But I would assure the Chairman, we will continue to do 
our best to implement these two new programs.
    In discussing our need for adequate funding, I understand 
we have an obligation to be careful stewards of the taxpayer 
dollars we receive, and we must be as efficient as possible. 
The IRS has, in fact, made considerable efforts for several 
years to find efficiencies in our operations, both in regard to 
personnel and in nonlabor spending. Through cuts in office 
space, contracts, printing, and mailing, we are saving over 
$200 million a year. We have also made significant progress 
over the past few years in moving millions of taxpayer 
inquiries from our call centers and walk-in sites to our 
significantly updated and improved Web site.
    Already this filing season, there have been more than 215 
million visits to IRS.gov and more than 3.6 million visits to 
the section devoted to the Affordable Care Act. We have had 
over 164 million hits on our ``Where's My Refund'' electronic 
tracking tool, and more than 11 million copies of previously 
filed tax information has been obtained online with our ``Get 
Transcript'' application. In the past, all of these inquiries 
would have inundated our phone lines and resulted in even 
longer lines at our walk-in sites. But the efficiencies we have 
created, even in the limited-funding times we have had, have 
made significant improvements for taxpayers.
    I would also emphasize that we take seriously issues raised 
about the inappropriate actions and activities in the past. We 
have done that by making necessary changes and improvements in 
our policies and procedures to ensure these situations do not 
recur. We have cut conference spending by over 80 percent. We 
have established review boards for video productions and 
training expenses. We have ensured that those who willfully 
failed to meet their tax obligations are not eligible for 
performance awards as well as being subject to other 
discipline.
    We are reviewing our hiring process to ensure, to the 
extent permissible by law, that former employees with prior 
conduct issues are not rehired. We now require that all 
contractors maintain the same high standard for tax compliance 
as employees. And we have implemented the recommendations of 
the Inspector General with regard to the serious management 
failures surrounding the review of applications by 
organizations seeking to achieve social welfare status.
    But there is a limit to how much we can do in finding cost 
efficiencies. This year, we reached the point of having to make 
very critical performance tradeoffs, which have had a negative 
impact on service, enforcement, and IT. The funding cuts have 
also limited our ability to work toward giving taxpayers a more 
complete online filing experience. We think taxpayers ought to 
have the same level of service from the IRS that they now have 
from their financial institutions, whether it is a bank, 
brokerage or mortgage company.
    We have been taking steps to try to close this year's 
significant budget gap, and one of our major concerns, as you 
know, was the possibility of a shutdown of the IRS operations 
later this fiscal year to help close the budget gap. As a 
result of a review earlier this week, a meeting I had 2 days 
ago, it is now clear that our elimination of all hiring and 
overtime, along with cuts in other areas, has generated enough 
savings that we will no longer need to plan for a shutdown of 
the agency this fiscal year.
    The President's fiscal year 2016 budget request for the 
IRS, which totals, as noted, $12.9 million, would help the 
Agency move ahead in all of these critical areas. For example, 
we would be able to bring our level of phone service up from 
the current 43 percent to 80 percent. We would also 
significantly increase enforcement and collection activities, 
generating over $2 billion more in increased government 
revenues. And we would be able to take steps toward building a 
more modern interface between the agency and taxpayers.
    I understand and appreciate the concerns raised over the 
past few years about activities at the agency. But I took this 
job 15 months ago because I also understand the critical role 
the IRS plays in the lives of taxpayers and in the collection 
of revenues that fund the government. I know I speak for the 
thousands of professional, experienced, and dedicated employees 
of the agency when I say we are committed to working with you 
and the other Members of Congress to lead the agency 
effectively and appropriately into the future. But we need your 
help and support if we are going to be successful.
    That concludes my statement, and I would be delighted to 
take your questions.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
      
                   ABLE ACT AND 501(C)(4) REGULATIONS

    Mr. Crenshaw. Well, thank you very much.
    Let me start the questions. You know, I mentioned the ABLE 
Act in my opening statement. You mentioned ABLE Act. That is 
something new that you are going to have to do to write the 
rules and regulations by the middle of June; that is 6 months 
away. Now, as you probably know, the ABLE Act is patterned 
after what we call a 529, that is where parents can set aside 
money in a tax-free savings account, let it grow, and as long 
as they use it to go to college.
    So it seems to me that writing regulations that are 
consistent with what you already have in terms of the 529 
shouldn't be a massive undertaking. So I hope that you can work 
on that and get that done in a timely fashion. Because on the 
other hand, there is something called the 501(c)(4) regulations 
that are not statutory mandated, but if you recall, when we had 
all the problems with the extra scrutiny that some of the tax-
exempt organizations were getting, IRS decided they were going 
to redraft the 501(c)(4) regulations.
    And, as you know, the regulations were put out there, and 
there is a lot of discussion about that. And at the end of the 
day, there were over 150,000 comments. And that regulation 
tended to offend just about everybody, on the left, on the 
right, nobody liked it. And so I guess that has been set aside. 
But one of the concerns that people had was that if those 
regulations suppressed what people would consider to be freedom 
of expression, that wouldn't be a good thing. And they were 
criticized, again, from the left and the right, because of 
that.
    So now that as you, I understand it, are going to redraft 
those rules and regulations, the concern was in 2013 that they 
were going to be out there right about election time and people 
would be concerned about how they would be perceived under this 
new regulation. Now we are past 2014. Now 2016 elections stare 
us in the face. And there is some concern that are we going to 
go through this process again? Are we going to put that 
regulation out there right about election time? And people are 
going to be concerned that somehow these new regulations are 
going to impact their ability to be involved in the political 
process.
    So my question is, what is the plan on this 501(c)(4) 
regulations? Are they going to be submitted right about 
election time and have a period of comment, or are they going 
to be put off until after the elections? Can you tell us 
exactly what is the plan on this next draft for the rules?
    Mr. Koskinen. As I said in my testimony, we are going to do 
our best to meet the ABLE Act requirements and to get that 
program up and running. Policy is not our domain, but able is a 
good law. It will help a lot of people. It is not quite exactly 
the 529. It is the same framework, but, obviously, we have to 
determine with Social Security what appropriate disability 
payments are. We will have to get forms and regulations out. 
But you are right; it is not something that is brand new. We 
have already given guidance to the States that they can start 
developing those plans, and if the final rules vary a little, 
they will get transition protection. So we are encouraging the 
States to start working on those plans now.
    With regard to the 501(c)(4) regulations, as you know, the 
previous draft was prepared before I showed up. My position has 
been from the start that any regulation needs to have several 
qualities. It needs to be fair to everybody. It needs to be 
clear and easy to administer. The IG reported that part of the 
problem that they found when they did their report on the 
management problems surrounding those applications was that the 
facts and circumstances test was vague, hard to administer, 
hard to understand.
    Part of my concern has been if you are running a 501(c)(4) 
or (3), (5), (6) or (7), you need to have a clear roadmap so 
you know what you are doing. You don't have to worry that 
someone is going to come in, look over your shoulder and 
second-guess you. It is very complicated, you are right. We 
actually had about 160,000 comments. We have been going to 
great lengths to make sure they all get reviewed and treated 
carefully.
    I have read about 1,200 pages of the best comments on both 
sides of all of those issues. It is complicated. We are looking 
at--I say to be fair--application across the entire spectrum. 
So it shouldn't be just (c)(4)s. We need to make sure, as 
Congress has legislated in all of these areas, that there is a 
consistent and appropriate framework for (c)(3), (c)(4), 
(c)(5), (c)(6)s, 527s.
    Mr. Crenshaw. And I appreciate all that, but just in terms 
of the timeframe----
    Mr. Koskinen. Timeframe is, I haven't got a timeframe we 
are conscious of. I made it clear last year that we were going 
to be anxious not to do anything to interfere with the 2016 
elections. This is a change that will last for a long time. I 
think it is important for people to understand it, be 
comfortable with it, understand it is fair. And so our goal is 
not to do anything that looks like we are trying to impact the 
next election.
    Mr. Crenshaw. But you don't know, you don't have a 
timeframe to say we are going to publish the next draft in the 
next 6 months or next year? You got any idea of when you are 
going to do that?
    Mr. Koskinen. No. We had hoped actually to have made more 
progress than we have, but we are trying to make sure that we 
do it right. I have talked to several very interested 
Congressmen and Senators and told them we are not planning on 
surprising anyone. When we move this forward, even as we are 
developing the final forms, my proposal and plan is to talk to 
you, Congressman Ryan, Senator McConnell, and others who are 
interested.
    I think people actually may--there has been a concern, on 
the one hand, that there are people who think all political 
activity ought to be covered.
    Mr. Crenshaw. Yeah, I understand that.
    Mr. Koskinen. Anyway, so the timing. The answer is I don't 
have a clear timeline for you. I would like to get it out. It 
will then have 90 days for comment. We have committed to hold 
public hearings.
    Mr. Crenshaw. The only thing you can tell me is that you 
hope it won't impact the 2016 elections, but we don't know that 
for sure?
    Mr. Koskinen. I don't control the whole process. It is a 
joint venture with the Treasury Department and the IRS, but we 
have a commitment that we do not plan to do anything to impact 
the 2016 elections. It should not be motivated by politics, and 
it shouldn't impact any particular election----
    Mr. Crenshaw. I appreciate that, but I also want to say, 
the ABLE Act that we talked about, that is a statutory mandate. 
Congress said go do that by June, okay. We didn't tell you to 
go do the 501(c)(4). You want to do that, and I hope you will 
get your priorities right, do what the statute says, and then 
if you have time, you can do the 501(c)(4)s somewhere along the 
way.
    Mr. Koskinen. As I have said on numerous occasions, we 
implementation statutory mandates. We are focused on 
implementing the ABLE Act. We also have other statutory 
mandates. I know Chairman Rogers noted that we haven't got much 
funding for the Affordable Care Act. We don't have a choice 
upon implementing FATCA or the Affordable Care Act. They are 
all statutory mandates.
    Mr. Crenshaw. Thank you very much. I am out of time. I want 
to turn to my Ranking Member Mr. Serrano for any questions.
    Mr. Serrano. Thank you so much. I am really interested in 
your concern about the impact on the next election because the 
gentleman who could take credit for it is not going to run for 
reelection. We are going to have a new Presidential election. 
So it is really interesting who it would affect or help in any 
way.

                              BUDGET CUTS

    For 2015, Commissioner, Congress put the IRS at below the 
sequester level with a reduction of $346 million at the fiscal 
year 2014 level. Since 2010, the IRS' funding has been cut by 
$1.2 billion or 10 percent. When adjusted for inflation, the 
IRS is now down to 1998 levels. I would like to ask you a 
question in three parts: What personnel actions do you 
anticipate having to take in response to these cuts? Secondly, 
what do you believe the long-term impacts of these cuts will 
be? And, lastly, how does your request of $12.3 billion begin 
to repair the damage done by these cuts?
    Mr. Koskinen. Thank you. I frequently refer to us as having 
been double sequestered. After the sequester went into effect 
and cuts were across the board, all the major agencies except 
for the IRS were restored to their pre-sequester levels. So we 
operated at the post-sequester level before the additional cut 
last year in our budget. So we have actually had two cuts while 
other major agencies are basically at the pre-sequester level.
    The impact is 75 percent of our budget is personnel. So as 
we get cut, we have no choice but to cut personnel. We have 
lost 13,000 people since 2010. Our estimate is--and part of the 
way we are dealing with the cut this year--is we are going to 
lose another 3,000 people. So we will have 16,000 fewer people. 
That means we have fewer people answering the phones. We are 
trying to get everybody not to call and try to get them onto 
our Web site.
    We will have, over that period of time, 5,000 fewer revenue 
agents, officers, criminal investigators. So our rate of audit 
is dropping. My concern is that it is not just a question of 
how much money we collect. We collect $50 billion to $60 
billion with our own activities. It is, in fact, that 
enforcement and taxpayer services are two sides of a compliance 
coin. And what the real number is we should all be focusing on, 
that I am concerned about, is that $3 trillion that we collect. 
We are a tax-compliant society, but we are much more compliant 
if there is third-party information available to us and if 
people know we are going to use it.
    If, as a result of these cuts, we have a 1-percent drop in 
the overall compliance rate in the United States, it will cost 
the government $30 billion a year or $300 billion over the 10-
year measuring period that people have. My concern about the 
impact is that it is not a short-term impact--do we answer 
phone calls quickly enough or not--it is, over time, do the 
cuts ultimately corrode the compliance atmosphere in the United 
States in terms of people feeling the system is fair, that 
everybody is paying their fair share? If people begin to think 
that, because we are not enforcing the law adequately, some 
people are cheating, some people are getting away with it, it 
won't be helpful.
    In terms of the budget, one of the things I would stress--I 
think the Chairman is correct, the comment about giving us a 
lack of money--our goal is not to go backwards. In other words, 
we ought not to be looking at this in terms of, if we get 
funding, we are going to go back to doing business the way we 
did before. One of the things I said in my prepared testimony, 
and I summarized briefly in my oral testimony is, we need to 
look at--and the Chairman is right--is becoming more efficient 
and trying to go forward.
    And one of the things we spent a lot of time in the last 
year looking at is, what should the taxpayer experience be 3 to 
5 years from now? What it can't be is still dealing with us on 
the phone all the time, having to walk into our sites, trying 
to figure out the right way to deal with us. People ought to be 
able to have an efficient way in the digital economy and the 
digital world in dealing with us the way they deal with their 
banks and with their financial institutions today.
    So, as I say, we are not talking about going to the moon. 
And it is not as if we don't know how to do online 
applications. The ``Where's My Refund'' application, the ``Get 
Transcript'' application, the fact that you can do an online 
installment agreement means that we have started to move in 
that direction. And as I have detailed in my presentation on 
the budget, if we get additional funding, and particularly in 
the IT area, we will become more efficient.
    So my goal is not to say, give us the money and we will add 
16,000 people back to the IRS. The goal is, if we can get 
additional funding and support, we should be able to run the 
organization with the number of people we have. And we should 
be able to have better taxpayer service, and taxpayers should 
be more easily able to contact us. We should be able to help 
them fix their returns without amendments. They should be able 
to do it online.
    So I think it is really a question--I agree with that 
totally--of are we going forward rather than looking back and 
asking how do we get back to where we were. The taxpayer 
advocate says, we should be doing more preparation of returns 
in our taxpayer assistance centers. Well, over time, those 
diminished to about 60,000. Our VITA centers do 3 million 
returns for people. We ought to move more people into the VITA 
centers. We ought to move more people online. We ought to get 
people off the phone, except for those who need to be on the 
phone because they can't find the answer to their complicated 
question online.
    So my hope is to work with this committee. We need to solve 
the problems of the past. I couldn't agree more with both 
Chairman Rogers and Chairman Crenshaw about that. And I hope we 
are building a record you can see that we are solving those 
problems, whether they are in the budget language or not. But, 
also, I hope we can work with you trying to figure out what is 
the IRS of the future we are trying jointly to build together.
    Mr. Serrano. And that is my last comment. I think we have 
all, probably all of us on this panel, have experienced the 
changes in the last few years. I remember when filing meant 
sending in this envelope, you know, that you had to, include a 
return receipt and hope it would get there on time and that 
they would tell you that they got it. And now I sign papers and 
give a check--if I have to give a check--and then I don't see 
it again until it gets settled. So that is where we want to go, 
to give everybody an opportunity to do it efficiently, quickly.
    But my last comment is, you are so right: If people begin 
to think that not everybody is being treated equally because we 
don't have the resources to look like we are or to actually do 
it, then you are going to have havoc all over the place. And 
that is not good for us; it is not good for the country; not 
good for your agency.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you. And let me just remind you, my 
distinguished Ranking Member, that with the appropriations that 
IRS received last year, they collected more revenue than ever 
in the history of the United States of America. Just a thought.
    And the other thing I would just say, and I don't want to 
get into an exchange, but the 501(c)(4) regulation don't have 
anything to do with who is the President. They have to do with 
whether or not, I think, that first draft, a lot of people felt 
like was going to put a wet blanket on political participation. 
I don't think anybody wants that to happen. So I think they are 
working on that, and I am sure they will do well.
    I want to recognize Chairman Rogers now.

                          EMPLOYEE MISCONDUCT

    Chairman Rogers. Thank you, Mr. Chairman.
    Mr. Commissioner, as you are laying off people, I have a 
group that I would recommend be included in that pattern. Some 
300 past employees of the IRS who have been forced out or left 
while under investigation for performance or misconduct issues, 
300 of those people were rehired between January 2010 and 
September 2013. According to the IG's audit, 141 former 
employees with prior substantiated tax issues, including five 
who the IRS found had willfully failed to even file a tax 
return, were rehired.
    Other substantiated issues from previous IRS employment 
included unauthorized access to taxpayer information, leave 
abuse, falsification of official forms, unacceptable 
performance, misuse of IRS property, off-duty misconduct, and 
so on; 300 of them rehired. Those should be the first ones laid 
off, it seems to me, as you are going through this process that 
you are. Twenty percent of those, by the way, that came back to 
work, that you rehired, had new conduct or performance issues. 
One in five of them that you rehired are back in trouble again.
    I am no great administrator, but I think I see a chance 
here to make the world better. What do you think?
    Mr. Koskinen. I agree. I have told the IG and, in fact, our 
formal response states that we have taken their 
recommendations.
    As the IG noted, in that time period, there were 53,000 
employees hired, so the 300 were a relatively small portion of 
the 53,000. Doesn't mean it isn't an important problem. Part of 
what it is, is the vast majority of those are seasonal or 
temporary employees that get hired during filing season. So the 
volume of people coming through is high.
    But we have agreed with the IG that, in fact--and we are 
working with our personnel people in OPM and our lawyers to 
make sure that we stay within the law--but we agree. If you 
have had a prior serious performance or misconduct issue, you 
shouldn't be eligible for being rehired. As I say, the bulk of 
those people are temporaries. The time period was 2012, and, in 
fact, in 2012, we increased our focus on this, and we now agree 
with the IG that we should review this matter to try to do 
everything we can to make sure that we don't, in fact, repeat 
that practice.
    Chairman Rogers. Well, you know, it doesn't do your agency 
a lot of PR good out in the country.
    Mr. Koskinen. I agree.
    Chairman Rogers. When people who pay taxes, see somebody as 
a tax evader trying to collect their taxes, you admit that is 
not very good PR----
    Mr. Koskinen. Exactly. In fact, separately from this, there 
is the issue of tax compliance by our employees. And we have a 
compliance rate slightly above 99 percent, much higher than any 
other Federal agency, our employees take that seriously. They 
understand if you willfully don't pay your taxes, you are 
subject to dismissal.
    And a question has been raised in the past, well, if you 
are not in compliance with your tax obligations, if you are in 
that small percentage, you shouldn't be eligible for 
performance awards. And we have adopted that policy and spread 
that around the agency. People understand that not only are you 
subject to discipline, but if you aren't current with your 
taxes, you are not eligible for a performance award as well.
    And I agree with you that we need to--if I were a taxpayer, 
I agree the people collecting taxes ought to take it seriously 
and ought to be compliant. And our employees understand that. 
And I would stress, over 99 percent of them are compliant, and 
we monitor that every year and with every employee.
    Chairman Rogers. I would audit that more frequently than 
every year.
    Mr. Koskinen. Well, they only pay taxes once a year, so it 
is a little hard to.
    Chairman Rogers. Yeah, well, there are other sins that many 
of them have committed that are immediately----
    Mr. Koskinen. On the nontax issues, as I said, we agree 
with that, and we are going to do everything we can to ensure 
that while it was a relatively small number, the number really 
should be zero.

                            CUSTOMER SERVICE

    Chairman Rogers. Because of multiple poor management 
decisions and other matters, your budget has either been cut or 
held flat since 2010. Blame for long phone wait times and the 
decline in customer service is often placed on those budget 
cuts. We have heard that. However, nothing in the 
appropriations bill for your agency explicitly reduces funds 
for customer service. On the contrary, the taxpayer service 
account was increased in 2014 and not cut in 2015. Given that 
case, you have had plenty of money for customer service. How do 
you explain the decline in customer service?
    Mr. Koskinen. Two things: First, as I explained to this 
committee last year, when I predicted that if we didn't get the 
additional money we were requesting, our service level was 
going to drop, we knew--and it has been true--that we would get 
a significant number of increased inquiries on the Affordable 
Care Act since this is the first year that the filing goes 
through. Secondly, as we advise the committee each year, we 
have user fees that we collect, subject to OMB review and 
approval, that we apply. Historically, we have applied 
somewhere close to $200 million of the user fees to customer 
service.
    Because of the underfunding or the zero funding for 
Affordable Care and FATCA, the only way we could implement 
those statutory mandates in the last few years, and 
particularly last year, was to move a significant part of that 
support for taxpayer service into the IT accounts because we 
needed $300 million and got zero. We still left $50 million of 
those user fees to apply to taxpayer services, but in effect, 
the taxpayer service account is $100 million less this year 
than it has been in the past. We have 3,000--over this 
timeframe, 3,000 fewer people answering the phones.
    But I would stress, one of our goals has been to try to 
become more efficient, try to provide more information and 
support for taxpayers not on the call service. I think in the 
long run, the answer to dealing with the call centers is not 
just more people; it is, in fact, to continue to provide 
alternatives so that people, in fact, don't feel they have to 
call. Most of us never call our bank. If you have a question, 
you just go online, look at your account, make an electronic 
communication. Airlines now penalize you if you call them for a 
reservation. They expect that you will do it efficiently 
online.
    We need to get to that same space. I am concerned about 
taxpayer service, but, again, my point is, we shouldn't just 
put money into taxpayer service and keep doing business the 
same old way. As everybody agrees, we need to get to be more 
efficient and we need to give a taxpayer a better experience 
than having to wait in line, either for the phone or in our 
walk-in centers.
    If we could get a system to run as efficiently as the 
private sector does, which is just a question of investment in 
IT, then the people calling the phones would be the people who 
really need to be there and our service level would go up even 
with the same level of employees. So I agree with you. It is 
not just a question of--and if we have more money--just putting 
people on the phones. We, at the same time, need to get them 
the information they need as efficiently as we can. Most people 
would much rather get it off the Web, download their forms off 
the Web.
    Chairman Rogers. Mr. Commissioner, I leave you with two 
words: Go Cats.
    Mr. Koskinen. Well, as an old Kentuckian, for everybody 
else, I grew up about 5 miles outside of the Chairman's 
jurisdiction in Kentucky. I share that sympathy. Although, as a 
Duke guy, you know, I do have these mixed emotions about how 
this goes.
    And then I am looking--Congressman Yoder promised me last 
year he was going to hang a Kansas flag outside his office on 
the building, and I don't see that there yet. But it is a great 
time of year.
    Mr. Crenshaw. Thank you very much.
    And now I would like to turn to Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman.
    Welcome, Commissioner. How are you?
    Mr. Koskinen. I am having an interesting time in an 
interesting stage in my career.

                        DEFENSE OF MARRIAGE ACT

    Mr. Quigley. We understand.
    I thought about the fact that after DOMA was struck down by 
the Supreme Court, this must have changed some of the work that 
your fine people do. Can you explain some of the changes and 
how they have impacted your workers and what we try to do for 
folks to educate taxpayers about the change? Obviously, there 
is filing status that many people have never had the ability to 
enjoy.
    Mr. Koskinen. Right. With DOMA, as well as Affordable Care 
and other issues, tax extenders when they are passed, we have a 
very active program of reaching out to taxpayers to try to get 
them as much information as we can about everything. We have 
tax tips. We put out press releases. We do--I don't know how to 
Twitter, but we do Twitter. We have YouTube videos. All trying 
to make sure that it is as easy as possible that taxpayers now 
understand their circumstances. And, for DOMA, we have done 
that, trying to explain to taxpayers what the impact of the 
decisions are.
    In short, from the standpoint of processing, if you are 
legally married and therefore eligible to file a tax return 
jointly, the filing and the processing of that goes smoothly. 
So the real issue has been to try to make sure taxpayers 
eligible to do that understand that. And so----
    Mr. Quigley. Were there questions from some constituents 
about whether they were eligible, given the fact that it is not 
applicable in every State?
    Mr. Koskinen. That is right. And we have frequently asked 
questions. Again, we provide that on our Web site. We provide 
that in our information and our outreach. We have tax forms 
every year in which we try to make that clear, to make it easy 
for people to figure out whether they are eligible or not and 
to answer their questions. The questions are fairly 
straightforward, and thus far, we have had no indication that 
there is, you know, unnecessary confusion out there.
    We do monitor, you know, what is going on during a filing 
season and try to pick up on both in our call centers what the 
questions are that we are getting asked to try to figure out, 
if people have a recurring set of questions, can we provide 
them that information not just individually but as a group. So 
we adjust our Web site throughout the tax filing season. We put 
out, for instance, on tax scams and concerns about fraud and 
identity theft, we continue to put out updates.

                      FRAUD AND IMPROPER PAYMENTS

    Mr. Quigley. Well, and let me talk about that for a second, 
given our limited time. GAO report, the IRS is estimated to 
have paid out $5.8 billion in fraudulent refunds last year. 
That is about a 60-percent increase over 2011. And if you could 
also comment on the improper payments EITC, you know, what are 
you doing about both issues?
    Mr. Koskinen. On identity theft refund fraud, as GAO 
reported, we stopped about over $20 billion of false returns. 
It is a battle right now with organized crime syndicates here 
and around the world. We have spent as much money as we could 
find to improve our IT filters and detections, but we are 
talking about people who are filing hundreds of returns and 
reverse engineering, trying to figure out what our filters are, 
and they adjust and then we adjust. And so it is a real battle 
at a very high level.
    Mr. Quigley. You said ``infrastructure,'' is that 
investments in IT, or do you have the ability you just have to 
keep up with them?
    Mr. Koskinen. We actually are moving more slowly than we 
would like, and the budget makes clear the amount of money that 
would help us deal with this, but even additional investments 
are never going to get it to zero. We are dealing with 
organized criminals.
    On EITC improper payments, Chairman Rogers raised that 
point, it is a problem I am very concerned about. Of all the 
issues we deal with, we made great progress in identity theft 
and refund fraud. We have made progress implementing the filing 
seasons so that they go well and we made progress implementing 
FATCA and ACA. We have not made progress on EITC. We have had a 
high level of improper payments for 10 years even with all of 
the things we have tried.
    Over a year ago, I said I want everybody who knows anything 
about EITC to come to my office, and we are going to talk about 
why is it that we can't make a dent in the problem. And, 
ultimately, what we came away with is that we need legislative 
help. We need your help. We need to get W-2s earlier so we can 
match them up at the front end as well.
    We need what is called correctable-error authority. We know 
when there are errors in these returns, especially compared 
against our dependent database, but the only way we can make a 
change under the present law is to do an audit. So we do almost 
500,000 audits in the EITC area, but we have 27 million 
participants.
    We know there are hundreds of thousands of additional 
returns where we know there is a mistake, but we can't change 
it without an audit, and we simply can't audit our way out of 
the problem. If we had correctable-error authority, we could 
make the correction, send the corrected return back to the 
taxpayer. They could then say, you know, I have really got 
three kids as opposed to one child, but we would be able to 
actually move it much farther along.
    Mr. Quigley. And just to finish the thought--and I hear 
what you are saying--is it just--to discourage this, this is 
really a question of whether they think they are going to get 
caught. Are the penalties severe enough, or they just don't 
think they are going to get caught?
    Mr. Koskinen. It is a complicated statute. So if somebody 
wanted to streamline the statute, that would help. But what you 
have is some tax preparers who mean well and simply are making 
honest mistakes, and you have some tax preparers who are 
crooks, who are advertising, come with me, and I will get you a 
bigger refund, and they are consciously filing false returns in 
effect. I am confident that we will catch some of them but not 
all of them. We prosecute tax preparers when we catch them 
doing that. But, again, over half the returns in EITC are 
prepared by preparers; 28 million of those returns come in and 
our ability independently to deal with them is limited.
    So the third piece of the triangle is we would like to have 
authority to provide a requirement of minimum competence by tax 
preparers, basically that they should take continuing education 
the way lawyers and CPAs do. At this point, anybody can set up 
shop down the street in a community center and start preparing 
tax returns whether they know anything about the Tax Code or 
not. The ones that concern us are the ones in immigrant 
communities and low-income communities who hang out a shingle 
and say, Come with me, I will get you a bigger refund than 
anybody else. And that, obviously, can't be legal.
    Mr. Quigley. Thank you, sir.
    Mr. Crenshaw. Thank you.
    Mr. Rigell.

                      TECHNOLOGY AND PRODUCTIVITY

    Mr. Rigell. Thank you, Mr. Chairman.
    And, Commissioner, thank you for being here. I was struck 
by this cover of The Economist, where it refers to this 
``Planet of the Phones.'' And, by 2020, 80 percent of adults 
will have a supercomputer in their pocket. I think we are all 
in agreement that the rate of change in technology is just 
stunning. It truly is exponential. I think it does stand in 
contrast to the testimony that you provide, the written 
testimony.
    By the way, I sincerely appreciate your service to our 
country. That said, I really am troubled by what I read in here 
because it is just a litany of woes of funding. And what I 
think the disconnect that I see is the recognition that 
technology has allowed for such sharp increases in 
productivity. When we reference that inflation adjusted, we are 
going back to 1998 levels, yet we have a 23-percent increase in 
the amount of activity or returns filed, well, at first this 
sounds compelling. And you would have to pause at that moment.
    But when you take into account the incredible increase in 
technology, seems to me that a 23-percent increase in the 
number of returns, for example, could easily be handled. And if 
a leader doesn't believe that change can take effect and be 
moved throughout an organization, it won't happen.
    Mr. Koskinen. I agree.
    Mr. Rigell. And I question--and I think based on what I 
have read and what I am seeing here--your real belief that you 
can accomplish the IRS' essential mission within the budgetary 
constraints that we have as a country and the funding that you 
have now.
    Mr. Koskinen. If you read, as I am sure you already have, 
the last part of the testimony, it sketches out--particularly 
in IT--the changes that we need to make, as I have talked about 
here. We need to--in fact, as our IT head, who is terrific, 
says, ``We don't need to be an early enabler; we just have to 
be a fast follower.'' In other words, we do not need to be at 
the cutting edge. But we need to get, as I call it, into the 
21st century and not still be back in the 20th century.
    So a big chunk of the IT expenditures, which are a big 
chunk of the budget, would be and are devoted toward, as I 
said, building toward improving the taxpayer experience. In 
fact, as I noted, if we hadn't made the improvements we already 
have with sort of a clunky system of, you know, 150 million 
people asking where their refund is, even if some of those are 
obviously punching the app more than once, even if it is only 5 
million or 10 million or 15 million people, they used to call 
us. They used to call to say, ``Where is my refund? How soon 
can I get it?'' I couldn't agree with you more. We need to get 
more into that area. But you can't get there for free. You have 
to actually make the investments to go there.
    Now, this committee has been very supportive of the 
business system modernization part of our budget, and it has 
made great progress. What we are suggesting is that we could, 
with an increase in information technology, get to a future 
state, where as I said, I don't think we need to get back to 
100,000 employees. But we can't end up with the old technology 
system and----
    Mr. Rigell. We will try to help you get there. And I try 
not to approach every hearing like this in just a flatout 
confrontational adversarial way. My father retired from NASA, 
and I never saw someone work any harder than he did. So I don't 
start out with some disparaging comments about a Federal 
employee.

                               LEADERSHIP

    Now, the agency has got real issues. And I would suggest to 
you that, as I read your written testimony, and I certainly 
read about the specific IT improvements that you want to make, 
I just was left troubled--and I have shared this with you--that 
how you see the organization and your ability to transform it. 
A company that is in rough shape, like Ford Motor Company was 
so many years ago, Alan Mulally, I mean, came in there and just 
did what others didn't think could be done. I want you to be 
that person, but you need to be constructively disruptive in 
how you approach the leadership and really push the people in a 
good sense to let them know that they can do more with less. 
And this is needed, and this is expected by the American 
taxpayer.
    Thank you for your testimony today.
    Mr. Koskinen. I appreciate that. If you look back in my 
background, I spent 20 years in the private sector managing 
some of the largest bankruptcies and turnarounds in the history 
of the country. And I firmly believe that it all starts at the 
top. You need to, in fact, affirmatively lead an organization.
    I would just conclude by saying, as I have said and I mean 
it, of all the organizations I have dealt with, this is the 
best workforce. It is a dedicated group of people who take the 
mission seriously, particularly the mission of helping 
taxpayers. But you are right. We can't--and I feel strongly of 
that--we can't keep doing business in the old way. So my 
thoughts about the budget are not, gee, we need to build 
backwards. My thought about the budget is that we need to build 
forward, and I couldn't agree with you more.
    Mr. Rigell. Thank you. And I thank the Chairman for letting 
us roll over a minute there.
    Mr. Crenshaw. Thank you.
    Mr. Bishop is recognized.

                    INFORMATION TECHNOLOGY SECURITY

    Mr. Bishop. Thank you very much.
    Mr. Commissioner, the IRS, which is the world's largest 
financial accounting institution gathers very sensitive and 
personal data on millions of taxpayers every year. In the past, 
the security of taxpayer information has been one of the top 
three management challenges facing the IRS and this has likely 
worsened with the current funding levels, as you have not been 
able to fully modernize your IT infrastructure.
    Considering the recent high-profile computer security 
incidents, such as the Sony hack and the Anthem Health 
Insurance hack last month, I am concerned about any 
deficiencies that may make the IRS systems vulnerable to 
unauthorized access or attack on a broad scale, particularly 
now that the ACA implementation is underway and the State and 
Federal exchanges are sharing increasingly more personal 
taxpayer information with the IRS.
    What are your priorities for improving the information 
security measures that the IRS has in place to protect against 
these kinds of cyber attacks?
    Mr. Koskinen. It is the highest priority we have. We have 
been fortunate--I will knock on wood--that we have not had a 
breach. As I have said, there are over 100 million attacks a 
year on our system. If you could get a hold of a database, ours 
is the database that would be attractive and people know it is 
there. So, even in a time of constrained funding, one of the 
things I have and our IT people have said, we need to do 
whatever it takes to protect that database. And, to some 
extent, you always worry about are you buying belts and 
suspenders and you try to be efficient and careful with the 
money.
    Well, one area where we are trying to make sure that we are 
doing everything we can with an antiquated system is to protect 
taxpayer data because it is a fundamental, basic responsibility 
we have. And so it is the highest priority, and it is one of 
the things that does figuratively keep me awake at night. I 
manage to sleep, but it is a concern I have. And as you see the 
increasing sophistication of the criminals engaged in all of 
this, you know that it is an ongoing battle and race.
    Mr. Bishop. Are you sufficiently satisfied that the 
infrastructure is strong enough to withstand an attack?
    Mr. Koskinen. I have put it in other testimony that we are 
driving what I call a Model T. It has got a great GPS system 
and a sound system and we have built wonderful applications, 
but it is still a Model T. We are running applications that we 
were running when John F. Kennedy was president.
    So one of the limitations--while we have got security, one 
of the limitations of our budget is that we can't replace old 
applications--we have about 50 of those applications. We need 
to replace them and get rid of them, the old legacy systems. 
When I was the Year 2000 czar for the country, we were worried 
about the declining number of Cobalt programmers. Those 
programs I am talking about were designed in assembly language, 
which preceded Cobalt programming. So we are running a system 
that most people don't even know how to program.
    Mr. Bishop. We have got dinosaurs, in other words?
    Mr. Koskinen. Right. We have IT people that have done a 
great job. We continue to make progress, and again, with 
additional support, we are not going backwards. If we had the 
additional support, particularly for IT, we hope to go forwards 
effectively. But I would add that--I can assure you----
    Mr. Bishop. So that makes us sleep a little less at night, 
too----
    Mr. Koskinen. Well, we are all----
    Mr. Bishop. I mean literally----
    Mr. Koskinen [continuing]. With our own personal systems--
    Mr. Bishop. Let me change gears----
    Mr. Koskinen. Sure.

                      ENGLISH AS A SECOND LANGUAGE

    Mr. Bishop [continuing]. Just a moment. My time is about to 
run out.
    Most taxpayers and even many tax professionals would agree 
that the Tax Code is complex and confusing enough in English. 
While the Taxpayer Advocate Service provides services to 
individuals who speak English as a second language, what 
programs or mechanisms do you have in place to assist taxpayers 
who speak English as a second language and how effective are 
those programs? What measures do you have in place to protect 
taxpayers with limited English proficiency from becoming 
victims of identity theft, tax scams, and impersonation?
    Mr. Koskinen. It is a challenge. Obviously, in this 
country, it is more than English as a second language with one 
language. There are, in some schools in the Washington area, 30 
to 35 languages spoken. We translate as much of our Web site we 
can, not only into Spanish but into other languages. We have 
employees who are fluent. There are somewhat esoteric languages 
where it is difficult and people need to have translators to be 
able to work through it.
    We are concerned that a lot of people speaking another 
language are recent immigrants, are low-income people, and they 
are the ones most subject to attack by either criminal tax 
preparers or tax scammers because they are the ones that 
somebody calls them on the phone and says it is the IRS. They 
actually get very nervous and are the ones most susceptible to 
being taken advantage of. So we do our best across the board to 
publicize that, to warn taxpayers at all levels about phishing 
expeditions: how you can be taken advantage of; what you ought 
to be careful about when some tax preparer says, ``Sign a blank 
form and I will file it for you'' or ``I will get you a bigger 
refund that you know you are entitled to.''
    And so we take that responsibility seriously to reach out 
to taxpayers to try to make sure that they know what their 
responsibilities are but also that they get as much help as 
they can to know what how to file effectively and how to be 
protected.
    Mr. Bishop. Thank you, sir.
    Mr. Crenshaw. Thank you.
    Mr. Graves.

                           FRAUDULENT REFUNDS

    Mr. Graves. Thank you, Mr. Chairman.
    Commissioner, good to see you. I wanted to follow up on Mr. 
Quigley's point about fraud and identity theft. You know, it 
strikes me that the number he cited was $5.8 billion----
    Mr. Koskinen. Correct.
    Mr. Graves [continuing]. Which is more than half of your 
entire agency's budget. And we use the term ``fraud,'' in 
reference to identity theft. But, in effect, it is your agency 
sending refunds to people in that amount. Is that not correct? 
It is $5.8----
    Mr. Koskinen. Right. It is the $5.8, in effect, illegal--
    Mr. Graves [continuing]. Billion dollars of taxpayers' 
money being sent to people whom do not deserve it and who are 
criminals?
    Mr. Koskinen. Exactly.
    Mr. Graves. And it is permissive in some aspect through 
this agency and enabled through this agency.
    Mr. Koskinen. Well, it is--that is right. We process--we 
will process this year 150 million tax returns. We have already 
processed about 75 million, and 60 million of them got refunds. 
And that's one of the reasons I have said we need to get W-2s 
earlier. When I got to this agency, I assumed the IRS got the 
W-2s at the same time we all get them as workers and taxpayers. 
We get them in March. So we are actually able to match, but it 
is pay and chase in that regard. We have very sophisticated 
filters.
    Mr. Graves. And that was my follow up. So what is the 
percentage of these tax payments or refunds that you are 
issuing that occur during that window in which one can earliest 
file and when you receive the corresponding documents that 
verify the income and the identity of the person?
    Mr. Koskinen. Well, as I have said, we have already--we 
haven't gotten the W-2s yet, and we have already sent out 60 
million refunds. You know close to 80 percent of people get a 
refund with their return.
    Mr. Graves. And so, within just a few days of one filing 
online, they could have this fraudulent payment or refund from 
the IRS within a few days deposited onto a debit card that they 
might have purchased at a convenience store without any match 
of identity whatsoever, and there is no policy that prevents 
that?
    Mr. Koskinen. You have got it right. The policy that--the 
only thing that prevents it, the way we stop $20 billion of 
that is with a sophisticated set of filters that look at the 
return coming in. And each year we get better at figuring out 
which ones look like they are fraudulent. We hold them. We 
write taxpayers. We ask for authentication. We have fixed part 
of the problem.
    In the old days when we sent out checks, you know, you 
would get your refund in the summer and well after the filing 
season. By being more efficient, by getting almost 90 percent 
of people to file electronically, we tell people we will get 
you a refund within 21 days. And so for the vast majority of 
people, that is terrific. They get their refund in January or 
February.
    One suggestion we are looking at is, if we can't get the W-
2s earlier to do the matching, the question is, can we actually 
go to a situation where we don't give people refunds? The 
problem with holding 60 million, for instance, refunds until we 
get the W-2s is we would be trying to process them, by the time 
you get done with 100 million returns, in about a 2-week period 
and even our system can't do that. So----
    Mr. Graves. It strikes me rather odd--I imagine, also the 
committee and the American people--that the Internal Revenue 
Service would, without verification, send out a refund just 
because they received a submission online through an online 
portal without verification whatsoever of the person's identity 
and deposit that money to an unverified account without being 
able to track it to an individual. But that is what happens, 
and it amounts to $5.8 billion just in 1 year.
    Mr. Koskinen. Right. And $20 billion didn't go out because 
the filters were able to determine that those refunds were 
fraudulent and, in fact, shouldn't go out. That is one of the 
reasons I have pushed--and we have gotten a lot of support but 
not final legislation--the need to get those W-2s in January, 
not in March. We need to be able to get that----
    Mr. Graves. So that is not----
    Mr. Koskinen [continuing]. 1099s earlier.
    Mr. Graves. That is not something that is handled through 
the agency, but that is actually law.
    Mr. Koskinen. That is law.
    Mr. Graves. And there is nothing that your agency can do. 
So it is just a wide open field during that period of time.
    If I could add just a couple more questions to this. So you 
would accept a request for refund in this same time period from 
an overseas IP address as well?
    Mr. Koskinen. Right. We have filters, without getting into 
details. Depending where the return comes from, we now can 
identify devices they are coming from. We have limited the 
number of refunds that can go to a card so everybody doesn't 
get totally treated the same way. So if you are filing for a 
refund from someplace else, we take that into consideration.
    Mr. Graves. Is there a limit to the number of returns that 
can be requested through a single IP address?
    Mr. Koskinen. Not at this point. It is just a filter that 
we use. There is a limit. You can only get three refunds to one 
bank account.
    We can't distinguish between debit cards and bank accounts. 
We are working with the industry to try to figure out if we 
could. If we knew it was a debit card, it would be another item 
that we could add to our filters. And the industry is starting 
to cooperate with us. And we hope that, at some point, we will 
be able to use that as an indicator. Right now we have no idea. 
The numbers are the same. It could be a bank account. It could 
be a debit card.
    Mr. Graves. Well, and I wouldn't at all put the blame on 
the industry. I don't believe it is the industry. I believe 
that it is an agency that, without verification, sends out 
refunds very rapidly, very quickly, to folks who are criminals, 
and have no verification whatsoever and deposit that money 
knowing that it will never get it back. And, all the same, 
knowing that $5.8 billion could go to defense. It could go to 
so many other needs within our country right now. It could go 
to lowering taxes on hard-working Americans, but instead 
criminals all across the country, if not across the world, are 
receiving these tax refunds.
    And I will just make one other note. I heard you bring up a 
minute ago tax preparers as one of the issues. I don't believe 
that to be so. I know tax preparers from a professional 
perspective are very respected in their community. They are 
registered oftentimes with the IRS and other associations and 
do a great job. It is the criminals who are the problem, not 
the tax preparers who, from a professional perspective, work 
very hard and have a small business and are just trying to 
provide a portal for individuals to file their taxes lawfully 
in a very complicated tax system.
    Mr. Koskinen. If I could explain. I think that is exactly 
right. There are 700,000 registered return preparers who have 
PTINs and can file returns with us. Over 350,000 are 
accountants, CPAs, and enrolled agents who clearly do a great 
job. A big chunk of those 400,000 who don't have any 
certifications or qualifications are educated and mean well and 
do a good job. But there is a chunk of them at the edge, that 
unfortunately is larger than anybody would like, who either 
have no knowledge about the Tax Code at all and are simply 
winging it or are consciously trying to cheat. And those are 
the people we, for some time now, do not have the ability to 
regulate. We spend a lot of time monitoring them. We have 
thrown some in jail. We look for schemes. But, again, it is 
kind of a pay and chase. And that is the only reason I think 
that taxpayers would be better off if they knew that a return 
preparer filing their return had some minimum level of tax 
knowledge.
    Mr. Graves. Thank you, Mr. Chairman.
    Thank you, Mr. Koskinen.
    Mr. Crenshaw. Thank you.
    Mr. Koskinen. It takes more qualifications to cut your hair 
than to prepare your taxes.
    Mr. Crenshaw. Thank you.
    Mr. Yoder.
    Mr. Yoder. Thank you, Mr. Chairman.
    Commissioner, welcome back to the committee. Thanks for 
your testimony today. I appreciate your testimony and your 
stated efforts to try to run the department more efficiently 
and try to clean up some of the challenges culturally that have 
occurred within the IRS in recent years. But I would think, you 
would agree, the IRS is still a troubled agency. And things 
that trouble me are continued abuse of the Constitutional 
rights of Americans.
    You know, it has been often said that the power to tax is 
the power to destroy. And I believe that the continued efforts 
to destroy the Constitutional rights of Americans is still a 
problem that plagues your agency. In the past, we have dealt 
with the reading of emails of Americans against their Fourth 
Amendment rights. I believe that is a practice the IRS has 
stopped. We have discussed this before.
    But I still have concerns regarding groups who have 
applications before the IRS being delayed because of their 
ideological beliefs, therefore, in violation of their First 
Amendment rights. We have headline after headline about the IRS 
seizing accounts and assets of Americans with no crime 
required, with no due process, with no right to have their 
issues heard, their assets just seized.

                  501(C)(4) BACKLOG AND ASSET SEIZURES

    And so my question would be for you: In terms of the groups 
that have been delayed, there is an article the other day that 
is entitled ``Death By Delay.'' And it says there are numerous 
groups who are still waiting multiple years or long lengths of 
time to have their application reviewed. How many groups are 
still in the queue, have not had their applications reviewed, 
or are having their applications denied?
    And then, on the issue of seizing assets of Americans 
without due process, how many assets of the American people are 
you holding without giving them a chance to speak on their 
behalf? And what can the IRS do to allow Americans to have 
greater rights to stand up for themselves before their assets 
are seized?
    Mr. Koskinen. With regard to the delays, virtually all of 
the organizations that had been delayed were cleared. We did an 
expedited process. If anybody would simply say they weren't 
going to spend more than 40 percent of their money on politics, 
they would immediately be cleared. Actually, the (c)(4)s don't 
need to be cleared. They can actually self-declare and go out 
and operate.
    So the handful--and, I mean, it is literally a handful, 
less than 10 or 12 that are still there, a number of them have 
chosen litigation, which is their right and they can do it. But 
it has struck me a little ironic that people have said, ``Well, 
we didn't want to sign the 40 percent. We have a right to 
litigate.'' And my sense was, well, you can do that, but it is 
a little hard to argue that there wasn't a path forward that 
would get you through it.
    But we take it seriously. Back to the issue of whether it 
is in the budget request language or not, my sense is--and I 
feel very strongly--people need to feel confident they are 
going to get treated fairly whoever they are. We should not 
care and we don't care who they are. And as they apply, one of 
the things about the regulations is the rules ought to be very 
clear and easy to understand and people ought to see them as 
fair so that they are not being, in fact, inhibited in their 
political activities. But they ought to also feel comfortable 
that they know what they can do and nobody will question them 
about it.
    With regard to the seizures, we had a long hearing a couple 
of months ago. First, the IRS never had ability to seize 
anybody's assets on their own. Any time there was a seizure, 
whether civil or criminal, it had to go to a U.S. Attorney. A 
U.S. Attorney then had to make an application to a magistrate 
or a judge. The judge had to issue an order.
    Notwithstanding that, last year, after reviewing it and 
being concerned about this, we changed the policy. And we have 
done that in the sense that, if you have structured, which is 
what it is about, if you have in fact structured your deposit 
in the bank in a way that it causes you not to have to report 
or the bank not to report transactions in cash above $10,000--
so if you keep putting in $8,000 and, in effect, are avoiding 
the reporting, and that is called structuring--if there is no 
indication that those funds have come from illegal sources, we 
will no longer seize them. And we haven't seized them and are 
not doing that this year at all. And my understanding is 
Justice is considering that same policy.
    Whenever the assets are seized--now they will be seized 
only if there are indications it is from criminal processes--
taxpayers have an immediate right to go to court. They have an 
immediate right to come to us within 30 days, but they have an 
immediate right to go to court to contest the issue and, in 
fact, put the burden of proof on us to demonstrate that, in 
effect, it is appropriate. So taxpayers are not left on their 
own, even in the old days. As I say, first, there were 
restraints on what we could do. We had to get third parties to 
approve, but in this particular situation now, there is a lot 
of those that no longer happen. But wherever it happens, 
taxpayers always have the right--and it has been clear to 
them--to go to court.

                         EITC IMPROPER PAYMENTS

    Mr. Yoder. Commissioner, my time is running short. I wanted 
to cover one more topic, to follow up on the conversation 
regarding the earned income tax credit.
    And you stated in your testimony today that it is an area 
where you have made no progress. You admitted that it is an 
area that needs to be fixed. It is now $16 billion to $19 
billion in either fraudulent payments or misapplied payments to 
folks who don't deserve the resources. Your entire budget is 
$11 billion. So as we have this debate about where to find 
resources for the IRS or any other budget, we have $16 billion 
to $19 billion sitting out there in fraudulent or misapplied 
payments. That is 24 to 29 percent of the entire earned income 
tax credit amount. So it is certainly something that is a huge 
problem.
    In last year's appropriations budget, we actually directed 
the IRS to fix this. And we raised an issue that had been 
raised by tax preparers in my district and across the country 
directing the IRS to ensure that the same questions are being 
asked of taxpayers whether or not they are preparing their 
returns, if they paid a tax preparer, or via do-it-yourself 
methods, such as paper forms, preparation software, or online 
preparation tools.
    My tax preparers tell me that if we treated individuals who 
don't use tax preparers the same way and held them to the same 
standards, that we would be able to eliminate a lot of this 
waste and fraud. And that has been the directive of this 
committee. So I do think there are tools at your disposal. We 
would like to see you utilize those to recover this money.
    Mr. Koskinen. We are going to pursue that. But in my 
meeting a year ago when I started with this, it was clear that 
our biggest problems were the discussions about matching. If we 
had the W-2 earlier, we could actually match them to our 
databases. If we could correct the returns rather than having 
to audit them, we could make a big dent. We are never going to 
get it to zero, partially because 30 percent of the population 
changes every year, people move, get jobs, get pay raises, and 
they are not eligible anymore. But we certainly need to get 
improper payment down. My sense is, if we could correct the 
errors we see, we think there are several million returns where 
we could make an adjustment without having to do an audit. If 
we got the W-2s earlier, we could match it.
    We are not trying to put anybody out of business--but you 
know, it doesn't seem to me it is too much to ask that you have 
to have a minimum amount of knowledge about the complicated Tax 
Code. If you want to change the Tax Code and simplify it, I 
think that is a great idea. But, in the meantime, those three 
things are the help that we need from you all. We are going to 
continue monitoring preparers. We are going to continue 
auditing people and checking them. But we are not going to be--
without the additional statutory support--we are not going to 
be able to make the dent in the program that we need to make.
    Everybody supports the program because it helps people 
working and it encourages them to get jobs. But we have got to 
get this problem under control, or ultimately it is going to 
kill the program. And so we need your help to do that.
    Mr. Crenshaw. Thank you.
    I see that we have been joined by the distinguished Ranking 
Member of the full committee, Mrs. Lowey. So I would like to 
recognize her for any questions she might have.
    Mrs. Lowey. Well, I thank the Chairman and I want to 
apologize to our distinguished Commissioner, but there are 
several hearings going on.
    Mr. Koskinen. I could tell that by the cars parked outside.
    Mrs. Lowey. So thank you and welcome.
    First of all, thank you so much, as a distinguished 
graduate of Duke, thank you so--not me. You.
    Mr. Koskinen. That is right.
    Mrs. Lowey. Thank you so much for taking on this 
responsibility. We are very, very appreciative and honored.

                            CUSTOMER SERVICE

    Taxpayers need clarity in the Tax Code and responsiveness 
from the IRS. The fiscal year 2016 request would address the 
funding shortfalls at the IRS, which are projected to result in 
as many as 57 percent of phone calls going unanswered in 2015, 
by raising the level of service on phones to 80 percent. The 
IRS is at its lowest funding level since fiscal year 2008. And 
if you take into account inflation, it is now at the fiscal 
year 1998 level. And, since that time, the number of filers has 
increased by 23 percent. I should repeat those statistics 
again. I know the Chair and all of my colleagues would quickly 
give you all the money that you would like to have so you can 
do your job effectively.
    Nina Olson, the National Taxpayer Advocate, and the 
Treasury Inspector General for Tax Administration, J. Russell 
George, both testified before this subcommittee a few weeks ago 
and mentioned their concern about the impacts of the cuts to 
the IRS' ability to function properly. The American people 
deserve better. We can only be hopeful that this Congress will 
start to be reasonable and realize that it is harming taxpayers 
with these ill-considered cuts.
    So I have three quick questions: If you could, explain how 
this budget request will increase services to taxpayers. Number 
two, 75 percent of this budget request is vested in staffing. 
How does this level of staff funding impact taxpayer services? 
Specifically, how will this impact call wait times for 
taxpayers? And, thirdly, how much revenue are we losing 
annually due to enforcement cuts? And ultimately, what would 
this budget request do to facilitate voluntary tax compliance?
    Mr. Koskinen. As I have said, I agree with the Chairman and 
the Members of the committee, we need to be efficient with the 
funds we get. If we obtain these funds, you are exactly right. 
I know we have made it clear, last year and this year as well: 
If we had the funds, in the short run, we would be able to, in 
fact, get a level of service on the phones up to 80 percent. 
People wouldn't be waiting for half an hour to get an answer 
from us. The hold times would drop. We used to, in the old 
days, back at about the 2008 time and before, you used to wait 
for about 2 minutes to get somebody on the phone. Now the waits 
are 25 to 30 minutes. And it applies to practitioners as well.
    As I have said, the practitioner priority line is an 
oxymoron these days. It takes you as long to get through there 
as it does on the normal phone line. So it is clear that on 
both the revenue-producing side as well as the taxpayer-service 
side, the cuts at some point begin to become negative and very 
visible and that is really where we are.
    The estimate is that with the 5,000 revenue agents, 
officers, and criminal investigators we will have lost by the 
end of this year over the past five years, that that is costing 
us $7 billion to $8 billion a year in audits. But as I said 
earlier, the concern I have is the combined impact of lowered 
enforcement and lower taxpayer services. The impact that I am 
concerned about isn't just about whether we collect more or 
less. And the Chairman and I will have a discussion about that 
in terms of what the pipeline looks like. It really is, what is 
the impact if, as a result of that, you have a decline of 1 
percent in compliance and you are suddenly talking about losing 
$30 billion?
    I understand the constraints. I spent 4 years working in 
the Senate and 3 years at OMB. So the deficit overall is a real 
issue. Trying to figure out--as I have told our staff--we have 
to figure out how to get people to want to give us the money 
and then work with them to figure out how to get that money. 
But ultimately my concern is that we are not talking about a 
short-term issue here. At some point, we are going to put at 
risk the entire compliance system, and that is not an on/off 
switch. When people get an idea that, you know, the system 
isn't working very well and they can take their chances, you 
can't turn that around overnight.
    Mrs. Lowey. Thank you very much.
    And thank you, Mr. Chairman. And I do hope that in a 
bipartisan way we can respond to your real concern. The cuts 
are really hurting taxpayers. We are all concerned about the 
deficit, but we have to figure out, if we want to collect the 
revenue and collect the taxes, how do we provide better 
services? Thank you very much.
    And thank you.
    Mr. Crenshaw. Thank you.
    Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. You know in 
listening to this--and I apologize, too. I have been in a 
couple different committee hearings today. 'Tis the season. 
Everybody is asking for their budgets.
    You know, I know that the budget says that you all are 
advocating for a would-be an increase for your operating 
expenses. And as the department overseeing the IRS or as the 
person overseeing it, I completely understand why. I know that 
you have received pretty steep funding cuts from this 
Congress--or in the previous Congress. And it is probably 
getting pretty tough to swallow. I completely understand that.

                   IMPROPER PAYMENTS AND EFFICIENCIES

    It is hard for me to reconcile this to my constituents 
when, you know, a couple weeks ago, we had the Inspector 
General, General George, testify in front of the committee and 
hearing what he highlighted--and even some of it has been 
referenced today. You know, we talk about the $5.8 billion. He 
has cited mismanagement of service software licensing costing 
$100 million. He highlighted, you know, more erroneous tax 
returns. Office space, he said that, you know, the IRS could 
reduce office space by nearly 100 million square feet, saving 
us about $111 million over 5 years without sacrificing 
performance.
    So it is difficult to reconcile, you know, that $5.8 
billion would more than take care of--I believe it is about 10 
times what you are requesting in terms of an increase. So it is 
hard--how do we answer to taxpayers a very rational question: 
If you wouldn't--just wouldn't send out the money that you had 
in erroneous errors or if you would make some of these kind of 
streamlined--the office space, so on and so forth--if you would 
streamline some of the recommendations that another agency is 
already taken care of, then you would have that part--then you 
would have that money back. I mean, we could--we could even 
agree to probably let you keep the money if you went back and 
collected it or kept it. Do you know what I mean?
    Mr. Koskinen. I was going to say, unfortunately, as we get 
better at collecting money or tracking down fraudsters, we 
don't get to keep it. And that is probably right. We shouldn't 
be----
    Ms. Herrera Beutler. I bet you we could make you a deal.
    What do you think, Mr. Chairman?
    Mr. Koskinen. That is right. Well, we do collect a lot of 
money that way.
    The point I would make is I spent actually 3 years chairing 
the Interagency Council of Inspectors General. I am a great 
supporter and believer in the internal audit function and the 
IG function.
    The IG has a series of reports and does a great job in 
pointing out where we could be more efficient. GAO does the 
same thing. The Taxpayer Advocate. We have a lot of people 
giving us suggestions. We take them all seriously as we go 
forward.
    All three--the Inspector General, GAO, and the Taxpayer 
Advocate--have said, notwithstanding all of that, the budget of 
the IRS is substantially underfunded and puts taxpayers and the 
system at risk. So they have all said there are things we could 
do, and we are continuing to try to do them. Office space is 
one. We have cut 1.8 million square feet. We have more people 
telecommuting. Telecommuting turns out to work very well and 
efficiently, and we need to do more of it.
    We have a standing rule right now, if a lease comes up, it 
doesn't get renewed automatically. We take a look at, and ask, 
is there a way not to renew it. We just, in midtown Manhattan, 
saved $4.5 million a year by not exercising a lease and moving 
people into other space.
    So I think you are exactly right. And I agree with the 
Chairman. We need to be as efficient as we can. And when 
somebody comes up with a suggestion, rather than being 
defensive, my view is, if it is a good idea, we just ought to 
take it. And the fact that we didn't do it last year or 2 years 
ago shouldn't mean we shouldn't do it going forward.
    So I read the IG reports regularly. I read our responses to 
make sure that we are not ducking out on those. Some of the 
issues have been about hiring employees, who the IG noted, had 
prior performance records. I told our people, that is exactly 
right. We shouldn't do that, and we are actually going to 
change that.
    But, ultimately, as I said, we save about $200 million a 
year now that we didn't used to save because of space and 
contractors and others. And if we could move that to $300 
million, I would be delighted. But the gap is bigger than all 
of those efficiencies. But my point is----
    Ms. Herrera Beutler. Well, wait. It is not, though, I mean, 
if you look at the dollar number.
    Mr. Koskinen. Well, I can't take the $5.8 billion and if I 
get it down to $2 billion, take some portion of that----
    Ms. Herrera Beutler. Hey, I would advocate for you on this 
side.
    Mr. Koskinen. I need to talk with you more about this.
    Ms. Herrera Beutler. You get to keep what you save. I meant 
it. I am working with the Forest Service on a similar idea.

                             S CORPORATIONS

    Let me switch gears. We hear a lot about tax reform and 
loopholes, particularly from the administration. That has been 
kind of a hallmark of talking about making the big guys pay 
their fair share and not taking it out on the small guys. The 
IRS IG reported in 2013 as much as $2.3 billion was erroneously 
given to corporations in carry-forward credits. However, the 
IRS does not plan to follow recommendations to address that. At 
the same time, the IRS is, to quote Inspector George, 
``Dedicating significant resources towards addressing what it 
believes is the most significant risk to compliance, the use of 
flow-through entities, such as partnerships,'' unquote. Flow-
through entities or S Corps--and more often not, they are small 
family-owned businesses. Meanwhile some of the biggest users of 
the carry-forward credit are large, publically owned, 
publically traded corporations. So what it looks like--correct 
me if I am wrong--is that the IRS, by extension the Treasury 
Department, is ignoring $2.3 billion per year in improper 
awards to some of the biggest corporations on the planet on top 
of the billions they legally save through existing loopholes so 
that the government can, on the other hand, dedicate 
significant resources to auditing those small, family-owned 
businesses. Help me understand that.
    Mr. Koskinen. Well, first of all, we try not to reveal too 
much regarding audit selection. But the bigger you are, the 
more likely you are going to be audited. Major corporations are 
under constant regular audit. And so we have an audit plan, and 
we look at what the impact is. If we only wanted to collect 
money, we would simply audit the biggest corporations and the 
most wealthy individuals. But that would mean--because the 
preparers are pretty smart, everybody would understand, if you 
are below this threshold, you can do whatever you want because 
they are not auditing you. So that is why we audit low-income 
people and middle income people as well.
    So, first of all, we don't ignore corporations. Our pass-
through issue is a subject to have a long hearing about. Again, 
we need authority.--The TEFRA rules that were great 30 years 
ago don't apply now because the problem we have is not small 
partnerships. It is the partnerships with over $10 million in 
assets and 100 partners. We have 5,000 that have over 1,000 
partners. Some of the partners are partnerships. And what it 
takes to get through all that to conduct an audit means that 
most of them don't get audited. It is a big problem. And, 
again, there is a legislative fix that is a Treasury Department 
proposal that we hope will get enacted that would allow us to 
balance that out.
    Because I agree with you, we need to be fair across the 
board. No one should feel that they are out from under and that 
they are never going to hear from us. On the other hand, as I 
said earlier, if you hear from us, you should hear from us 
because of something in your return. You shouldn't hear from 
us--you shouldn't have to worry that you went to some meeting, 
you wrote an op-ed, you belong to a particular party, that is 
why you are hearing from us.
    Even with our constrained resources, we will do over a 
million individual audits this year. And my concern is 
everybody should understand those are selected automatically 
because of something in the return. I don't want anybody 
feeling that somehow they were picked on because of who they 
are or what they do outside of filing their tax returns.
    So your concerns are appropriate, as I say. On the 
partnership passthroughs, it is a fascinating problem. More and 
more organizations are forming as passthroughs rather than as C 
corporations. So the volume of business being done at all 
levels in partnerships, Master Limited Partnerships, et cetera, 
is growing. And it is, at this point, growing beyond our 
ability to effectively keep track of it.
    Ms. Herrera Beutler. I yield back.
    Mr. Crenshaw. Thank you. I think we have a little time for 
some additional questions.
    I don't know, Mr. Serrano, do you have additional 
questions? Please.
    Mr. Serrano. Thank you. Let me first comment on something 
you said before because you were pretty fast with the--quick 
with the microphone.
    The reason that the IRS collected more taxes is because 
more people were filing on their own because the economy is 
doing better and because we have more taxpayers every day. If 
the majority party, as I think it will, does something about 
immigration reform before 2016 election, there will still be 
even more people paying taxes. And the question is, will they 
have the resources to be ready to deal with it? And so it is 
not that we cut their budget and they collected more money and, 
therefore, we need to keep cutting their budget. It is that 
more people are filing and many more will file, if we ever do 
immigration reform, which I have got a little hint that 
something will happen before the Presidential election on 
immigration reform. Just a little hint.

              TAX EXEMPT AND GOVERNMENT ENTITIES DIVISION

    And since this subject was brought up, I wasn't going to 
comment on it. I do have to address it. The 501(c)(4) issue is 
2 years old. Despite the numerous personnel changes made at the 
IRS, new leadership being brought in, and intense scrutiny from 
numerous investigations that themselves have caused the 
taxpayers millions of dollars, the majority party acts as if 
every day is Groundhog Day anytime the IRS is brought up. 
Furthermore, they exaggerate the number of employees involved. 
They blame everyone at the IRS for the mistakes of a very small 
number of individuals. The employees who are there now are the 
ones we are tasking with turning things around. You would think 
we would want to help them so they can be successful rather 
than mindlessly attacking them.
    And let me remind this committee that if you look at the 
comments I have made, which we keep records of, I was as 
outraged as anyone else that something like this could have 
happened, did happen, or was happening, you know. I mean, I was 
not making excuses.
    J. Russell George, the IG for tax administration, who 
looked into the 501(c)(4) issue, indicated that you have been 
very open with him and that you have an open line of 
communications with him. We are very pleased to hear this. 
Please tell us about the changes in the Exempt Organizations 
Unit and update us on the cost incurred to taxpayers due to all 
of the investigations.
    Mr. Koskinen. Well, as you note, if you go back to who was 
around at that time and you start at the top, the entire chain 
of command is gone. So we have new people, the Commissioner at 
the Tax Exempt and Government Entities Division who is running 
that Division, the Deputy Commissioner for Services and 
Enforcement and the Commissioner. And you make a good point, 
the entire Exempt Organization Division of the IRS is about 900 
people. Even with the cuts, we have 87,000 people total at IRS.
    So again generalizing from a management problem that 
shouldn't have happened and it was a mistake and it has created 
concerns that I share, but saying that that exemplifies what 
the other 86,000 employees are doing obviously doesn't help. 
But we are dedicated to making sure that the situation doesn't 
occur again. We do work very closely with the Inspector 
General. As I said, I view internal audits and oversight and 
ideas from third parties as important. We are trying to build a 
culture in the IRS where every employee views themselves as a 
risk manager and knows my view that bad news is good news. The 
only problems we can't fix are the ones we don't know about. 
And as I said at my confirmation hearing, it would be nice to 
say we will never have a problem, but obviously, it is a 
complicated code. We deal with almost every American, and we 
have 87,000 employees.
    So my commitment is, if there is a problem, we will find it 
quickly, we will fix it quickly, and we will be transparent 
about it. And part of the problem in the whole (c)(4) issue has 
been, you know, some lack of transparency. And I don't think 
the system can survive with that. So my view on all of these 
questions, whether it is seizures or hiring employees with 
problems, is we need to deal with it, if the facts are there. 
We shouldn't be arguing about the facts. We should be deciding 
what are we going to do to fix that problem. And I want people 
to be comfortable that when a problems arises, we are going to 
take it seriously, we are going to fix it, and we will be 
transparent about it.
    Mr. Serrano. Thank you.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    Mr. Graves.

                         QUARTERLY WAGE RETURN

    Mr. Graves. Thank you, Mr. Chairman.
    I just had a quick follow up, if I could, on the topic we 
were discussing a minute ago about the tax refunds being sent 
to criminals.
    Just from a reconciliation perspective--It has been awhile 
since I have been in the private sector and thought through all 
the reports that were filed. But, if I recall, there is a 
quarterly wage report that is required to be filed--maybe it is 
the 941--and it is required each quarter, 30 days after the end 
of a quarter, which indicates the person's Social Security 
number, his or her name, and wages. Taxes associated with that 
individual would have been deposited within a banking 
institution and then forwarded on to the Internal Revenue 
Service. Is that not correct?
    Mr. Koskinen. We get the quarterly returns. I am not sure 
whether we get all that subset detail. In fact, one of our 
problems is to try to make sure we get the quarterly returns.
    [The information follows:]

    The Form 941 is a quarterly return that transmits summary data of 
wages paid to employees and does not include a listing of the 
individual employee's information (name, Social Security Number, wages, 
taxes withheld, etc.). Therefore, Form 941 cannot be used as a 
substitute for the Form W-2.

    Mr. Graves. It seems like the information from quarterly 
returns is data. Those are data points which could reconcile, 
at least in the interim until you get the final W-2, which is 
required to be filed by the end of March 31st as you 
indicated--that might provide a little bit of data there to 
work with. And if I am not mistaken, the fourth quarter 941 was 
required to be filed by the end of January, which should 
conclude all four quarters of the previous year. It should be 
on file with the Internal Revenue Service, I would suspect.

                           TAX SIMPLIFICATION

    And then just one other comment. If we could just provide a 
little clarity, you have spoken a few times today saying that 
your preference would be that there is minimal training for 
individual preparers, or professional preparers who file 
returns on behalf of individuals. And that might be your 
opinion.
    And my opinion of that perspective is that when you make 
that determination, then, maybe the Tax Code is just a little 
too complicated. And that if it is required of a professional 
to have minimal training, how can we expect the average, hard-
working American to fill out these tax returns as well? But I 
can tell you this, without minimal training, the criminals have 
got it figured out, and they are the ones who are filing these 
fraudulent returns and the ones that are receiving these 
payments from taxpayers--from the IRS.
    Mr. Koskinen. I always preface my comments by saying tax 
policy is the domain of the Treasury Department, the White 
House, and the Congress. We are in the tax administration 
business.
    Having said that, I am a great believer in tax 
simplification. I agree with you, when all of us are using 
preparers to file our returns because we are not confident we 
can do it ourselves correctly, the Code is too complex. I 
thought Congressman Camp was right that the Tax Code is bigger 
than the Bible with none of the good news. I have told him for 
a year, I am going to give him credit, and then I am stealing 
that quote.
    But I think it is totally right, and I have nothing against 
tax preparers. They provide a great service. But some taxpayers 
ought to be able to have an idea that the Code is simple enough 
that you can not spend--the amount of time--it has been 
estimated we spend 6 billion hours of time filling out our tax 
returns. If you think of the intellectual capital, you have to 
be smart to be a tax accountant, tax preparer, or tax lawyer. 
If you think of all the intellectual capital spent just trying 
to figure out what the right amount to pay is, and if we put 
that intellectual capital to some other use, it would be a 
great thing for the country. So whatever we can do to help tax 
simplification, we are delighted to do that.
    Mr. Graves. Thank you.
    Mr. Chairman, how about that? Ending on common ground.
    What do you think, Mr. Serrano?
    Mr. Serrano. Are you done?
    Mr. Graves. Yes, sir. Absolutely. Yes, sir.

                             TAX PREPARERS

    Mr. Serrano. I understand your point about the criminals, 
and we all agree on that. But some of the criminals are tax 
preparers. And if you go into certain neighborhoods, you will 
see blasted on the window, ``Come in here, and we will get you 
the best break.'' You know, that is not what they are supposed 
to advertise. They are supposed to advertise, ``We will file 
your return.'' And so not everybody goes in saying to a tax 
preparer in a storefront operation, ``I want to cheat on my 
taxes.'' But, in many cases, you have someone who says, ``Come 
in and we will get you the better deal'' and the better deal is 
the one that he thinks should send some people to--at least to 
be scrutinized by the authorities.
    Mr. Graves. And I understand the gentleman's point. 
Reclaiming my time.
    My point is that those individuals clearly have above 
minimal training in order to figure out how to evade the tax 
system. My point is, for all the law-abiding tax preparers, 
professionals out there that work hard everyday and have a 
small business and are trying to help folks, I think they are 
doing it the right way, and their minimal training shouldn't be 
a requirement of the Federal Government. And if it is required, 
maybe the Tax Code is just a little too complicated.
    Mr. Serrano. And they are the largest group, the fair-
minded.
    Mr. Graves. Right.
    Mr. Serrano. The clean guys and ladies are the largest 
group. But there is still that small group that creates a 
problem for everyone.
    Mr. Graves. Thank you.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Ms. Herrera Beutler, do you have any more 
questions?

                          MATCHING INFORMATION

    Let me just--a couple of quick questions before we go. And 
we talked a lot about fraud, the $5.8 billion. And you 
mentioned that the administration wants to move up the W-2s. 
And then you said maybe if we waited later on, after we have 
all of the information, then process those returns, you would 
have more information and maybe there would be less fraud. But, 
on one hand, I have always--I have thought about that. The 
taxpayers might not like that. They love getting their refunds 
early.
    Mr. Koskinen. We would have 60 million who already got 
their refunds calling us and saying, whose idea was that?
    Mr. Crenshaw. But is that something you would really think 
about, now?
    Mr. Koskinen. Yeah.
    Mr. Crenshaw. You mentioned maybe one of the problems is 
that all of a sudden you will have to process all of those at 
the end. But I imagine you staff up when you are, you know, 
processing now. If you staffed up a little bit later. But, 
obviously, there is a concern of the taxpayers, I file my tax 
returns, I want to get my refund.
    Mr. Koskinen. Right.
    Mr. Crenshaw. But what is the biggest objection to that, to 
say--rather than you call it chasing a file, but say you file 
your tax return and then maybe sometime 3 months after that, 
when all this information has come in and you can even do a 
better job of weeding out the fraud, what prevents you from 
suggesting that?
    Mr. Koskinen. We have actually--because I have said we need 
to start from scratch. So we have looked at that in terms of 
what the impact is.
    Part of the problem is, it is not just a question of more 
IRS employees because the filings really are electronic. If we 
get 100 million--you know, it is about 100 million to 110 
million out of 150 million are going to get refunds. If we put 
them all into that last couple of weeks, the system simply 
won't be able to----
    Mr. Crenshaw. Well, do they have to be in the last couple 
of weeks?
    Mr. Koskinen. Well, because if we don't get the information 
until the end of March and filing season deadline is April 15, 
we don't have a large window of time. But we are----
    Mr. Crenshaw. I mean--and this is, I would say, after you 
file returns in April, right, and right now if you file a 
return early, you can get a refund pretty quick. But what if it 
were, you file your return by April 15, but you are not going 
to get a refund until, let's say, 3 months later because you 
got more time to do all of the due diligence.
    Mr. Koskinen. We actually have looked at that and are 
considering, is there a way to, in fact, delay refunds, and 
what is the impact on taxpayers? Part of what happens is, of 
the 80 percent getting refunds, a group of them who are middle- 
and upper-income people, do it primarily because it is a pain 
in the neck to write a check in April and you would rather just 
get a refund.
    A larger group of people getting that refund, it is the 
biggest check they get all year. And they are acclimated now, 
at least used to, in January and February to have it. They are 
paying for rent or other expenses. Now, even having said that, 
if you got everybody acclimated, then, instead of being 
February, it is April or it is May, you have a tough year and 
then you would have everybody--every 12-month cycle would go 
that way. And we have actually looked at--it is somewhat 
draconian for people who expect that. We have to pay interest 
if we haven't given you your refund within 45 days of April 
15th if you file a timely return. But even that, at today's 
interest rate, isn't very much.
    So we have continued to look at, are there ways to modulate 
or adjust. Recently, this week, there was a survey in the Wall 
Street Journal that they reported on and it said, well, you 
know, the majority of taxpayers say they would be happy to wait 
a while for their refund if that meant that they were less 
likely to be subject to identity theft.
    So it is part of this package of, okay, how do we deal with 
this, again, recognizing that we are fighting a battle with 
very sophisticated criminals with very high-tech equipment? And 
so, you know, delaying refunds is something that we are going 
to have to look at.
    Even if we get the W-2s by the end of January, it means, by 
definition, you are not going to get them, your refunds--you 
know, filing season usually starts January 20th. So there is 
going to be a delay built in, even if we had the information 
returns earlier. The advantage of getting the W-2s earlier is 
we could spread that delay out over a period of time, which 
would be much more manageable.
    Mr. Crenshaw. And it might even help with the earned income 
tax credit. If you had delayed refunds, whatever, it might give 
you a little more time to----
    Mr. Koskinen. Yes.
    Mr. Crenshaw [continuing]. Deal with that because that is, 
like, $6 billion and $19 billion and somehow if you could----
    Mr. Koskinen. Like half.
    Mr. Crenshaw. You know, part of that, it might be worth 
taxpayers saying, well, we will wait a little bit.
    Mr. Koskinen. Yeah.
    Mr. Crenshaw. Maybe their taxes will go down if we--if we 
collected all those.

                   FILING WITH INCORRECT INFORMATION

    The last question real quick, and this is just--this is--
and I am just curious about this. When I read about the 50,000 
folks that filed tax returns based on the incorrect information 
they got, I think there were 750,000 people that got that 
incorrect information. The 50,000 that filed, you all decided, 
well, if they owed additional taxes or whatever, you are just 
going to kind of let that go.
    I just wonder, is that going to be a problem? What about 
the next batch? I mean, all the people that got incorrect 
information, the next 700,000 that file, is there any kind of 
due process issue with them? Or how do you decide we are just 
going to--they got wrong information, they filed a return, 
maybe they got a refund, maybe they are going to owe back 
taxes? On the other hand, maybe they will--you know, it might 
be a wash. But how do you make that decision?
    Mr. Koskinen. Well, it is a policy decision that actually 
is made by the Treasury Department in terms of where it goes. 
Obviously, we have had other programs where you have a 
transition year. In fact, we have even talked with the States, 
you know, if you get your program not quite right, you can have 
a transition time. So the idea for the 50,000 has been made 
clear, this is a one-time this-year-only issue.
    But the point you raise is a good one. If there are other 
corrections in 1095-As, you know, what do you do with that? You 
can make a policy decision, but one problem is the 
administration of it in terms of, you know, you can complicate 
our processing issue enough that you actually put it at some 
risk. But those issues are, fortunately, affecting a relatively 
small amount, about 50,000, out of the 75 million who have 
filed. The other 750,000--there were about 800 to start with--
have been advised and they are apparently waiting. They are 
going to get their corrected form--just like you get a 
corrected W-2, and they will file their return with the 
correction. But it is clearly possible there are going to be 
other errors.
    We have encouraged taxpayers to look at their 1095-A and 
make sure that it corresponds with their experience. And some 
of them will, obviously, at some point, find an issue. I think 
the Treasury concern was this was a, you know, not a mistake 
the taxpayers made. It was a mistake by the government. And so, 
you know, if you have already filed and the differential 
amounts generally are relatively small, we shouldn't give 
taxpayers that burden.
    But I think the point is a good one that if there are going 
to be other, you know, 2,000 people here and 1,000 people 
there, in some sense, our view is that we need to administer 
the Tax Code in an orderly way. And I think Treasury is 
sensitive to that.
    Mr. Crenshaw. Well, thank you. And let me--any other 
questions?
    Mr. Serrano. Just one further comment on the subject I 
mentioned before, just to show you the need to look at this 
agency as a department that needs resources in the next few 
years. If we get immigration reform--and this is something my 
colleague and I have discussed at times--it is pretty much 
bipartisan belief that you will pay a fine--who they will pay 
that fine to, the IRS or the Treasury, but that has to be 
processed. But then a process will be worked out to pay back 
taxes. It certainly is to them, and that will be huge numbers 
of people. Then you have people who have been working with a 
TID number, which is totally proper. And you have people who 
have been working with somebody else's Social Security number. 
You know, all of that will have to be sorted out. So when we 
look at this agency, we don't look at an agency that will have 
less work to do in the next generation but rather much more 
work to do.
    Mr. Crenshaw. Unless we simplify the Tax Code and then----
    Mr. Koskinen. That would help. That would help.
    I would note, just a response to that, as I have talked to 
our employees about it, one of the ironies but good signs is, 
when there is a program and there is an attempt to do 
something, a lot of times people give it to the IRS because the 
assumption is the IRS will do it. And it has a history--it has 
got a great workforce. It has really got, as I said, a 
dedication to the mission that is reassuring and amazing to 
watch. But it hasn't escaped me over time, including the ABLE 
Act and the Professional Employer Organization requirement, 
that people are comfortable and confident--if you give us a 
responsibility, we will do whatever it takes to try to get it 
done, even in constrained resources.
    And I think that is important for the public to remember 
that, with all the appropriate discussions about are we doing 
it right, are we being efficient, there is a confidence that if 
you give us a responsibility, we will take it seriously. And we 
won't make a judgment; such as do we like this or don't like 
it? If you say to do it, we will do it. And I think it is 
important for taxpayers to sense that degree of confidence in 
the agency because ultimately it goes back to my real concern, 
as I say, people have to be comfortable and confident in the 
system if the compliance rate is going to continue and the 
process will be continued to be viewed as fair.
    Mr. Crenshaw. Well, thank you. And let's just end on a 
positive note. Let me thank the Commissioner. He has been 
working with a group called the Free File Alliance.
    Mr. Koskinen. Right.
    Mr. Crenshaw. And they just entered into an agreement, a 5-
year agreement, that about 70 percent of all the taxpayers are 
going to have access to filing their taxes free. That is 
something he has been working on.
    And I want to congratulate you for that. Thank you for 
that. And thank you for being here today.
    And we will all adjourn the meeting right now.
    Mr. Koskinen. Thank you.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    

                                          Wednesday, March 4, 2015.

                       DEPARTMENT OF THE TREASURY

                                WITNESS

HON. JACOB J. LEW, SECRETARY, DEPARTMENT OF THE TREASURY
    Mr. Crenshaw. The hearing will come to order. We are going 
to vote pretty soon, but let's start the hearing.
    Good afternoon to everyone. The subcommittee today welcomes 
the Secretary of the Department of Treasury, Jack Lew, here to 
discuss the President's fiscal year 2016 budget request, as 
well as the Department's budget request.
    The request was submitted on the first Monday in February, 
in accordance with the Congressional Budget Act, for the first 
time since 2010. While timeliness is appreciated, a budget that 
spends more, taxes more, and borrows more is not.
    At its peak in fiscal year 2009, the deficit was a record-
setting $1.4 trillion, or nearly 10 percent of the GDP. The 
deficit declined in fiscal year 2014 to $485 billion, which is 
a reduction of $928 billion. But only the most superficial 
analysis would lead anyone to believe that this is a credible 
policy accomplishment by the Administration because, as we 
know, the deficit is the difference between spending--or 
outlays, as we like to call it--and revenue. When you look 
closely at what accounts for recent deficit reduction, you will 
find that increased revenue accounts for about 99 percent of 
that $928 billion deficit reduction, whereas decreased outlays 
are only about 1 percent of that.
    And if you look more closely at the decreased outlays, all 
of it is attributable to the discretionary side of the 
government's ledger. And so in fiscal year 2009 through 2014 
discretionary spending decreased, actually went down by $58.8 
billion, but mandatory spending increased by $47.3 billion. So 
that means that all of the spending restraint for the past 5 
years is the result of the hard work of the Appropriations 
Committee under the leadership of our able full committee 
chairman, Hal Rogers.
    Nonetheless, even as the deficit has declined, total public 
debt outstanding has grown to a record high of more than $18 
trillion. The demographic changes underway in this country mean 
that benefits like Social Security, Medicare, Medicaid enjoyed 
today, are going to be bills that are paid tomorrow by our 
children and our grandchildren. And, regrettably, the 
President's budget does not address the unavoidable question of 
how to distribute the economic cost of an aging population 
across generations.
    So because of this, Mr. Secretary, I urge you to work with 
the Budget Committees and the authorizing committees to help 
lift the yoke off the back of the younger generations of hard-
working Americans.
    Now, the Treasury Department's budget request for this year 
is strikingly similar to last year, with the exception of the 
IRS. Instead of the $1 billion increase, the Department is now 
requesting a $2 billion increase for the IRS. And you might 
remember I described last year's request as troublesome, but 
now that it is a $2 billion request, I would say it is even 
more troubling.
    We are going to have a separate hearing on the IRS, and 
Commissioner Koskinen will come before the committee, and I 
think we have made it clear that the IRS has betrayed the trust 
of the American people. I think they would agree with that. We 
talked about their need to restore that trust, to earn back 
that trust. We want to see that happen.
    But in spite of that, the request from the IRS this time 
seeks to pay certain IRS employees salaries and bonuses that 
are bigger than what is allowable under the civil service 
system. The request also eliminates some of the requirements 
that we put in our bill, such as prohibiting the IRS from 
targeting. That is gone. Reviewing the appropriateness of IRS 
videos. That is gone. Compliance with the Federal Records Act. 
That is gone. Guarding against excessive conferences spending. 
That is gone. Upholding the confidentiality of tax returns. 
That is not there anymore.
    To me, these are commonsense, good government reforms that 
help heal some of the IRS' self-inflicted wounds. More reforms, 
however, may be necessary if the incorrect information sent to 
about 800,000 low-to-moderate-income households foreshadows yet 
even more difficulties with the administration of the 
Affordable Care Act.
    I am also troubled by the Department's desire to cut 
funding for the Office of Terrorism and Financial Intelligence. 
It seems particularly ill-conceived when we are trying to deal 
with ISIL. We want to cut off funding for that terrorist group. 
We think that that ought to be a priority. Monitoring the 
Iranian economy and financial transactions will be necessary 
with or without the final nuclear deal and we might need 
additional economic pressure on Russia if the Ukraine ceasefire 
doesn't hold up.
    The Administration's decision to normalize relations with 
Cuba, that is causing some concern, especially with regard to 
the increased people-to-people travel and the trafficking of 
confiscated properties. That is something we are going to 
follow closely and carefully.
    But still I want to hear, Secretary Lew, what you think are 
the most important aspects of the President's budget and the 
Department's budget because I am hopeful we can find some 
common ground to work together.
    In addition, I am interested in hearing a little bit about 
the Financial Stability Oversight Council, the so-called FSOC. 
They have adopted some guidance that attempts to improve the 
transparency with regard to entities under consideration for 
the so-called SIFI designation, Systemically Important 
Financial Institutions.
    Now, I think that the transparency step is one in the right 
direction, but the FSOC's actions, as I understand it, don't 
really address some of the concerns about how it will mitigate 
systemic risk. I question why the FSOC would not create a 
process to allow companies, or primary regulators--why wouldn't 
you let them address the identified risks before designation? 
It seems to me that would save a lot of time and a lot of 
resources for the Council, as well as allow everybody to enjoy, 
and maybe ensure, more economic stability.
    And so before you move into your testimony, let me just say 
one thing about what is going on today in the Supreme Court. As 
we all know, they were having oral arguments about King v. 
Burwell, and that case has the potential to outlaw subsidies 
that are inherent in the Affordable Care Act for millions of 
Americans who enrolled in the health coverage through the 
Federal exchanges. And if you recall, the Treasury Department 
was unprepared under an earlier decision, it was called Loving 
v. IRS, that determined that the IRS didn't have any authority 
to regulate paid tax preparers.
    King v. Burwell is a lot more consequential and a lot more 
complicated than Loving v. IRS. And so I hope that the Treasury 
has a contingency plan in the event of a ruling in King v. 
Burwell that outlaws subsidies. So I would love to hear if you 
have any thoughts about how you are going to prevent these 
millions of Americans from entering a prolonged period of 
uncertainty surrounding their health care and tax liability if 
King v. Burwell is decided for the plaintiffs.
    These are ordinary and customary questions that any prudent 
organization would undertake to manage their legal risk, no 
different than the contingency plans that Treasury, FSOC, and 
other financial regulators are asking from the private sector 
for all sorts of possibilities.
    And last thing, Mr. Secretary, I just want to take a minute 
to highlight some landmark legislation that was signed into law 
late last year. It was called the Achieving a Better Life 
Experience Act, or the ABLE Act. What that did was create 529 
savings accounts for people with disabilities. It actually 
levels the playing field for millions of Americans who are 
going to be allowed to use tax-free savings accounts for 
certain expenses, just like they can save money for retirement 
or save money to go to college.
    And as you may know, the States are responsible for 
administering the program, but the Department needs to issue 
regulations. And I am hopeful that the Department will meet 
that statutory requirement and hopefully the States can move as 
quickly as possible, because there are millions of Americans 
that are going to have a door open to a brighter future.
    So, again, let me thank you for taking the time to be here 
today. I look forward to hearing your testimony.
    And now let me turn to the ranking member, Mr. Serrano, for 
an opening statement.
    Mr. Serrano. Thank you, Mr. Chairman. I would like to join 
you in once again welcoming Secretary Lew before the 
subcommittee to discuss the Department's budget for fiscal year 
2016.
    The Treasury Department is at the center of our economic 
recovery plan, plays an important role in the implementation of 
some of our most important public policy initiatives, like the 
Affordable Care Act and Dodd-Frank, manages our Nation's 
finances, and works to enforce our tax laws fairly. I have not 
mentioned everything, but it is plain to see that this is a 
diverse set of responsibilities.
    Your budget request attempts to improve funding levels for 
many parts of your work, but let me highlight just a few. First 
and foremost, your budget attempts to restore the devastating 
budget cuts that hit the IRS in fiscal year 2015. The IRS 
estimates that the $346 million in cuts suffered last year will 
result in $2 billion less in revenue collected and in fewer 
services to honest taxpayers trying to get their questions 
answered by the IRS. In other words, we are increasing the tax 
gap and making things more confusing for taxpayers.
    Regardless of your feelings regarding the handling of the 
IRS' problems, this is not a recipe for success. We cannot keep 
pretending that less investment in the IRS is somehow going to 
increase compliance and lower the tax gap. That is why I 
applaud your efforts to restore IRS funding to more sustainable 
and effective levels.
    Additionally, you request a modest increase for the 
Community Development Financial Institutions Fund. The CDFI 
Fund has helped invest hundreds of millions of federal dollars 
in my congressional district since its creation 20 years ago, 
and it has been an important driver of economic development in 
my district, in the Bronx, and in other underserved 
communities. Although I am concerned the Department has once 
again recommended the elimination of the BEA program, I am 
heartened that we all agree about the importance of the work 
that the CDFI Fund does every day.
    Lastly, I would be remiss if I did not mention the 
Department's important role in implementing the President's 
groundbreaking change to our ineffective Cuba policies. I look 
forward to working with you and with the Office of Foreign 
Assets Control to make sure that there are no problems with the 
implementation of these efforts.
    Secretary Lew, I know that this change in Cuba policy is 
historic. Some of us thought it would never happen. It entails 
a lot of changes and a lot of great possibilities for both of 
our countries, and we will be working with you to make sure 
this goes as smoothly and possible. And I thank you for your 
being here today.
    Mr. Crenshaw. Thank you.
    And now I would like to turn to the ranking member of the 
full committee, my good friend Nita Lowey, for her opening 
statement.
    Mrs. Lowey. Well, thank you very much, Chairman Crenshaw 
and Ranking Member Serrano for holding this hearing.
    And to my friend Secretary Lew, thank you for joining us 
today.
    Mr. Secretary, your fiscal 2016 budget requests $14.3 
billion for the Department of the Treasury's operating bureaus 
and $2.9 billion for international programs, which is covered 
by the Subcommittee on State and Foreign Operations. As you 
have noted, the President's budget would achieve $1.8 trillion 
of deficit reduction over 10 years, primarily from reforms to 
our health, tax, and immigration systems. If it were adopted, 
deficits would continue to decline to about 2.5 percent of GDP 
over the 10-year budget window, which is down 75 percent from a 
peak of 9.8 percent. And we added more jobs in 2014 than in any 
year since the late 1990s. And yet, we can and must do more to 
continue to provide access to capital and get people back to 
work.
    In other hearings some of my friends on the other side of 
the aisle have stated their opposition to many of the revenue 
portions of the budget request. While I believe Congress should 
closely scrutinize and shape the final product, I would point 
out the constraints that our committee has operated under. Even 
excluding sequestration, Congress has passed and President 
Obama has signed into law more than $2.5 trillion in deficit 
reduction, $1.5 trillion of which has come from discretionary 
spending cuts. In fact, discretionary investments are on a path 
to be at their lowest level as a share of GDP since the 
Eisenhower administration.
    I ask my friends on the other side of the aisle, after this 
committee has cut so much, are you really unwilling to close 
tax loopholes in order to invest more in transportation 
infrastructure, education, job training, biomedical research 
and other R&D efforts, and the military as well?
    Thank you very much.
    Mr. Crenshaw. Thank you.
    Mr. Secretary, they have called a vote. There are 11 
minutes left. There is plenty of time if you would like to take 
a few minutes to make an opening statement. We would be happy 
to hear that. And then we might take a brief recess and come 
back. But, please, the floor is yours, as long as you don't go 
more than 5 minutes.
    Secretary Lew. Well, thank you, Mr. Chairman. I would ask 
that you include my complete testimony in the record. In the 
interest of time, I would be happy to dispense with my opening 
remarks and take questions right away since I know, with the 
votes coming, it may be challenging for some members to come 
back.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Crenshaw. If that is okay with you. Let me ask one 
question, and then I think with 5 minutes to go, since we have 
a series, we will all probably have to get up and leave, but I 
think it will take less than 30 minutes.

             SYSTEMICALLY IMPORTANT FINANCIAL INSTITUTIONS

    Let me just ask you about the Financial Stability Oversight 
Council that we talk a lot about, the FSOC. You remember last 
year I asked you some questions because you are the chairman of 
the FSOC, and it seems to me just over this last year that more 
confusion has been added. A lot of people are trying to do the 
right thing, but they don't know exactly where they stand. The 
question of transparency, especially, has been raised.
    FSOC ought to bring stability to the financial markets, but 
it seems to be working the other way. And I have told you and I 
have told SEC Chair White that I think the individual 
regulatory agencies are actually better equipped than FSOC to 
handle some of these things.
    But, for instance, if the primary focus is to identify and 
ensure systemic risks are adequately and appropriately 
addressed, wouldn't that be better than just designating SIFIs, 
and do you give companies the ability to address some of those 
systemic concerns before they get designated as a SIFI? And if 
not, why don't you do that?
    And finally, tell me why it is better to have this new 
Council as opposed to an agency that was set up, like the SEC, 
to address those kind of risks. Just touch on that about how 
the FSOC is actually working out.
    SecretaryLew. Mr. Chairman, let me start by saying that I 
think if you look at our financial system today and compare it 
to the time before the financial crisis, it is a lot safer than 
it was and there is a lot more protection for our economy and 
for the American people than there was before. So I think the 
steps that have been taken have done an awful lot to reduce the 
level of risk.
    With regard to why FSOC and not regulators, before the 
financial crisis there was no regulatory agency that had 
responsibility to look across the economy and ask the question, 
is there systemic risk that needs to be addressed? Each had its 
own siloed set of responsibilities. No one had responsibility 
for the crosscutting question of systemic stability to be the 
driving question. FSOC was created to bring the regulators 
together and have a place where those questions could be asked 
across the entire financial system.
    The authority to designate a financial institution is 
really based in the statute on finding that there is a level of 
systemic risk. It does not say you can do things to prevent it. 
It says if you find that there is systemic risk, the act that 
FSOC takes is designation, and then there is a regulatory 
procedure that follows.
    In many cases, what FSOC looks at outside of the 
designation process are issues that go back to the regulators 
with primary jurisdiction. So, for example, on money market 
funds, FSOC has looked at that issue, but it went back to the 
SEC for rulemaking action. In the case of designations, that is 
one authority that FSOC as a body across government, across 
regulators, takes when the finding of systemic risk is made.
    Mr. Crenshaw. Just on that point, do you think that the 
SIFI designation, is that appropriate for non-bank entities?
    Secretary Lew. You know, I think that the question really 
has to go back to does the entity present a level of risk that 
warrants the designation. That gets to a question of the 
structure of the financial activities, the interconnectedness 
of the entity with other financial entities and individuals, 
and what the flow of risk would be if there were to be a 
failure of the entity.
    Obviously, since we have designated a variety of different 
kinds of actors, it is more than just traditional financial 
institutions. We have market utilities that have been 
designated and we have several insurance companies that have 
been designated.
    You know, I do not think that we view it as kind of a 
general directive to look at corporations, businesses, 
activities that don't have to do with the financial system. So 
there would have to be that connection to the financial system, 
but the kind of entity, obviously, has varied.
    Mr. Crenshaw. But, for instance, if you get designated a 
SIFI, that can be costly. And if you designate, for example, an 
asset manager or a mutual fund, then they will have costs 
involved and they will pass those on to their investors. And a 
lot of those are people that are just saving for college or 
saving for retirement.
    And under Dodd-Frank, these nonbank SIFIs, they can be 
assessed to help pay for the resolution of the failing 
financial institutions, banks, that is what we think of. So you 
have got these provisions, but when you designate an entity 
such as a mutual fund as a SIFI, then that means these fund 
investors, they might be on the hook for bailing out the banks 
who, I guess, were the bad actors in that case.
    So, is that something you all have thought about when you 
designate a nonbank as a SIFI? Some investors impacted might be 
average Americans who are relying on their investments and they 
might end up on the hook to pay for some bad actions of a bad 
bank.
    Secretary Lew. You know, the purpose of FSOC, the purpose 
of financial reform is to protect individuals from the kinds of 
instability that come when you have a financial crisis like 
2008. In 2008, there were a lot of people who saved for college 
and their retirement who saw their savings just evaporate 
because of the financial crisis. So the goal is to see where 
there is systemic risk and address it.
    I do not want to say who is and is not going to present 
that kind of risk, because one of the things I think FSOC has 
done very well is it has looked at every matter as a case-by-
case review with a very diligent process where there has been 
back and forth with the company. We have now, as you noted, 
adopted some new rules to increase the level of engagement with 
companies earlier on in the process.
    I think that those findings will determine where 
designations are appropriate. We should not have a rule going 
in of what we will and we will not do. What I am committed to 
is making sure that the FSOC is always fact- and analytically-
driven, that it be driven by where are the risks of the future, 
not the risks of the past. Our job is to make sure we can tell 
those savers that we are doing everything we can to make sure 
that the financial system is safe and sound.
    Mr. Crenshaw. Thank you. I just hope you keep in mind the 
costs and benefits of these designations.
    There are a couple of minutes left. I think it would be 
good to recess now. There is one amendment, a motion to 
recommit, and final passage. Should be less than 30 minutes. I 
know the members have a lot of questions, and I appreciate you 
working with us. So let's stand in recess. And come back as 
fast as you can.
    [Recess.]
    Mr. Crenshaw. We will reconvene the hearing now. And I 
would like to recognize Ranking Member Mr. Serrano for 
questions.

                            IRS BUDGET CUTS

    Mr. Serrano. Secretary Lew, before we move to your fiscal 
year 2016 request, I would like to revisit momentarily 2014 and 
2015 with you. Specifically, I would like you to speak about 
the impact of the deep cuts in the IRS budget. When inflation 
is taken into account, the IRS is now down to 1998 levels. What 
are the short- and long-term ramifications of continuing to 
reduce the ability of the IRS to accurately and efficiently 
collect tax revenues?
    Secretary Lew. Congressman, the funding levels at the IRS 
are very troublesome. It ranges from not being able to do the 
basic things, like answering taxpayer calls, putting them on 
hold for so long that they drop, to not having the resources to 
put into properly enforcing our tax laws. In a system like 
ours, which is based on voluntarily compliance, it is a 
dangerous practice to underfund enforcement for a long period 
of time. It is very corrosive. It loses money. It loses 
billions of dollars to underfund the IRS.
    I must say that I am proud of the team at the IRS. The 
career staff at the IRS do an extraordinary job under very 
difficult circumstances. The inconveniences to taxpayers are 
being mitigated because IRS has been effective at using Web-
based information systems to provide information and to be able 
to respond to questions to reduce the call volume. But we 
cannot count on that forever. At some point you need to get a 
human being on the other end of the phone.
    I think in the world of technology we have old systems, 
which if we do not continue to improve them will become more 
and more difficult to just operate normally. But they also 
become more and more vulnerable to the kinds of threats that we 
face in cyberspace nowadays.
    So I think the underfunding of the IRS is shortsighted and 
damaging to one of the important institutions of any democracy, 
which is the organization that is responsible for making sure 
we collect our taxes from people who legally owe them and do it 
in a way that provides customer service that American taxpayers 
deserve.
    Mr. Serrano. Yeah, well, let me just go on the record once 
again as saying that I agree with you, and I have agreed with 
people in the past who have said the same or similar things to 
what you just said.
    You know, there are some cuts you don't like, some cuts you 
don't like and you know they make no sense. These cuts make no 
sense because eventually we hurt ourselves. We are supposed to 
be collecting more money, not breaking it down so you can't 
collect.

                                  CUBA

    Let me move on to one of my favorite subjects, one that I 
am very pleased with, the new regulations and the attempt at a 
new relationship with Cuba. Without telling me anything about 
secret negotiations that you can't tell me, although we Members 
of Congress think we should know everything, how is that going 
and what are the changes that you feel your Department will 
play a role in if we continue this road of normalizing 
relations with Cuba?
    Secretary Lew. Well, Congressman, the role that we play 
obviously is in the sanctions area where for most of my 
lifetime we have had limitations in place and they have not 
worked. It was an ineffective tool to change Cuba.
    And the President took actions, and we took actions with 
our authority within the law to take steps to make it easier 
for there to be contact between the American people and the 
Cuban people, to make it easier to get information into Cuba so 
that they are exposed to more media and more information from 
the United States, and to make it easier to do certain kinds of 
financial transactions, both because of bank correspondent 
relationships and because of payment terms. We cannot eliminate 
all of the restrictions because we had to operate within the 
law, which we did.
    But the purpose ultimately is to change Cuba. The purpose 
ultimately is for the Cuban people to see that there is a 
better alternative to what they have had. Since the old system 
did not work, we are very hopeful that the new system will be 
much more effective. I am not involved in the conversations 
that are taking place between the State Department and their 
counterparts in terms of the diplomatic relations, but I know 
those conversations have been continuing.
    Mr. Serrano. Mr. Chairman, let me just take a few seconds 
to just get thoughts from the Secretary. And I know that this 
is kind of out of left field. But one of the things that has 
always stuck in my mind is that for 50-odd years Cuban artists 
have not received royalties for the music we hear in this 
country, for instance. I am sure it may happen with other 
countries. That is not something that government is holding or 
would do accounting for.
    Do you think that that will be on the table as part of the 
discussion? I mean, we are talking about a lot of money. And 
who would hold that money on paper? Would it be ASCAP?
    Secretary Lew. I am not actually familiar with the issue of 
royalties for performing artists and where they reside. I am 
happy to look into it and get back to you.
    [The information follows:]

    The amendments to the regulations have not changed the situation 
with respect to the payment of royalties to Cuban musicians. To the 
extent that the sanctions impose obstacles to the payment of these 
royalties, OFAC has worked and is willing to continue to work with the 
relevant parties to consider whether the issuance of a license is 
necessary and appropriate.

    Mr. Serrano. I would appreciate that. I would imagine it is 
with ASCAP or one of these agencies. But we are talking about a 
lot of money for over 50 years that not a cent has been sent 
because we couldn't send money over there.
    Secretary Lew. Right. I am happy to look into it.
    Mr. Serrano. Thank you, sir.
    Thank you.
    Mr. Crenshaw. Mr. Graves.

                         OPERATION CHOKE POINT

    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Secretary, always good to see you and always enjoy 
having you before us. And it is always a spirited debate and 
discussion in gymnastics, in some cases. A lot of important 
issues we are all talking about and just wanted to, I guess, 
revisit one, Operation Choke Point, that I know that this 
committee and the Financial Services Committee in the House 
have been very diligent about getting to the bottom of and its 
effect that it has had on legally operating businesses that 
have been unfairly targeted and in some cases have been shut 
down.
    Would you commit to this committee and to the House 
Financial Services Committee and to the full Committee on 
Appropriations, myself, the chairman, and ranking member, that 
we will get to the bottom of this and resolve this totally?
    Secretary Lew. Congressman, I know that there are ongoing 
conversations. I understand the issues here. The objective has 
been to protect people from harm, not to cause problems. I am 
happy to follow up with you. It is not directly in my area to 
respond to that question, but I am happy to follow up.
    [The information follows:]

    The Treasury Department is not directly involved in Operation Choke 
Point.

    Mr. Graves. Thank you. We would appreciate your assistance 
in getting to the bottom of this. And I would hope you would 
agree with us that really the Federal Government has no role in 
picking winners and losers when it comes to legally operating 
businesses, but we would hope that the focus would be on those 
who are committing crimes against innocent Americans and other 
financial institutions, that the focus would be there as 
opposed to the legally operating.

                              VOLCKER RULE

    As well, later this year, I guess it is in July, all sizes 
of banks are going to be expected to be in compliance with the 
Volcker Rule. And in December last year the financial services 
industry submitted to the five regulatory agencies a proposal 
that was aimed at safely reducing the compliance burden for 
them and covered funds for legacy securitizations.
    I am sure you are familiar with that proposal. And as the 
chairman of FSOC, can you give us a little bit of an update on 
that? And do you think these regulators will respond to these 
individuals or these organizations and this industry who 
submitted this proposal?
    Secretary Lew. Congressman, when the Volcker Rule was 
designed it was designed with an understanding that 
institutions of different size had different situations. So it 
does not apply equally to all financial institutions.
    It is designed to reduce risk in the system so that 
financial institutions do not take on the kind of risk in their 
trading positions and the proprietary positions that they take 
that helped contribute to the financial crisis in 2008. A 
number of issues have come up that have been addressed 
subsequent to the initial rules where the regulators have taken 
a look at information as it has come in. I am not aware of 
additional action that is being taken right now, but I am happy 
to check on what the status is going forward.
    [The information follows:]

    The Volcker Rule is a key part of the Dodd-Frank Act that helps to 
ensure that banking organizations are focused on serving their clients 
rather than risky trading activities. The regulations adopted by the 
five rulewriting agencies to implement the Volcker Rule tailor the 
compliance program requirements to the size of an institution and the 
extent of a firm's proprietary trading and investments in private 
funds. The Chairperson of the FSOC had a statutory role to coordinate 
the regulation, and we have been closely monitoring the implementation 
of the Volcker Rule as it comes into effect. The agencies have taken 
important steps to respond to questions and comments about the rule, 
and the Treasury Department regularly seeks input from stakeholders 
about the effects of the rule. But with respect to any particular 
relief that may be considered, I would defer to the five agencies.

    Mr. Graves. As chairman of FSOC, maybe you could encourage 
the regulators to at least respond.
    Secretary Lew. Well, they have been responding on a regular 
basis. They do not always respond by taking the action that is 
requested, and those are obviously different questions.
    There are a lot of financial institutions that would like 
the Volcker Rule to be either rolled back or withdrawn. We 
continue to believe that it is a provision of law and there are 
rules that make our financial system safer and that protect 
Americans from the kind of risk that we faced. I do not believe 
it was designed in a way that puts an undue burden on smaller 
institutions. When an issue that was an anomaly came up, they 
quickly addressed it in the early days, after the rules were 
made. So I know that they are listening and paying attention. 
But some of the things the financial institutions are asking to 
have taken a look at have risk attached to it that would be 
problematic.
    So we can take a look at the specific request. But, 
obviously, we do not at Treasury have the authority to make any 
of these changes. There are five independent regulators that 
wrote the Volcker Rule. We helped shepherd them through the 
process, but they have the authority.

                         EFFECT OF REGULATIONS

    Mr. Graves. Okay. Understand. And then just one more 
question. Again, working with the House Financial Services full 
committee, you were in a hearing last year. And afterwards Mr. 
Hensarling had written you a letter in July outlining how 
overwhelming evidence has shown that overregulation in the 
corporate bond market has had negative effects on the economy. 
And I believe in your testimony you downplayed it a little bit 
and didn't see any adverse effects.
    Can you help us today to know what would you be doing as 
chair or have you done as chair to reexamine those cumulative 
effects that many would report have occurred and maybe, since 
you have had a different viewpoint, have noticed something in 
the market?
    Secretary Lew. Well, Congressman, we are constantly looking 
at what not just the incremental impact is, but the cumulative 
impact, because it is a fair question what is the cumulative 
impact. I think the cumulative impact has been that it is more 
costly for a financial institution to take more risky 
positions. There are more costs associated with being, in both 
size and activity, in riskier areas. And I think that makes the 
financial system safer because what it does is it internalizes 
a lot of the risk that had been borne essentially by the 
American people.
    I do not believe it has an adverse effect on the economy. 
The economy is doing quite well right now. We would love for it 
to be doing even better. But I do not think there is an--there 
is a lot of evidence that it is because of financial reform 
that we are seeing the economy do well. I am not saying it is 
one way or the other being caused by financial reform.
    I would say that having confidence in the market is 
something that helps the economy. To the extent that there is 
less uncertainty about where the rules are, that helps the 
economy. To the extent that the burdens cumulatively are at the 
level that makes institutions safer, I think that makes both 
the economy and the American people safer. So I do not 
subscribe to the theory that they have caused a lessening of 
economic activity.
    Mr. Graves. I understand.
    Well, thank you for your explanation. And I agree it seems 
the economy is doing better. I wouldn't suggest it is because 
of additional regulation.
    Secretary Lew. No, and I was not arguing one way----
    Mr. Graves. In spite of the additional regulation is how I 
might put it.
    But thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Thank you very much.
    Again, we appreciate your service.

                                  IRAN

    I would like to turn to Iran for a moment because I have 
been very concerned by reports of various European commercial 
delegations traveling to Tehran in eager anticipation of 
sanctions relief and the prospect of doing business with Iran. 
And I must say, by way of background, Stuart Levey and now 
David Cohen have both been very professional and are doing a 
very thorough job.
    The Administration has pledged to continue to strictly 
enforce existing sanctions on Iran, other than those relaxed 
under the interim deal. Yet I understand that Iran's oil 
exports are being offered from UAE trading firms acting as 
middlemen.
    A couple of followup questions. Can you tell us the current 
status of overall Iranian oil exports? Are we talking to China 
and India, both of whom are reportedly increasing their imports 
from Iran this year? And if these trends continue, is the 
administration going to sanction those countries? Specifically, 
what are the exports to China, India, and Turkey? And will you 
make publicly available the Department's country-by-country 
estimates on Iranian oil imports?
    So what is happening?
    Secretary Lew. So, look, let me start with the general. I 
think that if you look at the Joint Plan of Action agreement, 
it has worked extraordinarily well. It has stopped Iran from 
continuing to build its nuclear capacity, the first time in 
over a decade that anything has slowed down, much less turned 
back their progress. It had clearly denominated relief that was 
granted that was not enough to even come close to the 
additional burden ongoing sanctions are putting on their 
economy. Forty billion dollars a year of additional burden are 
the cost of sanctions going forward, and the Joint Plan of 
Action was in the single-digit billions of relief.
    So I think if you look at where we are right now with Iran, 
Iran's economy is in still very difficult shape. It did not 
recover from the damage that we caused by putting tough 
sanctions in place and, frankly, I think the reason they are at 
the negotiating table is they want that relief, but they are 
only going to get it if it is an agreement that is a good 
agreement that ensures that Iran will not have nuclear weapons.
    We have been vigilant in the enforcement of sanctions, both 
in terms of financial institutions and oil. I had conversations 
with many countries where we made it clear that we are going to 
continue to enforce sanctions as long as they are in effect, 
and I have had the acknowledgement of that, and countries do 
not want to get crosswise with us on that.
    So I can get back to you on the specific details of what 
the flows are. There are always some periodic ups and downs in 
those numbers.
    [The information follows:]

    A comprehensive response can be provided in a classified setting.

    Secretary Lew. But I think the bottom line is they got no 
more than the relief we agreed to, and that is not enough 
relief for the Iranian economy to turn around. The only way for 
them to get the kind of relief they really desire is if they 
concede on the key issues in a negotiation to make clear that 
they will not have nuclear weapons.
    I think that we have made equally clear that if those 
negotiations fail we will be the first to call for additional 
sanctions, and then all options would remain on the table in 
terms of making sure that Iran does not have nuclear weapons.
    So I am very proud of the work our team has done. I agree 
with you that the directors of OFAC, and now Adam Szubin, the 
acting director of TFI, under secretaries of TFI, have done an 
extraordinarily good job. Their teams have done an 
extraordinarily good job. They work very hard, and I think they 
deserve the support that we and you give them. But I do not 
think that there is a serious case that we have seen a 
backsliding on the commitment to maintain the sanctions regime.
    There is, obviously, the negotiation going on, which if it 
reaches a conclusion would have to involve some modification. 
But we have also been clear that there are multiple sanctions 
regimes against Iran, because Iran has been a bad actor in 
multiple different areas. The only sanctions that we have 
talked about relief from are the ones related to the nuclear 
issue, not the ones related to terrorism and other things.

                             SEQUESTRATION

    Mrs. Lowey. Maybe I will give you one general question. You 
have made clear that the President will not accept a budget 
that reverses our economic progress by locking in 
sequestration. What did you mean by this?
    Secretary Lew. I think that the challenge is going to be 
for Congress to come back and do another version of what was 
done in the Murray-Ryan agreement.
    Sequestration was never meant to take effect. It was 
designed to be something that was so odious to both sides it 
would make it possible to come together on the kind of balanced 
policies that would be a reasonable way to reduce the deficit 
as opposed to draconian cuts in discretionary spending. I do 
not think it is good for domestic priorities. I do not think it 
is good for our national security priorities.
    I find it somewhat odd that something that was meant to be 
so objectionable that it would be a motivation to do something 
as an alternative is now seen by some as something that has to 
be protected. Its purpose was to be a catalyst for different 
action.
    I think what the President is saying is Congress has to do 
that. Congress has to go back and work on that kind of balanced 
approach. It worked to provide some relief for 2014 and 2015, 
but it did not cover 2016. So we are now back in the world of 
those very, very low and we think unacceptably low levels. We 
would look forward to working with you and others on getting 
that done.
    Mrs. Lowey. Well, I am delighted to have the offer to work 
with you, and I hope our chairman and all the other members of 
this committee will do the same.
    Thank you very much.
    Secretary Lew. Thank you.
    Mr. Crenshaw. Thank you.
    Mr. Rigell.
    Mr. Rigell. Thank you, Mr. Chairman.
    And, Secretary Lew, thank you for being here. And this is 
really, I guess, principally one of my first hearings on this 
committee. It is an honor to serve on this committee.

                             SEQUESTRATION

    I read the mission statement of the Treasury and that is 
certainly common ground. And let me pick up for just a moment 
on this, the issue of sequestration and its reversal, or at 
least, if not full, at least a substantive portion of it.
    Just coming from my service on House Armed Services for 4 
years, I have a clear understanding and our Joint Chiefs of 
Staff and all of our uniformed officers and, indeed, the 
President has said that this is going to hurt our military.
    So you basically flipped it back to say it is exclusively--
you may not have used that term, but it was certainly implied--
that finding a way out of this is Congress' job. And I would 
submit that indeed we do have a lot of responsibility here, but 
I would say an equal one falls to the Administration. We don't 
need to go back and forth and rehash how we got here exactly, 
but I do recall--and I believe it has not been disputed--that 
sequestration, at least the mechanism itself, was offered by 
the administration. Of course, it became law as a result of 
some votes here in Congress.
    But I am submitting to you that the Administration itself 
has a responsibility to lead in this area as well. And I would 
like to know what, if anything, is on the table from the 
Administration to provide even partial lift to it.
    Secretary Lew. Well, Congressman, the President's Budget 
provides the Administration's view as to where we would go to 
put together an alternate path, which would be restoring levels 
to presequestration levels and to hit the targets for fiscal 
policy that we have set, which are consistent with the path.
    Mr. Rigell. Well, let's walk through that then. I think a 
lot of it comes down to just an assessment of risk and risk 
tolerance. The budget deficits that the Administration has 
built into its proposal to Congress are unacceptably high to 
me. And I would like to know what your working, your internal 
sense of risk is as it relates to a deficit as a percent of our 
gross domestic product and also our aggregate level of debt as 
a percent of our economy.
    Secretary Lew. So, Congressman, the President's Budget 
presents a path of deficits coming below 3 percent of GDP and 
staying in a zone for the next 10 years, the immediate budget 
window, that hits primary balance. You still have a deficit, 
but the deficit is basically related to the service of old 
debt, not the buildup of new debt. That is generally 
internationally seen as something that is the goal for fiscal 
sustainability. In terms of----
    Mr. Rigell. Is that--and I just want to be clear--is it the 
3 percent as a percent of the GDP?
    Secretary Lew. Well, 3 percent primary balance, the number 
depends on a number of calculations. It is about 3 percent or a 
fraction of a point higher or lower,in that area.
    Mr. Rigell. That is widely recognized by leading economists 
and----
    Secretary Lew. The International Monetary Fund, when it 
goes internationally with targets.
    Now, I am not saying that the goal over time should not be 
in good times to have the ability to bring down the number 
lower than that. I presided as director of the Office of 
Management and Budget for 3 years in the 1990s when we had a 
surplus and we were paying down the debt, so I fully understand 
that when you have a strong economy and things are working the 
way they should there is an opportunity to do better than that. 
But in terms of fiscal sustainability, the norm of primary 
balance is what economists look at as being a measure of 
sustainability.
    In terms of cumulative debt, we obviously are at a higher 
level than we were before we ran the very large deficits 
because of the spending and tax policies early in the 2000s and 
because of the financial crisis and what it took to get out of 
that. But we have slowed the growth, we have stopped the 
growth, and we have kept it in a range that is not as low as 
one would want it to be if we hadn't gone through the bad 
decade that we went through but is also at a sustainable level.
    So I think the President's Budget, if you look at the 
growth in our economy, it reflects a confidence in our economy 
that is coming back. It reflects a sense of a sustainable 
economy. Very different from when we had 10 percent of GDP 
deficits.
    Mr. Rigell. I have got about a minute left. And I 
appreciate your answer, and I am kind of wrestling with some of 
the things that you shared. Time doesn't permit me to go back 
and address all of them.

                           BALANCED APPROACH

    But for the longest time the President would say we need a 
balanced approach. And for a long while I was actually trying 
to help out with that and advocated for Republicans to move 
just a little bit on revenue. But so far as I can tell, in the 
last 4 years that I have served we have had about $1.8 trillion 
in tax increases, roughly a trillion dollars in the Affordable 
Care Act, or as I think of it, the un-Affordable Care Act, and 
about another $800 billion at the fiscal cliff.
    Are you aware of any aggregate measure of any substance 
that meets the definition of balanced approach? That is, to me 
a balanced approach would mean nothing less than a one-to-one 
ratio of revenue to expense reductions. And I don't think we 
have met that standard any of the 4 years that I have been in 
office. Do you? Are you aware of anything? I only have a few 
seconds left.
    Secretary Lew. Congressman, the discretionary cuts are 
obviously very large and they are roughly comparable to the tax 
increases that you have described. What is not there in a large 
form are the kinds of savings in mandatory programs.
    Mr. Rigell. I agree with you. We are in strong agreement 
there.
    Secretary Lew. The President's Budget has $400 billion of 
savings proposed as part of a balanced plan in mandatory 
programs. The challenge has been to put a balanced approach 
together in one package and to finish the job.
    Mr. Rigell. Secretary Lew, I thank you for your testimony. 
And I am going to look for some common ground here, and I mean 
that.
    And I thank the chairman, and I yield back.
    Thank you.
    Mr. Crenshaw. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Welcome, Secretary Lew.

                             PREPAID CARDS

    Mr. Secretary, to the surprise of many in my home State of 
Georgia, the State is the center of gravity for the entire 
payments industry across the globe. In 2014, there were over 
$4.4 trillion in credit card, prepaid card, and gift card 
transactions. Back in 2012, the Consumer Financial Protection 
Bureau released an advanced notice of proposed rulemaking, 
primarily focused on general reloadable prepaid cards, GPRs.
    On November 15, 2014, CFPB released a far-reaching 870-page 
notice of proposed rulemaking seeking to regulate the prepaid 
card products. Neither the prepaid card industry, nor 
consumers, had any indication or forewarning that CFPB's 
proposed rule would be so long and overwhelming.
    The CFPB's NPR significantly expanded its rulemaking beyond 
GPR cards by applying new regulations to other types of prepaid 
cards that are currently regulated, such as student cards, 
government benefit cards, and payroll cards.
    After the notice of the proposed rule was released, the 
prepaid industry and Members of Congress asked CFPB to extend 
the 90-day comment period for an additional 60 days. Our 
request was denied. In addition to the first congressional 
request, the Georgia congressional delegation put forth its own 
request, and we are still waiting for a reply.
    As you may know, Federal and State governments comprise the 
largest groups that use prepaid products because prepaid cards 
are a cost-efficient payment option compared to paper checks. 
According to Treasury, it costs $1.03 to issue a paper check 
and only 10-\1/2\ cents to issue an electronic payment.
    As a form of electronic payment, prepaid cards help 
governments at all levels disburse benefits, child support, 
WIC, SNAP, et cetera, in a very cost-efficient manner. Do you 
know or can you tell us whether CFPB conducted a cost-benefit 
analysis detailing the potential cost of the proposal and the 
cost that it would have on Federal and State governments who 
use prepaid cards to disburse benefits? Do you know what the 
cost would be to the Federal Government if we had to return to 
using paper checks to distribute and disburse Federal benefits?
    Secretary Lew. Congressman, I do not think anyone is 
proposing that there be a cessation of the use of prepaid 
cards, and obviously, the CFBP rule is not in our direct 
jurisdiction. I would refer to Director Cordray and the CFPB on 
the details. But I know the purpose of the rule was to protect 
consumers and to make sure that prepaid cards, which are a 
growing form of a transactional tool, are managed in a way that 
is consistent with protecting both individuals from charges and 
other costs that they might not see.
    I agree with you that prepaid cards are more efficient in 
many cases for governmental transactions and was part of 
turning some of our Federal benefit programs into smart cards 
in earlier years. So I very much understand the value of them.
    Mr. Bishop. Wouldn't the cost of compliance with an 870-
page rule be significant to the parties, the States, and local 
governments, and any other parties that utilize the prepaid 
cards?
    Secretary Lew. I think the CFPB has been remarkably 
effective in its short life designing rules that are well 
thought through and that are managed well in the marketplace 
that they are designed for. I do not think----
    Mr. Bishop. Do you know if they did a cost-benefit 
analysis?
    Secretary Lew. I would have to defer to the CFPB on that 
and be happy to put the question to them.
    Mr. Bishop. The answer is, no, you don't know? You don't 
know?
    Secretary Lew. I am not aware of what analyses they did. I 
do know that the purpose of the rulemaking was to protect 
consumers. It was not to create a bar to the use of prepaid 
cards on a broad basis. I would be happy to refer the question 
to Director Cordray.
    Mr. Bishop. I would appreciate that very much.
    [The information follows:]

    As a general matter, I would note that the proposed rule itself 
contained a cost benefit analysis of the potential impact of various 
provisions of the proposed rule. With respect to specifics regarding 
how the CFPB conducted its analysis and what are its conclusions, I 
would refer you to the proposed rule and the CFPB.
    As for the federal government's delivery of benefits electronically 
through programs such as Direct Express, I am fully confident that we 
will be able to continue to deliver the vast majority of benefits 
electronically once the CFPB finalizes its rule, and that we will not 
have to return to a high volume of paper checks.

    Mr. Bishop. I wasn't suggesting that it was designed to be 
a bar to the use of prepaid cards. What I was suggesting was 
that the burdensome rules and rulemaking could discourage their 
use and could make it much more difficult. Of course, if States 
that have found it very efficient continue to use prepaid 
cards, it may increase their cost in doing it from the 10-\1/2\ 
cents to whatever the regulatory compliance cost would be to 
comply with such rules. That was my concern.

                           TAX PREPARER FRAUD

    Georgia is number two for identity theft cases and preparer 
fraud. Forty-four percent of the cases in 2014 in Georgia were 
ID theft-related cases, and IRS has not passed any guidance 
regarding preparer fraud cases. Victims face financial and 
economic hardship as a result of the preparer absconding with 
refunds and leaving the taxpayer with an IRS balance due, in 
addition to not ever receiving the refund that the IRS 
rightfully owes them.
    For example, there was a Georgia taxpayer in the process of 
purchasing a home when a preparer diverted her refund to the 
preparer. The taxpayer lost the home, she lost the downpayment 
placed on the home, and she lost her car. The taxpayer stated 
the preparer is getting ready to open a new tax preparation 
business, giving plenty of opportunities to steal refunds from 
additional unsuspecting victims.
    As the IRS reduces tax preparation services, as your budget 
indicates, taxpayers are forced to seek preparation services 
for a fee, leaving them at risk of obtaining services from 
unscrupulous tax preparers. What recommendations do you have 
for a resolution for this problem? Is it solely an issue of 
increasing the budget of IRS or are there additional reforms 
that would be needed?
    Secretary Lew. Congressman, the President's Budget requests 
$101 million in investments to help combat tax-related identity 
theft. It would include expanding the services and assistance 
available to taxpayers who have been victimized by identity 
theft. It is a very significant problem, and I think it is one 
that we owe the American people to put the resources into to 
deal with.
    We know that, in general, in the area of cyberspace, cyber 
crime, that there is an increasing level of activity out there. 
We have to keep up and find the problems as they are developing 
and address them because the American people deserve that. But 
it does require funding the activity. So I would not say it is 
just money. It is money that you put to the right purpose. But 
we have a plan which, if it is funded, we think would continue 
to make progress in this area.
    Mr. Bishop. Is it contained in the President's budget?
    Secretary Lew. Yes, it is.
    Mr. Bishop. Thank you very much.
    Secretary Lew. Thanks, Congressman.
    Mr. Crenshaw. Thank you.
    Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your appearance today. 
Interesting testimony.
    When I read your bio I think there is probably not a better 
person out there that could sit down in the Oval Office and 
have a conversation, with as much know-how and experience as 
you have based on your time at OMB, as a chief of staff and 
even as the architect behind a program like AmeriCorps that I 
have had some experience with, to talk about, to be of counsel 
to the President of the United States so that when he sends a 
budget--and I am the new appropriator on the Budget Committee--
that when he sends a budget up, that it is something that we 
could all kind of rally behind and try to find some common 
ground on and that sort of thing.

                       LONG-TERM BUDGET PLANNING

    So here is my question for you. When you sit down in the 
Oval Office with the President and you talk about the next 10-
year window, particularly as it concerns deficit spending and 
the need for us to find meaningful and sustainable reforms in 
our social safety net program that we all know, everybody up 
here knows, is driving a lot of the deficit and contributing to 
our national debt, what is that conversation like? What advice 
do you give the President?
    Secretary Lew. Well, Congressman, obviously any 
conversations I have with the President in the Oval Office, 
under any of the roles that I have served in the 
Administration, deserve the privacy of the Oval Office.
    But I think the actions that we have taken over the 
Administration--I was part of it at OMB and part of it when I 
was as chief of staff to the President--it was trying to find a 
balanced approach where we did all the different things that 
you needed to do to fix the fiscal challenges. That obviously 
did not work, and we ended up doing things piecemeal. So we 
have gotten discretionary cuts and we have gotten some of the 
revenue measures. We have not had the conversation where all 
the pieces came together and we had a comprehensive approach.
    There were moments when I thought we were close to getting 
that kind of an agreement. I thought at the time that it would 
have been the right thing. As we look at the depth of the 
sequestration cuts, I think it is clear that discretionary 
spending has borne more of the burden than it should. My view 
is that, on the revenues, we have not completed the job and we 
have not really gotten where we need to go on some of the 
mandatory programs.
    I do think that what we have seen in healthcare costs has 
been very meaningful in terms of the reduction in the rate of 
growth of healthcare spending. Whatever one's view of the 
Affordable Care Act--I, obviously, think it is a very important 
initiative--the effect in the years since the passage of the 
Affordable Care Act is to have the slowest rate of increased 
cost in health care in a very, very long time, which has 
enormous impact on budgetary projections given the size of 
healthcare spending as a percentage of the budget.
    So I think if you look at our actions, I will have to leave 
your imagination the conversations in the Oval Office.
    Mr. Womack. I will take that, I guess.
    Yesterday, I went to the floor on a leadership hour and we 
talked about budget with a couple of my colleagues. I threw up 
a chart on mandatory spending and the squeeze that it is 
putting on the discretionary piece. As an appropriator, I have 
had a first-row seat to that, so I see the squeeze that is 
happening.
    And in the not-too-distant future it is obvious to me that 
unless we have massive tax increases we are going to have a 
very difficult time addressing even the basic functions of 
government, including turning the lights on in this Capitol.

                           MANDATORY SPENDING

    When you look at the net interest on the debt--and I know 
that it is north of $200 billion today--as you look at the 10-
year window out to 2025, before my 2-year old grandson turns 
12, and before my 8-year old can vote, the net interest on the 
debt is projected to be--in the President's budget--$785 
billion. That is a staggering number. I would argue that it is 
an unsustainable number and that the markets will speak very 
loudly long before we ever get to $785 billion.
    So how serious are you about looking at the mandatory side 
of spending, the two-thirds of spending that is on autopilot 
right now that is getting worse by the day, how serious are you 
about addressing that? And why do we not see a better depiction 
of it in the President's budget?
    Secretary Lew. Congressman, first of all, obviously nominal 
dollars tell one story, but if you look at it in the context of 
the size of the economy and what the world will look like 10 
years from now, we are now in a $17 trillion GDP economy, it is 
projected to be $27 trillion. So it is going to be a much 
larger economy. The number, while it is a large number, is not 
growing as a percentage of GDP anywhere near the rate that the 
nominal dollars are growing.
    I have thought for a long time that there needs to be a bit 
of a space in the political debate for the conversation on 
finishing the fiscal job to be done as required. We have not 
seen that in the last few years. We have seen tremendous 
progress, though, on reducing the deficit. While I am not happy 
about the discretionary cuts and would like to see some 
alternative budgetary measures to replace sequestration, there 
is no question that bringing the deficit from 10 percent to 3 
percent of GDP is an enormous, enormous accomplishment.
    I couldn't be sitting here with confidence telling you that 
at 10 percent of GDP we were in a sustainable place. When we 
were looking at numbers, 9 percent, 8 percent, those were scary 
numbers. Three percent is more of a normal number. I mean, it 
is roughly primary balance given the size of our debt service.
    The goal ought to be to do the things we can do now to grow 
our economy because a growing economy is the best way to solve 
the problem, and that is why we talk about things like 
infrastructure. I mean, we are short selling infrastructure 
now, which is necessary both for short-term and long-term 
economic health, and at a time when I think there is a 
bipartisan view that we should be doing more on infrastructure.
    So I think that what we can do in the next year or two 
should be to do the things we can do together to grow the 
economy. I am not sure going back to the debate of 2011, 2012 
would be the way to solve that problem right now. We have done 
an awful lot. Right now doing the things that would grow the 
economy I think are what really require our immediate 
attention.
    Mr. Womack. Mr. Chairman, can I ask one more quick 
question?
    Mr. Crenshaw. Sure.
    Mr. Womack. I know we are into someone else's time, Chaka's 
time. And I don't want to wear out my welcome.
    Mr. Fattah. Go ahead.

                             INTEREST RATES

    Mr. Womack. Real quickly, a word about what you see in the 
near future on interest rates.
    Secretary Lew. Well, I never predict interest rates beyond 
what are the assumptions in our budget. Obviously, our budget 
shows a gradual return to more normal interest rates. We do not 
predict a time the Federal Reserve will make its decision on 
when it will move to change monetary policy. Then the markets 
will make their decision on how they react in terms of longer-
term rates.
    I think that in an economy that is growing, in an economy 
that is right now one of the healthiest in the world, it is a 
question of when, not if, interest rates start to go back up. 
The budget assumes interest rates that, if anything, are on the 
high end of what is likely to happen.
    So I think, for budgetary purposes, we have been 
conservative and we have built in assumptions which, if I was 
giving my honest best guess, are probably a little on the high 
side. But I think that is the right thing to do for budgeting, 
because I do not think we ought to be putting in numbers that 
understate the cost of debt service.
    Mr. Womack. I thank the Secretary.
    And thank you for the additional time, Mr. Chairman. I 
yield back.
    Mr. Crenshaw. Mr. Secretary, I would suggest when you are 
asked what will happen to interest rates, you simply respond 
they will go down, they will stay level, they will go up, but 
not necessarily in that order.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    So the head of the International Monetary Fund this morning 
said that America has the best economy of any of the economies 
in the world in terms of our competitors. The Federal Reserve 
just a little while ago, in the Beige Book, says the economy is 
continuing to expand in almost every region and sector. We have 
had now 59 months of consecutive job growth. In the last 11 or 
12 months, 200,000-plus jobs a month. So there is a lot to be 
thankful for in terms of the productivity of the American 
private sector.
    There are remaining challenges. I want to just raise an 
issue that is not about now, it is about the future, and it is 
about our competition. So I kind of sense that we are competing 
with billion-plus-populated countries like China and India. We 
see the EU has organized itself in a grouping. And we are 
competitors and partners depending on the day of the week. But 
that America's position in the world is that we are the leader, 
but that lead is no longer absolute, it is relative, that there 
are people who are seeking to eat our lunch. I mean, they liked 
to have what we have. They would love to have the strength of 
the American economy. And they are doing the things they need 
to do, whether it is educating their populous, or so forth and 
so on. And their budgets are growing.

                            CONSUMPTION TAX

    Now, I am interested, like in NASCAR, these cars pull into 
the pit, they've got all these different things. Our 
competitors have something that in their pit that we don't 
have. They have consumption taxes. 148 countries in the world 
use a consumption tax. We don't. And much of the time when this 
is discussed it is always about a VAT or something. I am not. I 
assume we might even be innovative enough to have a consumption 
tax that that wasn't a VAT or maybe an American form of a 
consumption tax.
    Our economy is primarily driven by consumption, however we 
are seeking revenues as a government from areas that have much 
smaller bases. So the first law of tax concepts and policy is 
you want the broadest base possible so you can have the lowest 
rate, so you can have less people trying to evade it.
    And I am wondering, given all of your experience--and I 
think my colleague raised this point about your bio--do you see 
a point in America where in order to continue to lead the 
world, to have the finest military, to do all the things that 
we want to do as a country, which some people are starting to, 
I think, understand we can't do on the cheap, I mean these 
things actually cost money, that the government may have to 
think anew about how we go about getting revenues?
    We are chasing revenues in some very narrow alleys even 
though we have an economy that is based on consumption. We have 
our competitors using consumption taxes, and we don't use one 
at all. Okay? So when Japan went through their thing, they 
could say, look, we are going to raise our national consumption 
tax and we are going to move in a different direction.
    So I would love to hear your thoughts on this.
    Secretary Lew. So let me start just with the broad view of 
the world that you describe. I think that there is no question 
that our economy is being looked at globally as the leader of 
economic growth right now. There are other countries with 
emerging economies that are growing at a faster rate, but there 
are not any other mature developed economies that are doing as 
well as we are.
    I think that, if anything, the world is overreliant on the 
United States right now, because if you look at the numbers, we 
are not big enough to pull everyone along, even if we grew 
another half a point or a point more. We can not make up for a 
shortfall in growth in Europe. We can not make up for a 
shortfall in growth in Asia.
    So I think we have to want other countries to do well for 
the global economy to do well. And that is what I say when I 
meet with the Chinese: We want your economy to do well. We want 
you to play fair. We do not want you to break the rules. But we 
want you to do well. It is good for you when we do well. It is 
good for us when you do well.
    I think that right now, after the financial crisis, we are 
at a moment in time where the world looked at the United States 
for a few years as being the cause of the financial problem. 
Now they look at the United States and they marvel at the 
resilience and ability of the U.S. economy to bounce back. 
There is something about the American spirit, the kind of 
indomitable American will to pick yourself up and get going 
again, but also the flexibility of our system. In a lot of 
countries people will not pick up and move down the street to 
take a job. In the United States, if there is a new industry 
that emerges, people go to take the jobs. They want the work.
    I think the core of your question is a very important one. 
We need to have a revenue base that is sufficient to support 
having us be the leaders in the generations to come. That means 
we have to continue to have the best research and development. 
We need to continue to have the best educated workers. We need 
to continue to have the infrastructure that is needed for 
commerce in the future. And without an adequate revenue base, 
you can not support that.
    We have put some ideas in our budget that our thoughts as 
to how to expand the tax base in a way that gets at the 
question of how do you go after a bigger, not a smaller base. 
If you take one specific idea, stepped-up basis that we put in, 
it is an attempt to get at taxing income that is never realized 
in a generation when it is earned, it goes tax free from one 
generation to another, because people do not need to take the 
gains in their lifetime.
    When you and I retire--I will speak for myself--when I 
retire I will need to draw down my retirement savings. They 
will not be something that just sits there to be passed on. And 
I will pay taxes on them when I take down my IRAs and 401(k)s.
    We thought it was entirely fair to say income should not be 
accumulated and never subject to the income tax. So that was an 
attempt to use our income tax-based system to broaden the base 
in a way that reflects principles of fairness, not saying we 
want to tax it more, but we want to tax it the way it would be 
taxed if you needed to use it in your lifetime.
    There are always questions about shifting to a consumption-
based or some different tax system. It is complicated, 
obviously. The challenge would be to design a system that would 
be progressive, and that is not straightforward in a 
consumption-based tax because people at lower income levels 
tend to consume a much higher percentage of their income than 
people at higher income levels.
    Mr. Fattah. We don't have to joust about it today, but you 
could exempt certain income categories or look at other ways to 
get at it.
    The real point is, is whether, given that we have used this 
income tax for over 100 years and given that in every survey 
the American public is convinced that it is unfair--whether it 
is the revenue source that can carry this country for the next 
100 years. If the only way someone can get elected President is 
to promise to cut taxes for everyone, at the same time that we 
are going to be competing with the Chinas and the Indias of the 
world to preserve our position in the world, these two things 
may not work together. At some point we may actually have to 
spend more money rather than have a debate about what we are 
cutting.
    And so I am just wondering whether or not, we can use a 
tool that has some limits, the most important being that the 
American public doesn't believe it is fair.
    Secretary Lew. It is definitely something that we think 
about and we always look at the academic work that is being 
done. I think to in a practical way shift from an income tax to 
a consumption tax is an enormously complicated undertaking. But 
I would be happy to follow up with you on this conversation.
    Mr. Fattah. I would love to talk to you about it. And, 
again, not now, but in the future. I do think that there needs 
to be some thinking about what directions the greatest country 
on Earth might go so that we could have a reliable revenue 
source. I think this might be worth having some discussions 
about.
    Thank you, Mr. Chairman.

                                ABLE ACT

    Mr. Crenshaw. Thank you.
    And let me ask you one final question. You have been very 
generous with your time. But I want to ask you about the way 
the IRS implements regulations, about two regulations. One was 
statutorily mandated. I mentioned in my opening statement about 
the ABLE Act. The States are going to administer that, but the 
IRS has to write some rules and it is supposed to be ready by 
July. And if you know a little bit about that bill, it is going 
to bring peace of mind to millions of Americans that are facing 
these challenges of disabilities. So a lot of States are 
already moving ahead to begin to administer this kind of 
program. And, just from your perspective, is that something, 
the July deadline that is in the statute, will that be able to 
be met?
    Secretary Lew. Mr. Chairman, we are working very hard on 
that rule and are trying very hard to meet the deadline. I am 
hopeful we will. But I am happy to follow up with you as we get 
closer to June to give you an update on where we are.
    Mr. Crenshaw. I appreciate that. Because, again, this is 
one of those pieces of legislation that is going to help 
millions of Americans.
    Secretary Lew. Yes.

                               501(C)(4)

    Mr. Crenshaw. The other thing is a regulation that I don't 
really care if you finish, and that has to do with the 
501(c)(4)s. When it was promulgated, it had, like, 150,000 
comments. It was pulled back. And as I understand it from the 
Commissioner, there was some concern that it would be kind of a 
wet blanket on the 2014 elections and it wasn't repromulgated. 
I guess it is being worked on again. And I think the 
Commissioner said that he doesn't want it to look like it will 
impact even the 2016 elections. So it sounds like that is not 
on the front burner anymore.
    Have you got a view on the timing of that? Again, I don't 
think that is statutory mandated. It is something that you all 
want to write and promulgate and have comments, but it doesn't 
sound like it is going to happen anytime soon.
    Secretary Lew. Well, Mr. Chairman, the proposed rule that 
was put out was meant to start a discussion. It started quite 
a----
    Mr. Crenshaw. Firestorm.
    Secretary Lew [continuing]. Firestorm of a discussion, and 
the 150,000 comments all require attention. There has been a 
process by which work has been ongoing to understand and think 
through the issues. I can not give you a schedule, but I can 
tell you that there is going to be a very careful process as we 
go forward, and we are always attentive to comments on 
important matters.
    Mr. Crenshaw. Great. Well, thank you very much. And thank 
you for your time today. You have got a big job, tough job. And 
if we can work together, we would like to do that.
    Again, thank you for being here today.
    Secretary Lew. Thank you, Mr. Chairman.
    Mr. Crenshaw. The hearing is adjourned.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
   
    
    
    

 
                           W I T N E S S E S

                              ----------                              
                                                                   Page
George, Hon. J. Russell..........................................     1
Koskinen, Hon. John A............................................   123
Lew, Hon. Jacob J................................................   205
Olson, Nina E....................................................     1

                                  <all>
</pre></body></html>
